<html>
<title> - INNOVATION IN EDUCATION THROUGH BUSINESS AND EDUCATIONAL STEM PARTNERSHIPS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     INNOVATION IN EDUCATION THROUGH BUSINESS AND EDUCATIONAL STEM 
                              PARTNERSHIPS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 22, 2008

                               __________

                           Serial No. 110-103

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

43-470 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 22, 2008....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     6
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     2
        Additional submissions:
            Prepared statement of the American College Testing 
              Program (ACT)......................................    81
            Prepared statement of Exxon Mobil Corp...............    82

Statement of Witnesses:
    Chang, Dr. Ramona, director of curriculum, Torrance Unified 
      School District............................................    14
        Prepared statement of....................................    16
    Lovett, Melendy, senior vice president and president, 
      Education Technology, Texas Instruments....................    47
        Prepared statement of....................................    49
    Luce, Tom, chief executive officer, National Math and Science 
      Initiative.................................................    20
        Prepared statement of....................................    22
    Mickelson, Phil, professional golfer and cofounder, Mickelson 
      ExxonMobil Teachers Academy................................     9
        Prepared statement of....................................    11
    Parravano, Dr. Carlo, executive director, Merck Institute for 
      Science Education..........................................    31
        Prepared statement of....................................    32
    Ride, Dr. Sally, president and CEO, Sally Ride Science.......    17
        Prepared statement of....................................    19
    Sullivan, Patricia, education solutions executive, Global 
      Education Industry at IBM..................................    37
        Prepared statement of....................................    39
    Wells, Brian H., chief systems engineer, Raytheon Co.........    42
        Prepared statement of....................................    44


                        INNOVATION IN EDUCATION
                          THROUGH BUSINESS AND



                     EDUCATIONAL STEM PARTNERSHIPS

                              ----------                              


                         Tuesday, July 22, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:04 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Hinojosa, 
McCarthy, Holt, Susan Davis of California, Sarbanes, Yarmuth, 
McKeon, Ehlers, Biggert and Kline.
    Staff Present: Tylease Alli, Hearing Clerk; Alice Cain, 
Senior Education Policy Advisor (K-12); Lynne Campbell, 
Legislative Fellow for Education; Adrienne Dunbar, Education 
Policy Advisor; Denise Forte, Director of Education Policy; 
David Hartzler, Systems Administrator; Lloyd Horwich, Policy 
Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Fred Jones, Staff Assistant, Education; 
Deborah Koolbeck, Policy Advisor, Subcommittee on Healthy 
Families and Communities; Ann-Frances Lambert, Special 
Assistant to Director of Education Policy; Jessica Kahanek, 
Press Assistant; Jill Morningstar, Education Policy Advisor; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel 
Racusen,Communications Director; Meredith Regine, Junior 
Legislative Associate, Labor; Dray Thorne, Senior Systems 
Administrator; Margaret Young, Staff Assistant, Education; Mark 
Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Alexa Marrero, Minority Communications 
Director; Chad Miller, Minority Professional Staff; Susan Ross, 
Minority Director of Education and Human Services Policy; and 
Sally Stroup, Minority Staff Director.
    Chairman Miller. The committee will come to order, a quorum 
being present. Today we are conducting a hearing, and as soon 
as we get the Chairman organized, we will continue. Today we 
are conducting a hearing on Innovation in Education through 
Business and Education STEM Partnerships. We will examine how 
business-education partnerships are helping to drive innovation 
and to strengthen science, technology, engineering, and math 
education in our schools, fields that we know U.S. students 
have been falling behind in for some time.
    In May, this committee held a hearing on a recent report by 
the National Mathematics Advisory Panel that found that our 
Nation's system for teaching math is broken and must be fixed 
if we are to maintain our competitive edge. During that hearing 
we heard over and over again that we are not giving our 
teachers the training and support needed to provide for 
effective math instruction.
    Simply put, we cannot expect our teachers to teach what 
they themselves do not know. The panel recommends, among other 
things, improving teacher training and professional 
development, and providing ongoing support for teachers. I am a 
firm believer that the best thing we can do to help our 
children succeed in math, science, and every other subject is 
to invest more in the success of their teachers.
    One of our witnesses, John Castellani from the Business 
Roundtable, captured it especially well. He said that expanding 
the talent pool of Americans with a firm grounding in math and 
science is a critical element to the innovation agenda that our 
Nation needs to pursue in order to remain competitive in the 
21st century.
    The business community is playing an important role in this 
effort, and today we will hear directly from some of the 
business leaders who are paving the way in these and other 
exciting initiatives to bring STEM education to the next level. 
For example, Texas Instruments has created a Math Scholars 
program that uses technology to improve the professional 
development of math and science teachers.
    ExxonMobil has partnered with Phil and Amy Mickelson to 
work on closing the math and science achievement gap between 
U.S. students and their international peers. The Phil Mickelson 
ExxonMobil Teachers Academy provides teachers of third-, 
fourth-, and fifth-graders with the professional development 
training, knowledge, and skills needed to boost students' 
interest in math and science careers.
    The National Math and Science Initiative is working with 
States to increase the number of students taking and passing AP 
courses, and expanding the highly successful UTeach program, 
which encourages math and science majors to become teachers. We 
will hear from these and a number of other programs that have 
been absolutely critical to improving and exposing teachers to 
the best knowledge, to the best methods to help them teach 
their students, and to provide the fundamental foundation and 
the basis by which those teachers can then proceed--or those 
individuals and teachers can proceed to a career in math, 
science, and engineering, or in the teaching of math, science, 
and engineering.
    And I would like to welcome all of the witnesses to this 
committee, and I would like now to yield to Mr. McKeon, the 
senior Republican on the committee, for his opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good afternoon. Welcome to our hearing on ``Innovation in Education 
through Business and Education STEM Partnerships.''
    Today we will examine how business-education partnerships are 
helping drive innovation and strengthen science, technology, 
engineering, and math education in our schools--fields that we know 
U.S. students have been falling behind in for some time now.
    In May, this Committee held a hearing on a recent report by the 
National Mathematics Advisory Panel that found that our nation's system 
for teaching math is ``broken and must be fixed'' if we are to maintain 
our competitive edge.
    During that hearing, we heard over and over again that we are not 
giving our teachers the training and support needed to provide 
effective math instruction.
    Simply put, we cannot expect our teachers to teach what they 
themselves do not know.
    The panel recommends, among other things, improving teacher 
training and professional development and providing ongoing support for 
teachers.
    I am a firm believer that the best thing we can do to help our 
children succeed in math, science, and every other subject is to invest 
more in the success of their teachers.
    One of our witnesses, John Castellani of the Business Roundtable, 
captured it especially well. He said that expanding the talent pool of 
Americans with a firm grounding in math and science is a critical 
element of the innovation agenda that our nation needs to pursue in 
order to remain competitive in the 21st century.
    The business community can--and should--play a key role in this 
effort.
    As he went on to highlight, there are many innovative examples of 
how businesses are teaming up with the education sector to bolster math 
and science education.
    For example, Texas Instruments has created a Math Scholars program 
that uses technology to improve the professional development of math 
and science teachers. The company has also partnered with the CBS 
television show NUMBERS, which features a mathematician working with 
his FBI agent brother to solve crimes.
    ExxonMobil has partnered with Phil and Amy Mickelson to work on 
closing the math and science achievement gap between U.S. students and 
their international peers.
    The Phil Mickelson Exxon Mobil Teachers Academy provides teachers 
of third, fourth, and fifth graders with the professional development 
training, knowledge and skills needed to boost students' interest in 
math and science careers.
    And the National Math and Science Initiative is working with states 
to increase the number of students taking and passing AP courses, and 
to expand the highly-successful UTeach program, which encourages math 
and science majors to become teachers.
    Today we will hear directly from some of the business leaders who 
are paving the way for these and other exciting initiatives that will 
bring STEM education to the next level.
    At a time when other countries are stepping up to the plate to 
challenge our nation's global leadership, the National Math Panel's 
Report was a sobering wake-up call.
    Over the past two years, this Congress has taken important first 
steps to invest in and strengthen math and science education.
    Last year we enacted the America COMPETES Act, which improves 
teacher education in STEM fields, and establishes public private 
partnerships between colleges and businesses to educate and train 
mathematicians, scientists and engineers, among other things.
    We also enacted TEACH Grants that provide up-front tuition 
assistance of $4,000 each year for outstanding students who commit to 
teaching math, science, and other high-need subjects in high need 
schools--a benefit that students will start receiving this fall.
    But, as the math panel's report reminds us, there is still a great 
deal of work ahead.
    For starters, both the business community and Congress must re-
double our efforts to do all we can to make strong math and science 
education a focal point in our schools.
    I hope that today's hearing helps continue to drive the 
comprehensive, systemic reforms and investments that we know are needed 
to truly improve math and science education in this country.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Good afternoon, Chairman Miller, and let me 
extend a warm welcome to our distinguished panel of witnesses 
here today.
    In May of this year, our committee held a hearing on the 
important findings of the National Mathematics Advisory Panel. 
Today's hearing is the natural successor to what we learned in 
May, because business and education partnerships are essential 
to carrying out the math panel's recommendations on how best to 
advance the teaching and learning of mathematics. Even more 
broadly, these business partnerships are critical to enhancing 
educational opportunity in all the STEM fields, which include 
science, technology, engineering, and mathematics.
    The No Child Left Behind Act was built on one simple goal, 
that every child in America must be able to read and do math at 
grade level. We recognize that proficiency in reading and math 
are necessary in order for our students to thrive in more 
advanced subjects, including physics, engineering, computer 
science, and all the STEM fields. Unfortunately, too few 
American students are getting the strong educational foundation 
they need to succeed in a technology-driven economy. A large 
majority of secondary school students fail to reach proficiency 
in math and science, and many are taught by teachers lacking 
adequate subject matter knowledge.
    Worse still, we are falling behind our international peers. 
In a recent international assessment of 15-year-old students, 
the U.S. ranked 28th in math literacy, and 24th in science 
literacy. The U.S. ranks 20th among all nations in the 
proportion of 24-year-olds who earn degrees in natural science 
or engineering.
    Here in Washington, we clearly recognize the need to 
enhance student achievement in the STEM fields. In fact, there 
seems to be no shortage of Federal programs and funding streams 
focused on STEM advancement. A 2005 study by the Government 
Accountability Office found that 207 distinct Federal STEM 
education programs appropriated nearly $3 billion in fiscal 
year 2004.
    We are creating the programs and spending the money, but 
student achievement is not yet where we need it to be. What 
this tells me is that Federal investment alone is not enough to 
spur innovation and advancement. We need buy-in from 
stakeholders at all levels, from States and local school 
boards, to nonprofits and business leaders.
    Today I am pleased we have the opportunity to hear directly 
from one group of stakeholders I just mentioned, the business 
community. In schools all around the country, business leaders 
are at the forefront in building a strong educational system. 
From providing resources for individual schools to mobilizing 
community support for policy initiatives, to training teachers 
and students in new skills and technologies as they arise, 
today's business leaders can and do play a vital role.
    What business leaders have come to recognize is that 
America's future economic competitiveness and long-term success 
depends on our students receiving a high-quality education from 
elementary, middle, and high schools to postsecondary schools. 
This will enable our country to produce a skilled workforce, 
continue as a leader in research and development, respond 
effectively to globalization and technology changes, and grow 
economically. America's business community deserves a great 
deal of credit for recognizing the importance of education and 
investing accordingly.
    I look forward to hearing about some of the specific 
approaches being used today, and exploring opportunities for 
expanded partnerships into the future. Once again, I want to 
thank our witnesses for being here to discuss this important 
topic, and I look forward to your testimony.
    Thank you, Chairman Miller, and I yield back.
    Chairman Miller. Thank you.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Good afternoon Chairman Miller, and let me extend a warm welcome to 
our distinguished panel of witnesses.
    In May of this year, our Committee held a hearing on the report and 
findings of the National Mathematics Advisory Panel. Today's hearing is 
a natural successor to what we learned in May, because business and 
education partnerships are essential to carrying out the Math Panel's 
recommendations on how best to advance the teaching and learning of 
mathematics.
    Even more broadly, these business partnerships are critical to 
enhancing educational opportunity in all the STEM fields, which include 
science, technology, engineering, and mathematics.
    The No Child Left Behind Act was built on one simple goal: that 
every child in America must be able to read and do math at grade level. 
We recognize that proficiency in reading and math are necessary in 
order for our students to thrive in more advanced subjects, including 
physics, engineering, computer science, and all the STEM fields.
    Unfortunately, too few American students are getting the strong 
educational foundation they need to succeed in our technology-driven 
economy. A large majority of secondary school students fail to reach 
proficiency in math and science, and many are taught by teachers 
lacking adequate subject matter knowledge.
    Worse still, we're falling behind our international peers. In a 
recent international assessment of 15-year-old students, the U.S. 
ranked 28th in math literacy and 24th in science literacy. The U.S. 
ranks 20th among all nations in the proportion of 24-year-olds who earn 
degrees in natural science or engineering.
    Here in Washington, we clearly recognize the need to enhance 
student achievement in the STEM fields. In fact, there seems to be no 
shortage of federal programs and funding streams focused on STEM 
advancement. A 2005 study by the Government Accountability Office found 
that 207 distinct federal STEM education programs were appropriated 
nearly $3 billion in FY2004.
    We're creating the programs and spending the money, but student 
achievement is not yet where we need it to be.
    What this tells me is that federal investment alone is not enough 
to spur innovation and advancement. We need buy-in from stakeholders at 
all levels, from states and local school boards to non-profits and 
business leaders.
    Today, I'm pleased that we have the opportunity to hear directly 
from one group of stakeholders I just mentioned, the business 
community. In schools all around the country, business leaders are at 
the forefront in building a stronger educational system.
    From providing resources for individual schools, to mobilizing 
community support for policy initiatives, to training teachers and 
students in new skills and technologies as they arise, today's business 
leaders can and do play a vital role.
    What business leaders have come to recognize is that America's 
future economic competitiveness and long-term success depends on our 
students receiving a high quality education, from elementary, middle, 
and high schools to post secondary schools. This will enable our 
country to produce a skilled workforce, continue as a leader in 
research and development, respond effectively to globalization and 
technology changes, and grow economically.
    America's business community deserves a great deal of credit for 
recognizing the importance of education and investing accordingly. I 
look forward to hearing about some of the specific approaches being 
used today, and exploring opportunities for expanded partnerships into 
the future
    Once again, I want to thank our witnesses for being here to discuss 
this important topic. I look forward to your testimony. Thank you 
Chairman Miller, and I yield back.
                                 ______
                                 
    Chairman Miller. And all Members will be entitled to submit 
a written statement as part of the committee record.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this important hearing on 
ways to promote innovation in education through business and education 
STEM partnerships.
    Today's 21st century economy requires increased levels of 
understanding of engineering and technology fields. The foundation for 
this learning is math and science, but the U.S. is falling behind. In 
2006, the average score of American students on the Program for 
International Student Assessment (PISA) was below that of 31 other 
countries. For our country to remain competitive in the global economy, 
we need to provide every student with, at the very minimum, a basic 
understand of math and science. If we prepare our kids now, then they 
will have the skills and interest to go on to careers in technology and 
engineering. We made a good first step when this Congress passed the 
COMPETES Act. Now we must ensure that the programs it created are fully 
funded and implemented.
    I am encouraged by the formation of partnerships between the 
business and education communities that focus on strengthening STEM 
education and support programs for teachers and I look forward to 
learning more about them at today's hearing.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Mrs. McMorris Rodgers follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress From the State of Washington

    Thank you Chairman Miller and Ranking Member McKeon. I thank our 
many witnesses for being here today to discuss the importance of 
partnerships between the business community and education system to 
strengthen the impact of Science, Technology, Engineering and 
Mathematics (STEM) education.
    Our economy is growing more diverse and increasingly global. 
American competitiveness and ingenuity depend on a skilled workforce 
that reflects the needs of our economy. I am pleased groups like the 
National Math and Science Initiative, IBM, and the Mickelson ExxonMobil 
Teachers Academy are reaching out to our nation's students to grow 
their interest in math and science.
    In order for our nation to remain competitive, our schools must 
continue to cultivate female scientists, technologists, engineers, and 
mathematicians from every background and neighborhood to cultivate the 
innovations of tomorrow. There are, unfortunately, a disproportionately 
low number of female students pursuing careers in STEM fields and it is 
crucial we focus special attention on increasing the participation of 
women. I applaud Dr. Ride for her time and work in motivating young 
girls and women so hopefully one day we can increase the numbers of 
women who make vital contributions in STEM fields.
    This process must start in the schools, making sure students have 
been taught adequate skills before entering the workforce. In order to 
do so, we need to work collaboratively with the education and business 
communities to ensure students are prepared to enter the workforce with 
the necessary education, skills and training to be successful. We also 
need to improve the connection between what is taught in our classrooms 
and how it impacts our every day life. Unfortunately today, most kids 
in the United Stated graduate from high school with little 
understanding of how they will use math or science outside the 
classroom. That needs to change if we are to produce the next 
generation of innovators.
    I am pleased the College Opportunity and Affordability Act will 
include a program to allow qualified professionals, as adjunct content 
specialists, to bring their real world experience into the classroom. 
Adjunct content specialists are a critical step in making this 
practical application connection. This program would make it easier for 
qualified individuals to take time out from their career to go into the 
classroom to share their expertise and real world experience. This will 
show students how what they learn is critical to their future. This is 
made possible when successful people like Bill Gates come into the 
classroom to teach computer science to the next generation of young 
minds.
    Adjunct content specialists could be hired to address one or more 
subject areas on a part-time basis through distance learning 
arrangements, or provide instruction full-time while on leave from 
their jobs. This kind of flexibility will allow school districts to 
address specific needs within their schools to bolster math, science, 
and foreign language education.
    To meet the demands of an increasingly technologically advanced, 
global marketplace we must improve the skills and training of our 
nation's workforce. We must do all we can to prepare our kids for the 
opportunities life presents them. If we equip them with skills in high 
demand fields, America will continue to lead in innovation and 
excellence.
    Thank you and I look forward to hearing from the witnesses about 
these partnerships that are being fostered around the country.
                                 ______
                                 
    Chairman Miller. With that, I would like to introduce our 
panel. I want to again thank you for your time and for your 
expertise in coming before this committee. First, I would like 
to introduce Phil Mickelson, who is known throughout the world 
and to, I think, everybody in this room as one of the all-time 
leading golfers on the PGA Tournament. And he ranks second 
among active players and 13th all time with 34 career wins, and 
has given us a lot of excitement on Saturday and Sunday 
afternoons. And thank you so much for taking time out of your 
busy schedule to be here.
    But he is here because he and his wife Amy have partnered 
with ExxonMobil to create the Mickelson ExxonMobil Teachers 
Academy. They have also created the Phil and Amy Mickelson 
Foundation, which focuses on children and families in need. In 
September, Phil and Amy will host their fourth annual 
SmartStart program, which invites 5,000 San Diego elementary 
children on a back-to-school shopping spree. The foundation 
donated $750,000 to Hurricane Katrina relief efforts relating 
to education.
    Ramona Chang began her educational career in 1982 as a 
special education elementary teacher in grades K through five 
in southern California. She later served as the assistant 
principal and then principal, and she focused on using student 
data to guide teachers' classroom practices. In 2004, Dr. Chang 
became the Director of Curriculum for the Torrance Unified 
School District, overseeing professional development and 
curriculum implementation for both teachers and administrators. 
Dr. Chang has participated in the Mickelson ExxonMobil Math and 
Science Teachers Academy, I think, for 4 years. Is that 
correct, Dr. Chang? And we welcome you to the committee.
    Sally Ride almost needs no introduction. She is an amazing 
woman, with amazing credentials and achievement. She was the 
first American woman to travel in space. Selected as an 
astronaut candidate in 1978, Ms. Ride served as a mission 
specialist on several space shuttle flight crews, and Special 
Assistant to the Administrator for Long-Range and Strategic 
Planning at NASA. As a longtime advocate of science education, 
she founded Sally Ride Science in 2001 to motivate girls and 
young women to pursue careers in the STEM fields. This company 
creates engaging science material for elementary and middle-
school students, parents and teachers, and partners with 
leading universities to offer innovative hands-on science camps 
for girls entering fourth through the ninth grade. Ms. Ride has 
also written five science books for children, and has served on 
a number of boards, including the President's Committee of 
Advisors on Science and Technology. She is also the recipient 
of the Jefferson Award for Public Service, and has been 
inducted into the National Women's Hall of Fame.
    Tom Luce is the CEO of National Math and Science 
Initiative. Mr. Luce previously served as Assistant Secretary 
of the Office of Planning, Evaluation and Policy Development at 
the U.S. Department of Education, Chair of the Texas National 
Research Laboratory Commission, and chief of staff for the 
Texas Select Committee on Public Education. He was cofounder of 
the National Center for Education Accountability, the sponsor 
of the Just for Kids School Improvement Model, and has served 
as chairman of the board until 2005. He also founded the 
Communities Just for the Kids. He is the recipient of the 
Center for Nonprofit Management Social Entrepreneur Award and 
the Dallas Historical Society Excellence in Community Service 
Award.
    Carlo Parravano will be introduced by my colleague from New 
Jersey, Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. And joining our 
distinguished panel today is Carlo Parravano, who has had a 
distinguished career as a researcher, educated at Oberlin 
College, and with a Ph.D. from the University of California at 
Santa Cruz. He has applied physical chemistry techniques to the 
solution of biochemical and environmental problems. For the 
past 15 years, I have gotten to know him as the head of one of 
the best corporate science programs in the United States, the 
Merck Institute for Science Education.
    Merck, a leading research company, understands that its 
future depends on the skills and talents of a trained 
workforce. And going beyond its own workforce, Merck has taken 
the challenge of general science education, understanding that 
investment in science is important not just to--to improve the 
quality of the lives of Americans and to improve the overall 
economy and our ability to meet the future. Merck has focused 
on developing curiosity in children, developing the science 
education to build on that curiosity, and to prepare children 
to deal with the modern world.
    Carlo Parravano has done an excellent job, and I think we 
will benefit from hearing about the experience of the Merck 
Institute.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Patty Sullivan is the Education Solutions Executive for 
IBM's Global Education Industry. Her responsibilities include 
overseeing IBM's partnership with both higher-education 
institutions and K-12 school districts. She leads efforts to 
create offerings responsive to the education industry's needs 
which combine IBM's products and services with those from other 
companies and public organizations. Ms. Sullivan joined IBM in 
1982 as a sales trainee in Anchorage, Alaska, and has held 
various technical and marketing positions since then.
    Brian Wells is the Raytheon Chief Systems Engineer and 
Senior Principal Engineering Fellow within the Raytheon 
corporate engineering organization. Prior to this assignment, 
he was the technical director of the Future Naval Capabilities 
organization and the Raytheon Chief Engineer for the next 
generation aircraft carrier warfare systems development 
program. You don't have to repeat that too often, do you? He 
has held a number of management positions, including manager of 
the Systems Engineer Center for the PATRIOT systems engineering 
manager, and manager of the Missile Concept and Design 
Department. So you are deep into engineering and math. All 
right. Thank you for being here.
    Melendy Lovett is a Senior Vice President of Texas 
Instruments and President of the company's worldwide Education 
Technology business, which focuses on market-leading 
educational technology to improve teaching and learning of math 
and science. Previously Ms. Lovett was the vice president of 
the company's human resources organization, where she was 
responsible for Texas Instruments' worldwide compensation and 
benefits program. Ms. Lovett has established and leads an 
initiative of women who work for Texas Instruments, women who 
are working to improve math and science education for girls in 
elementary and high school.
    Thank you all for being here.
    We are going to begin, Mr. Mickelson, with you. And when 
you begin speaking, a green light will go on in front of you. 
That will tell you you have 5 minutes. We will be a little 
liberal with that time, because we want to hear what you have 
to say. Your written statements will be put in the record in 
their entirety. To the extent to which you can summarize them, 
we will keep you within that 5 minutes. After 4 minutes, an 
orange light will go on. That might suggest you might want to 
sum up unless you think it is terribly valuable to keep going. 
But at some point I am going to rein you in because a couple of 
people do have--have been nice enough to make their time 
available, and they do have flight commitments, and we want to 
hear from the entire panel. It has taken us some time to 
assemble this panel. We are delighted that you have all joined 
us.
    And, Mr. Mickelson, we will begin with you.

STATEMENT OF PHIL MICKELSON, PROFESSIONAL GOLFER AND COFOUNDER, 
             MICKELSON EXXONMOBIL TEACHERS ACADEMY

    Mr. Mickelson. Well, thank you, Chairman.
    Chairman Miller. And your microphone is--you got to click 
it once.
    Mr. Mickelson. Thank you, Chairman Miller, and members of 
the committee.
    Chairman Miller. Excuse me, before we start, some might 
wonder why you are here. So we are going show a video. One 
minute. [Video played.]
    That is why you are all here today. I was watching this 
commercial, and I said, damn, there must be something I can do 
with this. And it wasn't about improving my golf swing. I just 
thought that--if kids could start to understand the concepts 
that were involved there, and that could engage them in some 
way to think about how to figure this all out, not only would 
they be on the PGA tour, but they would then hopefully have 
some doors, some windows opened into mathematics and science 
and all that it presents to us in our daily lives. So you are 
here.
    Mr. Mickelson. Well, if you could help inspire them in the 
math and sciences as opposed to your golf game, that would be 
appreciated.
    Chairman Miller. I have never inspired anything with my 
golf game. Everybody wants to play with me because they know 
they will do better.
    Mr. Mickelson. Chairman Miller and members of the 
committee, I want to thank you for the opportunity for my wife 
and I to be here to discuss the importance of math and science 
education in America. This is a very important topic for us. It 
means a lot to us because of our great love that we have for 
our children and our great love that we have for our country. 
And we have been fortunate that our parents and our teachers 
instilled the importance in education in us as youngsters.
    So I think this was most evident for me personally when I 
was a junior in college. I won a PGA Tour event, and I had an 
opportunity to go out on the tour right away and sign lucrative 
contracts, but instead I chose to finish the last year and a 
half of school to get my degree. And I think that this 
importance of education was instilled in me, again, by my 
teachers and by my parents.
    But a few years ago I was playing golf, and the people I 
was playing with made me aware of this report that showed the 
alarming trend and told me, explained to me how serious this 
trend was in the declining graduates that we have in the math 
and science, engineering fields. In fact, in the last 3 years 
our graduates, only 15 percent were in the science and 
engineering field, as opposed to Singapore with 67 percent, and 
China with 50 percent. And so this is a very alarming trend 
because it threatens us as a global leader.
    And so Amy and I wanted to set out to try to reverse this 
trend, and it worked out perfectly because the ExxonMobil 
Foundation has had a long history and commitment to education. 
And so we formed a partnership to form the Mickelson ExxonMobil 
Math and Science Teachers Academy. And the goal here was to 
target third- through fifth-grade teachers, where the kids are 
still wide-eyed and open to new ideas; they are not set on math 
isn't cool. They are still open to these ideas. And we wanted 
to give these teachers new, innovative ways, innovative tools 
to inspire their children. And so we bring them in for a week-
long session with the National Science Teachers Association and 
Math Solutions providing the curriculum as well as the staff, 
and we are able to give these teachers the techniques they need 
to go back to the classroom and inspire their kids.
    And so we are proud to say that this is our fourth year. We 
have had 1,400 teachers go through this program, and of that 
1,400, they can reach obviously their own students, but they 
are also going and reaching their fellow teachers, sharing with 
them these new techniques. And in addition, we have set up a 
platform where they can interact with each other, share ideas, 
share stories, and share new information and techniques as 
well. So we feel like this has a far-outreaching platform.
    Amy and I have been stealing some of these techniques for 
our own kids, because it is important that we again lead by 
example. And so we have an opportunity to take advantage of one 
of the biggest challenges of playing the PGA Tour, which is 
travel, and turn it into a positive. And we do this with my 
wife. My wife Amy takes our kids--we have two girls and a boy, 
and she takes them to every educational opportunity that each 
city has to offer. So we will go to museums, the natural 
history museum, we will go to aquariums, we will go to zoos, 
science exhibits, and inspire our kids in the sciences this 
way. In fact, the ``Bodies'' exhibition, where you see the 
internal organs, the internal parts of your body, was a great 
way for us to deter our kids from difficult social challenges. 
So we showed them what a healthy lung looks like relative to a 
smoker's lung, and what a healthy liver looks like relative to 
an alcoholic's liver. And so they walked out of that exhibit 
saying, I will never drink or smoke. And so we have been able 
to use science as a way of incorporating difficult social 
issues and helping them make great decisions.
    I would like to share one story, because I think it is 
funny, and it encompasses how we use science and math every 
day, whether we are aware of it or not. And my favorite story 
is about my caddy Bones. And Bones was going through college, 
and he had a difficult time passing this math class. And he 
studied for weeks because he needed to pass this math class to 
get his degree. He studied for weeks for the exam, hours and 
hours, and he got to the exam, opened the book and realized 
after seeing the first two questions there was no way that he 
was going to pass this test. So he implored his teacher with 
this heartfelt note talking about how he promises that if he 
can find it in his heart to give him a D, he will never use 
math in his job again.
    Well, as I came out on Tour a couple years in, I was 
playing the Atlanta Classic, and I am walking down the fairway, 
and this guy starts yelling at me from the gallery, saying, 
``you lied to me, you lied to me.'' Only he wasn't yelling at 
me, he was yelling at Bones because Bones was adding up the 
yardage, and it was his math teacher.
    So whether we are aware of it or not, we use math and 
science every day. And that is why Amy and I have become so 
passionate about this program, and why we are so excited about 
the success we have had. Although it is not immediate and we 
don't see the results right away, we know that 15, 20, 30 years 
down the road, these young students will be our solvers of 
today's problems.
    Thank you.
    Chairman Miller. Thank you very much.
    [The statement of Mr. Mickelson follows:]

     Prepared Statement of Phil Mickelson, Professional Golfer and 
            Cofounder, Mickelson ExxonMobil Teachers Academy

    Congressman Miller, members of the committee, thank you for having 
me here today to discuss the importance of math and science education.
    While it may be my role as a professional golfer that got me an 
invitation to this witness table today, it's my role as a parent that 
drives me to support math and science education and tackle the growing 
need to prepare the next generation of scientists and engineers.
    Parents play a crucial role in underscoring the value of education 
to their children. Since I can remember, my parents instilled in me the 
importance of my education while showing an unwavering support of my 
golf career. They were there to share with me the thrill of winning my 
first major title at the Northern Telecom Open in 1991 as an amateur, 
while continuing to insist that I complete my degree in psychology.
    As a parent now, my wife Amy and I recognize the role we play in 
instilling in our kids the value of education while inspiring their 
natural curiosity about the world around them. And it's largely through 
math and science that our children explore their surroundings and 
discover what interests them.
    Several summers ago, our daughter Amanda was given the opportunity 
to choose what summer camp she wanted to attend, and living in southern 
California, her possibilities were endless.
    She chose to go to science camp and she had the greatest week of 
her life. She ended up being the only girl in the entire camp and had 
the opportunity to dissect a squid and write her name in the ink. It 
was an experience that has propelled her interest in science, and we 
hope that she will continue to embrace it.
    As we travel across the country for the PGA tournament, we often 
visit museums along the way, stopping to visit exhibits like Bodies--
The Exhibition in Phoenix, the Rainforest exhibit at the Dallas World 
Aquarium and the Rose Center at the American Museum of Natural History 
in New York. We continue to find ways to encourage our children's 
education, and strive to take advantage of the teachable moments with 
math and science.
    And I recognize that it's my role as a professional golfer that has 
given me the opportunity to give back and support education initiatives 
across the country. Amy and I support a broad range of educational 
programs through our foundation, but math and science education are at 
the forefront our of education support.
    A few years ago, I was playing golf with some key business leaders 
who told me that the number of science and engineering graduates had 
been dropping in the United States, while rising rapidly in other 
countries. Recognizing that our status as a scientific leader in the 
world is at jeopardy unless something is done to address this issue, my 
wife Amy and I committed ourselves to finding a way to way to help 
develop the next generation of science-savvy citizens and reverse this 
trend.
    After doing some additional research about the conversation we'd 
had on the golf course that day, Amy and I were startled by the 
statistics.
    <bullet> The Organization for Economic Cooperation and Development 
had ranked the math skills of students in Hong Kong, Finland and South 
Korea at the top of the list, while U.S. teens ranked 28th out of the 
40 countries evaluated.
    <bullet> According to National Center for Education Statistics, 93% 
of students in grades 5-9 were taught physical science by a teacher 
lacking a major or certification in the physical sciences (chemistry, 
geology, general science, or physics).
    <bullet> According to the National Center for Education Statistics, 
less than \1/3\ of U.S. 4th and 8th grade students performed at a 
proficient level in mathematics and even \1/3\ of 4th graders and \1/5\ 
of 8th graders lacked competence to perform basic math functions.
    Additional studies, including the National Academies of Science 
report, Rising Above the Gathering Storm, illustrated the immense 
challenges we face in order to bolster our education in math and 
science to maintain our competitive advantage.
    In their report, the blue-ribbon panel with the National Academies 
of Science found that:
    <bullet> Only 29 percent of 4th grade students, 32 percent of 8th 
grade students, and 18 percent of 12th grade students performed at or 
above the proficient level in science;
    <bullet> Almost 30 percent of high school mathematics students and 
60 percent of those enrolled in physical science have teachers who 
either did not major in the subject in college or are not certified to 
teach it;
    <bullet> The U.S. ranks 16th of 17 nations in the proportion of 24-
year-olds who earn degrees in natural science or engineering as opposed 
to other majors; and,
    <bullet> Those undergraduates who switch from science and 
engineering majors to other majors ``are often among the most highly 
qualified college entrants, and they are disproportionately women and 
students of color.''
    Amy and I knew we wanted to do something to support math and 
science education, but we also knew that in order to have the impact we 
were looking for, we couldn't do it alone. We wanted to find partners 
that had taken the lead in supporting math and science initiatives and 
were committed to developing the next generation of science-savvy 
citizens.
    At the time, I was in discussions with ExxonMobil regarding their 
sponsoring me as a PGA player. As I learned more about the company that 
I would be working with, I was encouraged to hear more about 
ExxonMobil's long-standing commitment to supporting education and their 
dedication to developing opportunities to contribute to education 
initiatives, particularly in science, technology, engineering, and math 
(STEM) from pre-school through college.
    As a company, ExxonMobil has been a pioneer in developing and 
supporting math and science programs through such influential 
organizations as the National Science Teachers Association and the 
Mathematics Association of America.
    And as the employer to more than 14,000 scientists and engineers, I 
knew that ExxonMobil had a vested interest in encouraging the next 
generation to pursue careers in math- and science-related fields. So as 
part of my sponsorship, we began to discuss ways we could work together 
to develop a program to address this critical issue.
    While there are a broad range of areas that we could support, we 
wanted to address one of the most importance pieces of the education 
picture: teachers. As parents, Amy and I believe that continually 
improving the methods by which teachers are trained will have a great 
impact on the science and math education students receive--and as a 
result, their future employment prospects.
    Along with ExxonMobil, we enlisted the support of the National 
Science Teachers Association and Math Solutions to develop a program 
and curriculum to address critical needs in math and science education. 
As the program began to take shape, we knew we wanted the program to 
accomplish several key objectives.
    Our key goal was to support elementary-level teachers to ensure 
they were equipped and prepared to establish a solid foundation of math 
and science education for students at an early age. Third- through 
fifth-grade is a crucial stage in educational development of children. 
Children in this age group begin to form ideas mentally and group 
things together. In addition, their next level of mental development is 
sequencing and ordering, preparing the way for math skills, and making 
them an ideal group to focus on in order to inspire interest in math 
and science.
    So we worked together with NSTA and Math Solutions and designed a 
professional development program that gives teachers the opportunity to 
take a fresh look at math and science by designing a curriculum that 
helped them fully understand math and science concepts through hands-on 
learning. Hands-on demonstrations and exercises not only help to bring 
math and science concepts to life, but also work to pique the teachers' 
natural curiosity and awaken their sense of inquiry and problem-
solving, also helping them to see these concepts through their 
students' perspective.
    We developed a program to allow teachers to network with teachers 
like themselves and share best practices; to give them a forum to build 
off of each other's passion for teaching.
    We designed a program that helps teachers relate math and science 
to students' everyday lives and help them to recognize that math and 
science is everywhere.
    Because math and science is everywhere. Even in my golf game. I use 
math and science every day, and it's not just adding yardages to the 
pin. I actually practice based on statistics. I use course management 
based on numbers.
    For instance, I know that my margin of error is plus or minus 5 or 
6 percent. So if I have a 200 yard shot, 6 percent of that is going to 
be 32 yards off line--that's going to be my margin of error.
    And there's even more science involved in equipment I use. Launch 
angles, spin rate, loft, deflection, initial velocity, the transfer of 
energy. I continually work with companies like Callaway and some of the 
most technical design processes to optimize the performance of my 
clubs.
    And in our goal to equip teachers with effective tools they could 
take back to their classrooms, I also enlisted the support of my short-
game instructor and former NASA engineer, Dave Pelz. Dave worked with 
the Academy to develop a DVD of short classroom math and science 
demonstrations that teachers could use to bring these subjects to life 
for their students. Using commonly found objects, such as basketballs, 
tennis balls, wood blocks and buckets, Dave was able to demonstrate how 
kids themselves can build on their natural curiosity to learn math and 
science concepts.
    With these objectives in place, we launched the Academy in 2004 as 
a week-long, all-expenses-paid professional development program to hone 
the skills of teachers across the country. Since then, Amy and I have 
received tremendous feedback from teachers to tell us what an 
incredible impact the Academy had on their teaching.
    We've heard stories about how the teachers have a newfound 
confidence in their teaching based on their deeper understanding of the 
math and science principles the Academy teaches. And when teachers are 
confident about the material they are teaching, their students are more 
comfortable in absorbing these concepts and principles.
    Based on the overwhelmingly positive response to the Academy and 
the demonstrated the need for these types of professional development 
programs, within the first two years of the Academy, we expanded the 
Academy from one, week-long academy to three week-long Academies: one 
in Houston, one in Baton Rouge and this year, one in Jersey City New 
Jersey at the Liberty Science Center.
    To date, the Academy has prepared more than 1000 teachers to return 
to their classrooms as ambassadors for math and science and inspire 
their students in these subjects the same way that they themselves were 
inspired at the Academy.
    This year, we also expanded the opportunities for teachers from 
across the country to attend the 2009 Mickelson ExxonMobil Teachers 
Academy in Liberty Science Center by launching sendmyteacher.com
    At sendmyteacher.com, students can recognize their teacher for the 
impact they have had on their lives and recommend that their teachers 
apply for next summer's Academy. I would encourage students and third- 
through fifth-grade teachers across the country to log on to 
sendmyteacher.com to learn more about how they can work with us to 
improve math and science education with a chance for those teachers to 
attend next year's Academy.
    Working with ExxonMobil and with organizations like the National 
Science teachers Association and Math Solutions, we are continually 
working toward improving math and science education in elementary 
schools across this great country.
    But so much more remains to be done.
    We want to create a groundswell of passion for math and science 
across America. To encourage teachers to inspire their students, to 
pique their interest in the math and science so that they study, learn 
and are interested in becoming an engineer, a scientist, a leader of 
tomorrow. To ensure we are keeping our talent at home and keeping 
America competitive.
    While public-private partnerships are helping to pave the way to 
improved math and science education across the country, I would 
encourage congressional leaders to fund additional programs that 
strengthen math and science education, provide teachers with additional 
professional development opportunities and help ensure that the United 
States remains the most innovative nation in the world.
    It will take all of us working together to reverse this trend. Amy 
and I have found great partners with ExxonMobil, the National Science 
Teachers Association and Math Solutions, and I'm here today to 
encourage more folks to get involved in supporting math and science 
education
    Thank you for your time.
                                 ______
                                 
    Chairman Miller. Dr. Chang?

  STATEMENT OF RAMONA CHANG, DIRECTOR OF CURRICULUM, TORRANCE 
                    UNIFIED SCHOOL DISTRICT

    Ms. Chang. Congressman Miller and honorable members of the 
committee, it is with great pleasure that I am here today to 
speak to you about the Mickelson ExxonMobil Teachers Academy. 
My name is Dr. Ramona Chang, and I am the Director of 
Curriculum for Torrance Unified School District in Torrance, 
California.
    Our district, as well as other districts throughout the 
country, face a difficult challenge. The curriculum standards 
for our students have become more rigorous, and accountability 
for both teachers and schools has increased exponentially. 
Teachers must provide high-caliber learning experiences for our 
students; however, all too often our teachers rely on scripted 
textbook instructional outlines or uninspiring labs. If our 
students are to become our future engineers, computer 
scientists, mathematicians, and environmentalists, we need to 
change the way we approach the teaching of math and science.
    A systemic change in teaching requires ongoing powerful, 
professional development in math and science. And through the 
collaborative efforts of Phil and Amy, ExxonMobil, National 
Science Teachers Association, and Math Solutions, an exemplary 
professional academy for elementary educators has beenrealized.
    As I reflect back on the past 3 years and 1 day, because I 
had that yesterday, of our involvement with the academy, I am 
amazed by the dynamic and exciting results that have been 
achieved through the process. During our week at the academy, 
our teachers, together with teachers from all over the United 
States, collaboratively work together to focus on math and 
science curriculum, with the resulting successful outcomes of 
our students. With the academy week as our starting point for 
our Torrance team, our teachers are able to continue their 
professional development at their individual school sites as 
they apply their new knowledge in their daily work with our 
students.
    An additional benefit of the academy has been the 
development of teacher leadership. Their skills when they 
return have been exercised in a variety of roles in terms of 
district curriculum committees in fields that connect 
themselves to math and science as well.
    As an ever-growing team of academy teachers in Torrance, we 
continue to meet at the district level in order to build new 
learning experiences for each other. If you were to drop by one 
of our sessions, you would see teachers experimenting with new 
teaching strategies, all with the focus of continuously 
increasing their effectiveness with science and math 
instruction. Academy teachers have been taught to plan 
creatively, teach constructively, and reflect objectively. 
These skills rank in the proverbial priceless category for 
educators.
    Creating change one grade level at a time, although 
commendable, could not ensure positive student outcomes through 
an extended period of time. We learned that we needed to tap 
into our academy experts in order to create a district-wide 
math and science fervor. The first year cadre got that process 
started by working together as a district leadership team, 
focused on the alignment of State math content standards. We 
meet on a regular basis for the purposes of learning, lesson 
planning, and problem solving together. Since we already 
represented several grade levels, these are third- through 
fifth-grade teachers, we felt the next step was to develop more 
vertical grade-level articulations, which we believed was 
essential in laying the necessary groundwork for success in 
subsequent math courses.
    What we quickly realized was that our discussions needed to 
include both middle and high school teachers. This resulted in 
the development of a kindergarten to 12th grade--and that is 
advanced placement calculus--teachers with us in the one room, 
and we called ourselves the Math Achievement Committee.
    Teacher committee members focus their attention on 
examining the standards students are required to master, 
planning more effective lessons, and solving the new challenges 
of teaching. As a team, they determined which additional 
professional learning would be helpful to assist them in 
acquiring the necessary knowledge or skills. This has resulted 
in a districtwide common focus and clear direction for 
professional and student improvement in math and science.
    At the end of this year's academy, we will have 36 
educators that have had this wonderful experience. We have 
enjoyed learning in wonderful facilities as well, such as this 
year's academy at the Liberty Science Center. The quality 
professional development that the academy provides is key for 
supporting significant improvements in student learning and 
professional learning of teachers.
    Inquiry and reflection with other academy teachers has 
changed the culture of our schools and district. As a group, we 
have developed a mind-set that educators build intellectual 
strength through a high level of rigor and depth. The 
experience of the academy helped build that mind-set, and it is 
that mind-set that will nurture and support our citizens of 
tomorrow, our students of today.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Chang follows:]

    Prepared Statement of Dr. Ramona Chang, Director of Curriculum, 
                    Torrance Unified School District

    Congressman Miller and honorable members of the committee, it is 
with great pleasure that I speak to you about the Mickelson ExxonMobil 
Math and Science Teacher Academy. My name is Dr. Ramona Chang and I am 
the Director of Curriculum for the Torrance Unified School District in 
Torrance, California.
    Our district, as well as other districts around the country, face 
an extraordinary difficult challenge. The curriculum standards for our 
students have become more rigorous and the accountability for both 
teachers and schools has increased exponentially. Teachers must provide 
high caliber learning experiences for our students, however all too 
often our teachers rely on scripted textbook instructional outlines or 
uninspiring labs. If our students are to become our future engineers, 
computer scientists, mathematicians, and environmentalists, we need to 
change the way we approach the teaching of math and science. A systemic 
change in teaching requires on-going powerful professional development 
in math and science.
    Through the collaborative efforts of Phil and Amy Mickelson, 
ExxonMobil, National Science Teachers Association and Math Solutions, 
an exemplary professional academy for elementary educators has been 
realized. As I reflect back on the past three years of our involvement 
with the academy, I am amazed by the dynamic and exciting results that 
have been achieved through the process!
    During our week at the academy, our teachers, together with other 
teachers from all over the United States, collaboratively work together 
to focus on math and science curriculum and the resulting successful 
student outcomes. With the academy week as our starting point, our 
teachers are able to continue their professional learning at the 
individual school site level, as they apply their new knowledge into 
the daily work of their students. An additional benefit of the academy 
is the development of teacher leadership skills as evidenced by 
returning teachers assuming work on curriculum committees or site 
professional development planning teams.
    As an ever-growing team of academy teachers, we continue to meet at 
the district level in order to build new learning experiences for each 
other. If you were to drop by one of our sessions, you would see 
teachers experimenting with new teaching strategies, all with a focus 
of continuously increasing their effectiveness with science and math 
instruction. Academy teachers have been taught how to plan creatively, 
teach constructively, and reflect objectively. These skills rank in the 
proverbial ``priceless'' category for educators.
    Upon returning from the academy, one school team was so 
enthusiastic that they wanted to create an institute similar to the one 
they experienced the previous summer for all the third through fifth 
grade students in their school (200 students). To do this they needed 
funding, so they applied for, and were awarded, a Science Technology 
Engineering and Math Pegasus grant from our local ExxonMobil Torrance 
Refinery. In their application the teachers wrote, ``We are 
enthusiastic and want to recreate a Science Institute similar to the 
one experienced this summer where wonderment is encouraged and the 
possibility of pursuing a career in Science is made a realization. If 
the teachers are this excited, imagine how the students will feel!''
    At this newly, teacher created, Future Scientists of America 
Institute, the students have the opportunity to learn science content 
and make connections between science and their own experiences in a 
hands-on meaningful way. Each experience begins by engaging students in 
a large group demonstration to pose an inquiry that will foster 
scientific literacy. After each kickoff demonstration, students have 
smaller sessions with their individual classroom teachers in order to 
conduct further experiments, while recording their own reflections and 
findings in their science journals. The Future Scientists of America 
Institute will lead to further science exploration and the extension of 
concepts and skills to new situations. By planning collaboratively 
across the grade levels, teacher colleagues will be involved in the 
selection of different experiments to conduct each year. Through the 
Future Scientists of America Institute, the original Mickelson academy 
teachers, together with eight other colleagues, will experience 
firsthand the instructional approaches they will be using with their 
own students. This project both improves the science learning of all 
the students and deepens the teachers' content knowledge resulting in 
better meeting the rigorous science academic standards.
    However, creating change one grade level at a time, although 
commendable, could not ensure positive student outcomes through an 
extended period of time. We needed to tap into our academy ``experts'' 
in order to create a district-wide math and science fervor. The first 
year cadre got the process started by working together as a district 
leadership team, focused on the alignment of state math content 
standards and math performance objectives. We met on a regular basis 
for the purposes of learning, lesson planning and problem solving 
together. Since we already represented several grade levels we felt the 
next step was to develop vertical grade level articulation, which we 
believed was essential in laying the necessary groundwork for success 
in subsequent math courses. What we quickly realized was that our 
discussions needed to also include middle and high school teachers. 
This resulted in the development of a kindergarten to 12th grade 
(Advance Placement Calculus) group of math teachers known as the Math 
Achievement Committee. Teacher committee members focused their 
attention on examining the standards students are required to master, 
planning more effective lessons and solving the new challenges of 
teaching. As a team, they determined which additional professional 
learning would be helpful to assist them in acquiring the necessary 
knowledge or skills. This has resulted in a district-wide common focus 
and clear direction for professional and student improvement in math 
and science.
    At the end of this year's academy we will have 36 educators that 
have had this wonderful experience. The quality professional 
development that the academy provides is the key for supporting 
significant improvements in student learning and professional learning 
of teachers. The shared academy experience has fostered professional 
collaboration throughout the district. Inquiry and reflection with 
other academy teachers has changed the culture of our schools and 
district.
    As a group, we have developed a mindset that educators build 
intellectual strength through a high level of rigor and depth. The 
experiences of the academy helped build that mindset, and it is that 
mindset that will nurture and support our citizens of tomorrow--our 
students of today.
                                 ______
                                 
    Chairman Miller. Dr. Ride?

   STATEMENT OF SALLY K. RIDE, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, SALLY RIDE SCIENCE

    Ms. Ride. Mr. Chairman, distinguished Members, thank you 
for the opportunity to testify today.
    I would like to say a few words about the importance of 
STEM education, the importance of encouraging girls and young 
women to pursue their interests in STEM, because they do have 
those interests, and briefly describe some of the STEM 
education programs that my science education company, Sally 
Ride Science, has undertaken, often in partnership with the 
business community, many of whom are represented here today.
    Carl Sagan once said it is suicidal to create a society 
that depends on science and technology in which no one knows 
anything about science and technology. And he was right, and 
that is what we are approaching today. Science and technology 
are the engines that drive our economy, and it is really ironic 
that our society, that relies so much on science and technology 
and got to be a world leader really through our ability to 
innovate, to engineer, and to explore, now puts so little value 
or emphasis on science education.
    And you could ask why STEM education is important. It is 
important, actually, for a variety of reasons. Of course, it is 
critical that we inspire the next generation of rocket 
scientists and environmental engineers and innovators, but it 
is also critical to prepare the core of the future workforce, 
whether they are caddies or whether they are people who work 
for IBM and Raytheon, because the basic living-wage jobs 
increasingly require STEM skills. And we need to prepare the 
workforce of the future for the TIs, for the ExxonMobils, for 
the Raytheons of the country.
    But more broadly, it is critical to create a scientifically 
literate citizenry. The issues that we deal with today, and are 
increasingly surrounded by, increasingly have their roots in 
science and technology, whether these are issues of the 
environment, of climate change, of medical issues, medical 
developments, whatever they might be. To be a responsible 
citizen, to be able to vote intelligently and responsibly, and 
to be able to make good decisions that affect your lives, the 
kids of today are going to need a good background in science 
and math, and we need to give them that background. We owe that 
background to them.
    Now, do we have a problem? Yes, we do. We have heard the 
statistics. They are well documented. We are not graduating 
enough scientists or engineers. Furthermore, we are not 
graduating enough students with basic backgrounds in science 
and math. And the number of women is still lagging behind the 
number of men, particularly in physics, which is my field, and 
engineering. Not enough are coming out of high school and 
expressing interest as college first-year students in those 
majors. So the problem starts before high school.
    But the good news is, and I think Phil alluded to this, in 
elementary school kids, still love science. There have been 
studies, repeated about every 10 years by NCES, that survey 
fourth graders, and consistently they find that 68 percent of 
fourth-grade boys self-report that they like science; 66 
percent of fourth-grade girls self-report that they like 
science.
    Now, there are two wonderful messages there. One is that in 
fourth grade fully two-thirds of our kids still like science. 
The schools haven't beaten it out of them yet. And the second 
good message is that it is as many girls as boys. But then 
starting at about fifth grade, sixth grade, seventh grade, we 
start to lose both the boys and the girls, but we lose girls in 
greater numbers than boys. And it starts right there, and that 
trend continues. By eighth grade, two times as many boys as 
girls are likely to say they are considering careers in 
science, and by 12th grade, five times as many boys as girls 
are likely to consider--to say they will consider a career in 
engineering.
    So you can see that the drop-off begins there. And why? It 
is not because of aptitude. It is not because of interest. It 
tends to be the messages that our society sends to our kids 
that science and math aren't cool; that maybe an 11-year-old 
girl who says she wants to be an electrical engineer, still 
today, even though there are no obstacles to her, gets a 
different reaction from an 11-year-old boy who says the same 
thing. And these are the things that kids at that age start to 
internalize, and it starts to turn them away from science. They 
may still be good at it, they may still like it, but they may 
think it is not cool to pursue a career in science or math.
    And that is what we need to change. We need to make it cool 
again. We need to show them examples of a diverse group of 
scientists and engineers, normal people, real people, men, 
women, ethnic minorities who are involved in science and 
engineering, who enjoy those careers. And we have to make the 
connection to them that science is relevant to their daily 
lives. And if they are interested in having an impact on their 
world, and we know that many of the kids today are interested 
in that, that they need--that science and engineering are an 
excellent way to have an impact and to make a difference in the 
world that we live in.
    Thank you very much.
    Chairman Miller. Thank you.
    [The statement of Dr. Ride follows:]

        Prepared Statement of Dr. Sally Ride, President and CEO,
                           Sally Ride Science

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to testify today. I would like to say a few words 
about the importance of Science, Technology, Engineering, and Math 
(STEM) education; the importance of encouraging girls and young women 
to pursue their natural interests in STEM; and some of the STEM 
education programs that my company, Sally Ride Science, has 
undertaken--often in partnership with both the public sector and 
companies like those represented here today.
    Carl Sagan once said ``It's suicidal to create a society that 
depends on science and technology in which no one knows anything about 
science and technology''. He was right. It's ironic that our society--a 
society that relies on science and technology and achieved a position 
of world leadership through its willingness and ability to innovate, 
engineer, and explore--now puts so little value on science and so 
little emphasis on science education.
    Our schools and communities are developing the workforce that will 
fuel our economy in the future. It's critical to provide that workforce 
(today's students) the skills in science, math and technology that they 
will need to compete globally.
    Why is STEM education important? First, of course, it is essential 
in inspiring and educating the next generation of rocket scientists, 
environmental engineers, and innovators. But STEM education is also 
important to prepare the core of our future workforc. Good, basic, 
living wage jobs will increasingly require STEM skills. Even more 
broadly, STEM education is critical to the creation of a scientifically 
literate citizenry. The issues that we deal with on a daily basis are 
increasingly rooted in science and technology. The students of today 
will have to have a background in STEM simply to understand issues 
related to health care, the environment, energy resources, etc.; their 
understanding of these issues will affect their ability to make 
decisions that affect their lives and communities directly.
    Do we have a problem? The answer, which is well-documented 
elsewhere, is ``yes''. We're not graduating enough scientists and 
engineers in this country; nor are we graduating enough students with 
even knowledge of science. Furthermore, the numbers of women graduating 
in fields like engineering, computer and information sciences, and 
physics are still lagging well behind the numbers of men. Though there 
is progress to be made in retaining students (especially female 
students) in those subjects in college, the problem clearly starts 
earlier. Not enough high school students, particularly young women, 
express interest in pursuing STEM careers. In fact, the problem begins 
before high school--and it's a problem of interest, not of aptitude.
    There is good news, however. In elementary school, students 
generally like science. And that's true of girls as well as boys. In 
NCES surveys of 4th graders (going back to at least 1996), 68% of boys 
and 66% of girls self-report that they ``like science''. There are two 
positive messages in these numbers. First, in 4th grade fully two-
thirds of students in this country like science! Second, in 4th grade 
as many girls as boys are interested in and enjoy the subject.
    But then in 5th or 6th grade we start to lose those students. We 
lose both boys and girls, but we begin to lose girls in greater 
numbers. By 8th grade, boys are twice as likely to express an interest 
in a career in science; by 12th grade, boys are 5 times more likely 
than girls to express an interest in a career in engineering. Why are 
we losing more girls than boys? It's not for reasons of aptitude--
that's been amply demonstrated in math and science grades and test 
results. It's not for lack of inherent interest--in 4th grade they were 
interested!
    Though there are many reasons that we lose boys and girls from 
sciences, a significant factor--and one that affects the girls more 
than the boys--is the messages that our society sends to kids about 
science and scientists. Science is not cool; math is irrelevant; 
engineering is geeky. Ask an 11 year old to draw a scientist, and he or 
she is likely to sketch an old wild-haired male who looks like Einstein 
and wears a lab coat and pocket protector. This is not an image that 11 
year old girls (or many boys, for that matter) aspire to! Society 
surrounds kids with outdated stereotypes of what science is and what 
scientists look like.
    Further, there are still lingering stereotypes, often 
subconsciously held, that math isn't as important for girls as for 
boys, and that math and science may not be girls' ``strong suits''. 
Imagine a 12 year old girl who says she wants to be an electrical 
engineer. Though there are no barriers to her anymore, and there are 
now many female electrical engineers, that girl is apt to get a 
different reaction from her friends, her peer group, and perhaps her 
teachers and parents, than a 12 year old boy who said the same thing. 
Girls begin to internalize these messages in upper elementary and 
middle school, and the messages begin to shape girls' views of their 
``normal place'' in society.
    Another problem is that students, particularly girls, don't view 
science as relevant to them or to their world. They know that, in the 
abstract, science is important; but they don't think it's important 
``for me''.
    But remember the good news: in 4th grade, our students like 
science. That means that we don't need to convert them to science; we 
just need to sustain and support their interest through middle and high 
school. This is our philosophy at Sally Ride Science. We focus 
primarily on 4th-8th grade, because that is where students start to 
drift away from science. And if we lose them there, we're not going to 
get them back in high school or in college. We also place a special 
emphasis on girls--through our programs, publications, and professional 
development. We aim to illustrate and emphasize the relevance of 
science, making the connections between science and engineering and 
their lives. And we provide examples of role models--at our events, in 
our classroom materials, and in our teacher training. The message to 
the girls (and their teachers) is that scientists are normal people, 
who come from all walks of life, have interests similar to theirs, and 
are having an impact on their world through their work.
    Our programs (science festivals, engineering competitions, after-
school programs, professional development, and classroom materials) are 
possible because of partnerships with both the public sector and the 
private sector--including some of the companies represented at this 
hearing today. Many companies, and not just classic technology or 
engineering companies, have realized that STEM education in this 
country is in disarray, and that it's in their self-interest to help 
solve the problem. If things stay the way they are today, these 
companies will not have access to the workforce they need to compete in 
the future.
    In 1957, the Soviet Union launched Sputnik, the world's first 
satellite. That launch shocked the United States, and was widely viewed 
as an indication of Soviet world technological leadership. Our 
immediate response was to create NASA and the civilian space program, 
create the congressional committees on science, and put a national 
priority on science and math education. The goal was to produce a 
generation of scientists and engineers, supported by a skilled 
workforce, who could lift us to the moon and beyond. Kids dreamed of 
building rockets to the stars and contributing to something that 
mattered. The public was informed, engaged, and supportive. It was 
``cool'' to be a scientist; ``cool'' to be an engineer. We need to make 
science and engineering cool again. Our future in an increasingly 
competitive global economy depends on our ability to inspire and 
educate today's students.
    Thank you again for the opportunity to testify today.
                                 ______
                                 
    Chairman Miller. Mr. Luce, welcome back to the committee.

 STATEMENT OF TOM LUCE, CHIEF EXECUTIVE OFFICER, NATIONAL MATH 
                     AND SCIENCE INITIATIVE

    Mr. Luce. Thank you, Mr. Chairman. And it is a pleasure to 
be here today.
    I am going to skip over all the data portion, you have 
covered it quite well, except I will point to something we just 
discovered last week, and that is the amount of two Chinese 
universities that produce more American Ph.D.s than Cal-
Berkeley.
    Chairman Miller. I am sorry, your microphone,
    Mr. Luce. Am I on now?
    Chairman Miller. It is just that southern drawl, it just 
doesn't work.
    Mr. Luce. I am from New Jersey.
    Chairman Miller. Start over again.
    Mr. Luce. Thank you, Mr. Chairman.
    I am going to skip over the data portion of my presentation 
except for one fact that I think you would find interesting 
that came out last week, and that is that there are now two 
Chinese universities that produced the number one and number 
two proportion of American Ph.D.s. In other words, those two 
universities produced more American Ph.D.s than any United 
States university.
    That is what is happening to us and the rest of the world. 
We used to rank number one in high school graduation. We now 
rank 14th. You can go on and on. I think what is unique, and 
what we need to talk about today is that, as you all know, we 
have truly a national crisis, but so often we have addressed 
that national crisis with a series of pilot programs. I like to 
say that we have lit 1,000 pilots, but we have never lit the 
central heating system. And we have to find out ways to take 
successful programs to scale, because we are dealing with 55 
million public school children. So efforts must be undertaken 
to impact a lot of children.
    That was what was unique about the formation of the 
National Math and Science Initiative. It was a partnership of 
ExxonMobil, Michael and Susan Dell Foundation, Gates 
Foundation, Bill and Melinda Gates Foundation. IBM 
participated, Perot Systems. We started with an initial capital 
of $140 million to take two programs to national scale. I want 
to show those--the first of those programs has already been 
funded by Congress, the Advanced Placement Incentive program. 
But just since we started giving grants a year ago, we have now 
replicated the Advanced Placement Incentive program in six 
States. In 1 year we have taken the UTeach program to 13 
universities.
    What the next map will show you is what we could do in a 
public-private partnership. We had applications for those two 
programs from 40 States. So right now there is a waiting list. 
There were 28 States that applied for the AP Incentive program. 
There were 52 universities that applied to replicate the UTeach 
program. And if we could bring together the public sector and 
the private sector, then the scarce resources the Federal 
Government has to deal with would be tremendously leveraged.
    Congress, as you know, has not appropriated the America 
COMPETES Act. If it were to appropriate additional funding for 
the AP Incentive program and the UTeach program, the private 
sector is ready to step up and match that investment. In 
addition, we require of our grantees that they get local 
matching. So all of a sudden we could go to national scale if 
Congress decides to appropriate additional funding for AP 
Incentive and for the UTeach program.
    What can happen? I will show you one example. In the AP 
program, now in six States, at the end of 5 years we will be in 
close to 500 schools across the country. We will have increased 
the number of students who are enrolled in AP math and science 
courses by 350 percent in those 479 schools, and we will have 
increased the passing AP math and science scores by 267 
percent.
    In the UTeach program in 13 universities, including two in 
your State, we will have increased the number of teachers 
graduating with math and science content degrees to 500 from, 
for instance, in Maryland, 2 years ago I think there was one 
physics teacher who graduated with a content degree.
    So I think what we really need to talk about is how can we 
take successful programs, whether it be TI's, Raytheon's, 
Merck's, or the two we are working on, and come together and 
take those to scale in partnership with the public sector and 
the private sector, because we can't waste another generation. 
And we do know that there are programs that work in every 
school district in every State, but we have got to start saying 
we are going to take these to scale. So we are here to say that 
if the Federal Government is willing to increase their 
investment, so is the private sector.
    I want to show you some of the results on the AP passing 
scores that justify the estimates I gave you. The numbers I am 
going to show you are the AP passing scores in 10 Dallas public 
schools, in an urban school district, with African American and 
Hispanic enrollment at 88 percent. Prior to the start of the AP 
Incentive program there was a total of 157 students that were 
passing AP math, science, and English courses. There are now 
1,468 in those 10 schools.
    You go to the next chart, it will show you that in that 
group of students there, there is now 89 students out of 1,000, 
on the average across those schools, who are now passing 
scores, whereas the national average is 24. The Texas average 
is 27. In other words, almost four times as many students.
    So what we have here is a simple but, I think, critical 
concept, which is take the programs, take them to national 
scale, and get the job done now.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    [The statement of Mr. Luce follows:]

Prepared Statement of Tom Luce, Chief Executive Officer, National Math 
                         and Science Initiative

    Mr. Chairman, thank you for the honor of testifying here today and 
for your longtime leadership on education issues. I know you are proud 
to be the grandfather of five, as I am proud of my seven grandchildren. 
My wife Pam refers to them as ``The Magnificent Seven.'' They are a 
constant reminder to me of why the work of this committee on education 
is so important--and why we must act now to keep our country from 
sliding further behind in math and science.
    This truly is a ``Paul Revere Moment'' for our country--we must 
spread the alarm that our country is falling behind in math and science 
achievement and we must get moving with all possible speed to shore up 
our system. Paul Revere warned ``one if by land, two if by sea''--I 
would add ``three if by Ethernet.'' America is rapidly losing its 
dominance in the high tech fields where the jobs of the future are: 80 
percent of the jobs in the future will require some form of math and 
science skills, according to the National Science Foundation.
    American students are increasingly at a global disadvantage because 
the rest of the world is becoming more educated while we are focusing 
less and less on critical skills like math and science.
    <bullet> Thirty years ago, a third of the students attending 
college worldwide were Americans. Today, the U.S. can claim only 14 
percent.
    <bullet> During most of the 20th century--when today's high tech 
innovations were being incubated--Americans were considered the best 
educated in the world. But foreign countries now have more high school 
graduates in their workforces--and the U.S. has dropped to 17th.
    Put another way, the U.S. won the Cold War--but that opening has 
unleashed millions of new capitalists who are eager to learn and invent 
and compete. We now have millions more competitors at a time when 
American students are ranked 15th in reading, 19th in math and 14th in 
science by the Organization for Economic Cooperation and Development.
    Just last week, you may have seen the news story that graduates of 
Chinese universities have now taken the lead in earning American PhDs. 
Tsinghua and Peking Universities now have moved ahead of the University 
of California at Berkeley as the top sources of students who go on to 
earn doctorates at American universities. Seoul National University in 
South Korea was third. Cornell University now is fourth and Berkeley 
has dropped to fifth.
    While we can't begrudge the outstanding students from other 
countries from seeking higher education and a better future, we must be 
concerned that Americans students are not keeping pace.
    This is something that we must come to grips with as a country and 
a culture. As the former NASA Astronaut Sally Ride, who serves on our 
NMSI board, explains it, we are like the Wile Coyote character in the 
old roadrunner cartoons--we have run right off a cliff and our legs are 
still churning, so we don't realize we are hanging in mid-air, about to 
plummet.
    What can we do now? We cannot attack this problem with more pilot 
programs--quite frankly, time is running out too fast. We have already 
lighted a million pilot programs in this country, but we haven't 
ignited the central heating system. Programs that help 1,000 kids in 
one site are wonderful and I mean that sincerely, but remember, we have 
55 million students in American public schools that we must reach. We 
must take programs that already have a proven track record of success 
and give more of our young people the chance to benefit from them.
    That's where the National Math and Science Initiative comes in. The 
beauty of the NMSI approach is that it takes good, proven programs and 
multiplies their reach. As some of you may know, NMSI was created in 
response to the landmark report, ``Rising above the Gathering Storm'' 
in 2005. That report by the National Academies, our nation's top 
science advisers, warned in stark terms that the U.S. was falling in 
math and science achievement and that it is beginning to harm our 
ability to compete in the global arena.
    To its credit, Congress responded by passing the America COMPETES 
Act, proving that our elected Representatives can join in a bi-partisan 
way to respond to a pressing national need. The private sector 
responded by funding the National Math and Science Initiative, with 
ExxonMobil, the Gates Foundation and Dell Foundation leading the way.
    NMSI is unique in that it offers a new kind of philanthropy--
bringing the private sector together with the public sector to take 
worthy projects to a national scale. NMSI has started by replicating 
two projects that were commended by the ``Rising above the Gathering 
Storm'' report:
    <bullet> The Advanced Placement Training and Incentives program--
which brings more rigorous math and science coursework to more 
students.
    <bullet> And the UTeach program--which produces more of the math 
and science teachers our country desperately needs by allowing them to 
earn an undergraduate degree in math and science at the same time they 
earn their teaching certificate at no extra charge.
    Since this is a time of scarce resources, I think you will be glad 
to know that these two programs offer tremendous leverage for a 
relatively small federal investment--your federal dollars will be 
immediately multiplied by private dollars at a national and state 
level. That means programs in your states will immediately benefit--the 
money can be having an impact in schools in your districts within a 
semester.
    In our first year, NMSI has launched AP Training and Incentive 
programs in six states and UTeach programs in 13 states. But we had 
applications from more than 40 states. With additional funding, we 
could reach many more students before another class graduates.
    Within the next five years, we could have AP Training and Incentive 
programs in 25 states, impacting students in more than 2,000 American 
high schools. We could have UTeach programs replicated in as many as 50 
universities, boosting dramatically the number of highly qualified math 
and science teachers in the U.S.
    Our goal eventually is to take other successful programs and follow 
this exact process of replication, because you cannot address the math 
and science crisis in this country unless we start taking successful 
programs to a national scale. We must work our way out of this problem 
by growing a national workforce that is more science and math literate. 
Math and science are the new foundational literacy for everyone.
    That's the bottom line. It is a daunting task. It is a scary task. 
But there is no other way to accomplish what we all in this room 
understand is needed as rapidly or as effectively.
    Reinforcing math and science is the most common-sense way for our 
country to grow economically and to maintain our competitive leadership 
in the world. And again, this can't just apply to the top 5 percent, 
the top 1 percent of students--this has to apply to 55 million students 
in public schools in order for everyone's kids to a chance at the jobs 
of tomorrow. They have to reach a higher standard than they are 
reaching today and the only way to do that is on a national scale.
    To use an analogy we're familiar with in America, we're on the one-
yard line. The only problem is it may be our opponent's and we have 99 
yards to go. But that's what we are here about today--to move the 
agenda so we can reach that goal line.
    To move forward, the next step is up to you. Congress must complete 
the work begun with the passage of the America COMPETES Act and approve 
a significant infusion of funds for more rigorous math and science 
programs in our schools. More support is urgently needed to train the 
math and science teachers who can educate tomorrow's workers and 
thinkers and inventors. You can make a major difference by providing 
more funding for the AP Inventive and the Teachers for a Competitive 
Tomorrow program--both of which were authorized under America COMPETES.
    I can assure you that in this time when resources are hard to come 
by, your support will be leveraged many times over by the contributions 
from the private sector--and your constituents will be able to apply 
for those grants immediately. If you act this fall, you will see the 
benefits to math and science in your district schools by the spring 
semester.
    As my friend Norm Augustine, who chaired the ``Rising Storm'' 
committee, says, ``If we continue to ignore the obvious task at hand 
while others beat us at our own game, our children and grandchildren 
will pay the price.''
    I thank you for focusing on this urgent challenge for our country 
and I look forward to answering your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Dr. Parravano?

    STATEMENT OF CARLO PARRAVANO, EXECUTIVE DIRECTOR, MERCK 
                INSTITUTE FOR SCIENCE EDUCATION

    Mr. Parravano. Chairman Miller, Ranking Member McKeon, and 
members of the committee, thank you for this opportunity to 
testify on business and education STEM partnerships.
    Over the last two decades, many companies have become 
involved with schools in increasingly complex ways. Departing 
from the more passive forms of business support common in the 
past, some corporate leaders are challenging schools to 
improve, and are willing to work with the schools to make 
improvement happen. These leaders are sharing their expertise, 
their resources, and their political capital. And these school-
business partners are setting high, but achievable, goals, 
working together to reform key elements of the school system, 
mobilizing community support for reform, and setting the agenda 
for education reform at the State and national levels.
    This proactive approach is what Merck envisioned in 1993 
when it created the Merck Institute for Science Education, a 
nonprofit organization funded by the Merck Company Foundation. 
The institute began its work by focusing resources on improving 
science education in grades K through 8, and by establishing 
partnerships with public school districts in communities where 
Merck has major facilities. Our strategy at the institute has 
been to strengthen all aspects of the school district science 
education system. We have focused on enhancing teachers' and 
administrators' knowledge and skills; providing access to 
instructional materials; and creating local, State, and 
national policy environments that support the partnership's 
vision of an effective science education.
    According to our external evaluators from the Consortium 
for Policy Research in Education and Horizon Research, our work 
has taken hold. First, science has become a priority in our 
partner school districts. District leaders are actively 
supporting the implementation of a coherent science curriculum. 
Second, we have learned to provide high-quality professional 
development, and to do so at considerable scale. And third, the 
bottom line, student performance has improved.
    We have learned many lessons from our experience, and among 
them are, first, professional development that combines intense 
engagement with on-the-job opportunities for dialogue and 
revision has the strongest effects on teachers' practice. It is 
not either/or; rather, both types of experiences are needed. 
Second, better assessment tools are needed in science. Existing 
measures do not adequately show the effects of better science 
instruction. And third, the State policy context on incentives 
for change can play a pivotal role in stimulating educational 
reform.
    There are certain key elements of our programs that we 
believe are critical to our success. Examples of these are 
significant changes in the classroom require a long-term, 
sustained effort. Persistence and patience pay off. Second, 
just as the most effective corporations rarely stray from their 
core mission, so, too, does the institute believe that 
maintaining its focus is critical. And third, a constant 
emphasis on evaluation and benchmarking of results is 
paramount.
    Over the past 2 years, the focus of the institute has 
expanded to include initiatives at the college and graduate 
level. We partner with a number of organizations, including the 
United Negro College Fund and the National Alliance for 
Hispanic Health. In both cases our initiatives are aimed at 
transition points, where students tend to leave the STEM 
fields: seniors entering college, undergraduate students 
entering their final academic year, and graduate students who 
are midway through their dissertation research.
    The UNCF program was launched in 1995, and each year 37 
undergraduate, graduate, and postdoctoral students are selected 
as fellows from a national pool of applicants. To date, 443 
fellowships have been awarded to students from over 35 States 
and the District of Columbia. Similarly, our new program with 
the National Alliance for Hispanic Health will annually provide 
10 scholarships and internships to high school seniors entering 
college, and 25 scholarships to college students.
    In conclusion, we must be prepared to undertake a serious 
commitment far beyond what we are doing now to make our STEM 
programs truly world class. This calls for action by government 
at every level, by business of every kind, by the education 
profession itself, and by all of us individually and 
collectively. Above all, this calls for collaboration, 
collaboration through partnerships.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Mr. Parravano follows:]

 Prepared Statement of Dr. Carlo Parravano, Executive Director, Merck 
                    Institute for Science Education

    In 1983, the National Commission on Excellence in Education 
released its scathing report entitled A Nation at Risk. In the 
introduction, the Commission wrote, ``We report to the American people 
that while we can take justifiable pride in what our schools and 
colleges have historically accomplished and contributed to the United 
States and the well-being of its people, the educational foundations of 
our society are presently being eroded by a rising tide of mediocrity 
that threatens our very future as a nation and a people.'' In 
particular, the report detailed the steady decline in science 
achievement scores by U.S. high school students.
    More recently, the National Commission on Mathematics and Science 
Teaching for the 21st Century (the Glenn Commission), the National 
Science Board, and the National Academies have underscored the urgency 
for education reform in a series of reports to the nation. In the Glenn 
Commission's words, ``our students' performance in mathematics and 
science is unacceptable.''
    To address these issues, schools and businesses have been entering 
into partnerships with increasing frequency over the past two decades. 
Many companies have become involved with schools in increasingly 
complex ways, moving from their initial instincts to provide materials 
and money, or to ``adopt'' schools, toward more lasting and 
comprehensive partnerships. These partnerships represent a substantial 
commitment on the part of American business to improve the quality of 
public education.
    Departing from the more passive forms of business support common in 
the past, some corporate leaders are challenging schools to improve, 
and are willing to work with the schools to make improvement happen. To 
promote education reform, these leaders are sharing their expertise, 
resources, and their political capital. These school-business partners 
are setting high but achievable goals, working together to reform key 
elements of the school system, mobilizing community support for reform, 
and setting the agenda for education reform at the state and national 
levels.
    This proactive approach is what Merck envisioned when in 1993 it 
created the Merck Institute for Science Education, a non-profit 
organization funded by the Merck Company Foundation. A year earlier, 
Merck had undertaken an in-depth study of the problems related to 
student performance and participation in science before making a long-
term commitment to address this issue. Based on the results of the 
study, Merck leadership decided to focus resources on science education 
in grades K-8. The Institute's charge was to collaborate with teachers, 
administrators, parents, community members, and Merck employees to 
improve the teaching and learning of science, beginning in local 
schools.
The Merck Institute for Science Education
    The Institute's overall goal is to raise the levels of 
participation and performance in science for all students in 
kindergarten through 12th grade. The Institute began its work by 
establishing a partnership with four public school districts in New 
Jersey and Pennsylvania, and more recently has added school districts 
in New Jersey and Massachusetts, and an international site. These sites 
were chosen because Merck has major facilities in or near these 
communities. Initially we sought a full partnership with the school 
districts, working collaboratively to align and strengthen all aspects 
of their systems. Over time, the partnership was viewed as not just 
another funded project, but offered a new way of doing business in 
which district leaders worked closely with teachers and the Institute 
to develop and implement a carefully planned, focused vision of 
teaching and learning in science.
    The Institute is guided by a vision of high-quality instruction in 
which inquiry is a regular part of the classroom experience of all 
students. In other words, science teaching and learning parallel the 
methods used by scientists to understand the natural world. Student 
investigations of natural phenomena are at the heart of this approach, 
and the purpose of these investigations is to develop the skills and 
habits of mind that are central to scientific inquiry.
    This type of instruction requires teachers to possess a relatively 
sophisticated knowledge of science and the teaching skills to guide and 
manage inquiry. In addition, teachers need long-term support in and 
outside of the classroom. Corresponding changes must be made in 
curriculum, instructional materials, assessment, professional 
development, resource allocation, and other district policies. To enact 
such changes, policymakers and administrators must give science greater 
priority, and they must be willing to invest more to provide teachers 
with the time, support, training, and materials required. Similarly, 
parents must learn about and support the new instructional approach. 
Only training teachers, however, is not sufficient; a systemic strategy 
is necessary to achieve such fundamental changes.
    Accordingly, our strategy at the Institute is to simultaneously:
    <bullet> Enhance teachers' knowledge and skills,
    <bullet> Provide access to instructional materials to support 
reform,
    <bullet> Build strong professional communities within and across 
schools, and
    <bullet> Create local, state, and national policy environments that 
support our vision.
Measuring results
    In 1992, even before the official launch of the Institute, we 
engaged the services of the Consortium for Policy Research in Education 
(CPRE) at the University of Pennsylvania to conduct a long-term 
evaluation of our work. Each year through 2003, CPRE assessed the 
progress of the Institute using a range of measurable criteria: student 
performance and course selection; quality of professional development; 
and changes in classroom teaching, school culture, and district policy. 
Since 2003, the impact of the Institute's programs has been being 
measured by an external evaluator, Horizon Research, Inc. Institute 
programs are continually modified in response to the evaluator's 
recommendations, the considerations of the Institute's national 
advisory board, and feedback from teachers and administrators in the 
partner school districts.
    The different roles, perspectives, and resources that businesses 
can bring to the task of education reform are important, but ultimately 
results are what really matter. According to analyses by our external 
evaluators, our work has taken hold. Their reports state:
    <bullet> First, the Merck Institute's systemic approach has worked. 
Science has become a priority in the partner districts. There is an 
inquiry-centered curriculum in place, and district leaders are actively 
supporting its implementation. The districts have made changes in 
policy, organization, and assignments in support of our vision of 
science instruction.
    <bullet> Second, the Institute and its partners have not only 
learned how to provide high-quality professional development, they have 
learned how to provide it at considerable scale, and they have learned 
how to attract high proportions of teachers to participate.
    <bullet> Third, participation matters. The more professional 
development teachers receive, the more their classroom instruction 
resembles the vision of good practice advanced by the Institute.
    <bullet> Fourth, it appears that when a critical mass of teachers 
in a school has received professional development and begun to change 
their practice, the practice of non-participants also begins to shift 
in the same direction.
    <bullet> Fifth, the districts have become increasingly active in 
promoting the Institute's vision instructional reform. District staffs 
are now more attentive to how their policies and procedures affect 
progress. There are signs that the partner districts have internalized 
some key lessons drawn from this experience and, within their resource 
limitations, are applying what they have learned in language arts and 
mathematics.
    <bullet> Sixth, all of this has been made easier because Merck's 
reputation, expertise, and commitment to public education have enabled 
the Institute to influence state policy and create an environment more 
supportive of the reforms.
    The seventh and final conclusion concerns the bottom line--the 
improvement of student performance. Analyses of student performance on 
standardized tests reveal that students who have received science 
instruction over several years from teachers who have participated in 
the partnership professional development outperform students who have 
been taught by non-participants. These data suggest that, in the long 
run, as more and more teachers participate in the workshops, there will 
be a positive and significant impact on student performance in science.
Lessons learned, lessons confirmed
    In the course of our work with partner school districts and beyond, 
the following lessons have become clear:
    <bullet> If you build good professional development programs, 
teachers will come. We have learned that they will voluntarily take 
advantage of opportunities to learn and to improve their teaching 
practice--if the opportunities are seen as worthwhile. Respect for 
teachers' professionalism, expertise, and experience results in a 
growing commitment by teachers to improvement.
    <bullet> Teachers' knowledge and skills are critical factors in the 
classroom learning experience, but not the only ones. Good curriculum 
materials are also essential. Teachers need access to and support in 
implementing standards-based curricula and teaching materials. They 
need the support and knowledgeable involvement of school and district-
level administration, parents, and the community. The Institute 
addresses these needs through resource centers featuring exemplary 
science education materials, Merck employee volunteer programs, and 
parent involvement programs, in addition to its support of long-term 
professional development.
    <bullet> Professional development that combines intense engagement 
with curriculum content with on-the-job opportunities for observation, 
dialogue, reflection, and revision has the strongest effects on 
teaching practice. It is not either/or, rather both types of 
experiences are required.
    <bullet> Research has repeatedly shown that principals play key 
roles in instructional change in their schools. Their level of 
involvement often dictates whether attempts to change instruction 
succeed or not. Providing professional development for school 
administrators is critical in helping the principals become a force for 
sustaining and deepening the work of instructional improvement.
    <bullet> Better assessment tools in science are needed. Existing 
measures do not adequately show the effects of better science 
instruction. Right now, teachers see improved student work in their 
classrooms and a higher level of student interest in science, but the 
available measures do not adequately demonstrate this change to 
parents, school leaders, or the public. In addition to assessments that 
provide good diagnostic information for teachers' instructional 
planning, we need assessments that are persuasive to the public and 
policymakers as well.
    <bullet> The state policy context on incentives for change can play 
a pivotal role in stimulating instructional reform, and the Institute's 
role in shaping state policy has had a high payoff. The Institute has 
helped lead statewide efforts to establish science content standards, 
and professional development and teaching standards.
    <bullet> Numerous businesses have made a commitment to work with 
educators to build a strong and viable education system. While there 
are multiple roles business can play to achieve this goal, each company 
must put in place the systems and structures that will make it possible 
to deliver on its commitments over time. In addition, greater 
coordination among businesses working with educators is needed.
Key elements of success
    There are certain salient features of the Institute's programs that 
we believe are critical to our success:
    <bullet> Long-term commitment. Significant changes in the classroom 
require a long-term, sustained effort on the part of corporations 
involved in education reform. Increased teacher mobility, high turnover 
in administrative personnel, and changes in district priorities and 
policies threaten the reforms that have been accomplished. Scaling up 
is difficult because of the intensity of the work and the long 
timeframe for institutionalizing it. Persistence and patience pay off.
    <bullet> Corporate reputation. Merck's corporate reputation for 
high-quality scientific work and high ethical standards brings 
credibility to the Institute's work in science education. Merck's 
corporate image and record of success have enabled us to raise 
difficult issues and to push hard for change.
    <bullet> Maintaining focus. The Institute's core capabilities 
include providing high-quality technical assistance to teachers, 
maintaining constructive and collaborative relationships with partner 
school districts, addressing systemic issues that influence curriculum 
and instruction, aligning desired changes with state and national 
standards, and accepting accountability for its efforts. These 
strengths represent the Institute's focus, and just as the most 
effective corporations rarely stray from their core mission, so too 
does the Merck Institute believe that maintaining its focus is critical 
to success.
    <bullet> Capacity-building. Rather than do for the school districts 
or give to the school districts, we look for ways to help them use 
available resources to improve and then to build upon these successes. 
Of course, we provide some funding and a great deal of technical 
assistance--but always with the consideration of how school leaders may 
sustain and institutionalize the changes we have helped to effect. When 
teachers train other teachers--and support and advocate for the reform 
efforts--local capacity is increased.
    <bullet> Disseminating lessons learned. Our narrow geographic focus 
has provided us with the opportunity to develop significant expertise 
in science education reform and in continuously improving our core 
capabilities. We impact a far greater number of school districts 
through widely-distributed publications, direct technical assistance 
and our website. This has greatly broadened the reach of the Institute.
    <bullet> Sustaining the work. Right from the start, we include 
strategies in our plans to sustain the reform efforts. For example, we 
try to make full use of existing management routines and align our work 
with national, state and local policies. We make every effort to 
provide evidence to support the work to garner public support for the 
reform and gain access to sustainable financial resources. In addition, 
building a culture of continuous improvement leads to a sense that the 
work is never ``done,'' but instead requires ongoing attention.
    <bullet> Leveraging resources. We leverage resources and encourage 
our school district partners to do likewise. We help link them to 
regional and national sources of expertise in science education, 
including the National Science Foundation (NSF). In 1996 and again in 
2003, NSF awarded the Institute and its partner districts grants to 
extend and intensify its programs for teachers and administrators. In 
addition to the monetary benefits, this award also serves to provide 
valuable technical assistance and external validation of the quality of 
our programs.
    <bullet> Evaluation and benchmarking of results. An external 
evaluation team assesses the progress of the Institute through 
measurable criteria on an ongoing basis. Each year, after receiving 
feedback from the team and others, we revise our strategies to work 
more effectively within a changing landscape.
Expanded focus
    Over the past two years the focus of the Institute has expanded to 
include college and graduate-level education to build capacity in the 
biomedical sciences through partnerships with higher education 
institutions. Examples of these partnerships are the United Negro 
College Fund (UNCF)/Merck Science Initiative and the American 
Association for the Advancement of Science/Merck Undergraduate Science 
Research Program. In addition, the Institute recently initiated a 
partnership with the National Alliance for Hispanic Health, the 
Alliance/Merck Ciencia Scholars Program. These programs have provided 
the Institute with unusual opportunities to build synergy and ensure 
coherence across Merck's K-20 education portfolio. Each of these 
initiatives has as its mission to develop scientific talent, a long-
standing key priority for Merck.
    As an example, the UNCF/Merck Science Initiative (UMSI) was 
launched in 1995. The program makes scholarship and fellowship awards 
at the undergraduate, graduate and postdoctoral levels to outstanding 
African American students pursuing studies in biomedical research.
    Each year, 37 undergraduate, graduate and postdoctoral students are 
selected as Fellows from a competitive pool of applicants. To date, 443 
fellowships have been awarded.
    The initiative incorporates a number of features that we feel have 
been critical to its success:
    <bullet> First, it is aimed at transition points where students 
tend to leave the STEM fields: undergraduate students entering their 
final academic year; graduate students who are midway through their 
dissertation research; and post-graduate students entering their 
postdoctoral training. We now have a number of Fellows who have 
received multiple fellowships--two have received all three awards and 
22 have received two awards.
    <bullet> Second, the research is robust in pointing to two 
experiences that make a significant difference in engaging and 
retaining students: an opportunity to do meaningful and independent 
research, and a chance to work with a mentor. All undergraduates are 
provided with funds to complete two summers of research at the Merck 
Research Laboratories. And each Fellow is assigned a Merck scientist as 
a mentor. The mentors serve as teachers, career advisors and friends. 
They ensure that the Fellows move seamlessly from one educational level 
to the next.
    <bullet> Third, all of the current awardees are brought together 
for three days of scientific symposia and poster sessions, as well as 
activities centered on relationship-building and networking with one 
another and the scientists at Merck.
    Results from a comprehensive evaluation of the initiative indicate 
that in addition to the financial support, the Fellows found the non-
financial benefits important as well. Fellows benefited from the 
award's prestige; the exposure to the pharmaceutical industry; the 
mentoring by Merck scientists helped the Fellows in their research and 
increased awareness about career directions; the internships helped the 
undergraduates become more confident in themselves and enhanced their 
research skills; and participation in the event when all the new 
Fellows are brought together, provided a highly beneficial networking 
experience.
    What are the Fellows doing now? They are pursuing careers in 
academia, government, and industry--with a number of Fellows choosing 
to pursue their careers at Merck. The Fellows are working in a wide 
range of scientific disciplines from biochemistry and microbiology to 
pharmacology, neuroscience, biophysics and bioengineering. One of the 
Fellows has been selected to be one of NASA's newest astronauts, 
another Fellow was selected a Rhodes Scholar. One Fellow's research has 
led to 16 patents and two biotechnology companies, and another Fellow--
a female African American--has an endowed chair in the Department of 
Chemical Engineering at MIT.
    We also found that Merck scientists benefited from their experience 
as mentors. They derived both personal and professional benefits from 
their mentoring activities; many mentors remain in contact with the 
Fellows after the fellowship is completed; and many have mentored more 
than one Fellow.
Conclusion
    Noted author Seymour Sarason has written: ``The failure of 
educational reform is the failure to touch deeply and profoundly the 
entrenched culture of schools. Thus, despite the millions of dollars 
poured into changing schools and the endless hours educators have 
devoted to adopting and adapting new practices, the fact is that the 
educational landscape in this country remains largely unfazed.''
    The Merck Institute for Science Education has demonstrated its 
ability to row against this stubborn current. Science education in our 
partner school districts is no longer in the wings; instead it occupies 
center stage, as an emotionally engaging and intellectually challenging 
experience for students. Based on the lessons we have learned about 
science education reform and the power of collaboration, we will 
continue to build partnerships to improve student performance and 
participation in science until high-quality science education is indeed 
the standard for all students.
                                 ______
                                 
    Chairman Miller. Ms. Sullivan.

STATEMENT OF PATTY SULLIVAN, IBM EDUCATION SOLUTIONS EXECUTIVE, 
                        IBM CORPORATION

    Ms. Sullivan. Thank you, Chairman Miller, Ranking Member 
McKeon, and members of the House and Labor Committee. My name 
is Patty Sullivan, and I am honored to add my testimony to 
those with my esteemed panelists here regarding this important 
issue of STEM education in America. In my oral testimony I will 
show the importance of improving our education system, 
particularly in the STEM fields, to better prepare the next 
generation and the Nation. I will then highlight the innovative 
approaches that companies like IBM are taking to promote STEM 
education among our Nation's youth. I will end with actions 
Congress can take to help foster these initiatives.
    Chairman Miller, and Ranking Member McKeon and other 
California Members, it may interest you to know that IBM is 
working in California at the State level and with several 
school districts, including Clovis Unified, to improve STEM 
outcomes through better access to learning resources and better 
data management.
    IBM, like many U.S.-headquartered companies, has become a 
globally integrated enterprise. As our economy becomes more 
globally integrated, and competition becomes more intense for 
management and employees, there is growing recognition that 
innovation is the key to being able to effectively compete. The 
question we face is what needs to be done to create an 
environment that will foster innovation?
    An important criterion will be the quality of education in 
order to equip students with the needed skills for the 21st 
century workforce. STEM education is a critical skill in this 
equation, and we need to focus on the earliest stages of K 
through 12.
    So what are some of the specific programs that IBM has 
under way to improve STEM outcomes in K through 12? In 2006, 
IBM announced Transition to Teaching, our initiative to address 
K-12 issues and encourage young people to enter science and 
engineering careers by utilizing our mature workers who are 
interested in a second career in teaching, providing guidance, 
support, and funding to help them transition into teaching as 
their next career move. Specifically, IBM provides each 
participant with up to $15,000 for tuition reimbursement and 
stipends during their time gaining practical teaching 
experience in the classroom. Today there are 100 IBMers 
participating in Transition to Teaching.
    We have further leveraged our greatest asset, our IBM 
employees. More than 100,000 have signed up for volunteer 
assignments through our On Demand Community. Moreover, the 
majority of the IBMers who volunteer do so at every level of 
pre-K through high school, whether as one of the legions 
visiting schools for e-Week, engineering Week, showcasing IBM's 
new 3-D Internet multiplayer game, Power Up, which focuses on 
solving problems related to energy and the environment. They 
also lead after-school programs for middle school students, and 
coach high school students for science fair and robotics 
competitions through our TryScience program.
    On May 5th and 6th, 2008, IBM held a successful summit 
entitled ``America's Competitiveness: Hispanic Participation in 
STEM Careers,'' which focused on developing an action plan that 
would encourage more Hispanic students to consider STEM 
careers.
    IBM is working with schools to make STEM learning materials 
and resources more accessible. IBM believes that through 
common, open-source learning systems, built on open standards, 
these programs, curricula and tools can become interoperable, 
allowing access to resources at every level of a student's 
academic experience.
    Transition to Teaching and similar efforts are not a 
panacea, but they are part of a unique and real solution to the 
math and science teacher shortage. IBM is proud to demonstrate 
our corporate commitment to implementing solutions to the math 
and science teacher problem in our country, and we are working 
with other companies to encourage them to adopt a similar model 
for their transitioning workforce.
    So what can Congress do? With overwhelming passage of the 
America COMPETES Act last year and its enactment into law, 
Congress demonstrated a partial commitment to the principles of 
advancing math and science education, as well as basic research 
in the physical sciences. The unfortunate reality is that the 
authorized programs in the COMPETES Act were not funded. This 
is a critical issue that must be addressed as soon as possible. 
We strongly encourage Congress to fulfill the promise of the 
COMPETES Act by appropriating the funding necessary to support 
both education and research. Funding these programs will enable 
us to train math and science teachers, provide scholarships to 
keep students in these fields, enable graduates to seed our 
economy, and push the frontiers of knowledge through university 
research, and promote diversity in the STEM fields.
    In conclusion, we believe that a national dialogue is 
needed. Public and private sector representatives, parents and 
teachers have to be increasingly focused on developing 
stronger, rigorous, relevant preparation for K-12 students to 
get them ready for STEM courses in college or to enter a 
knowledge-based workforce focused on increasing teacher 
excellence, curriculum quality, and offering tutoring and 
mentoring services to students. Unless we capture more minds, 
more hearts, more souls, and more passion for math and other 
STEM disciplines, the innovation leadership and global 
competitiveness of the United States will be extremely 
challenged, if not threatened, in the foreseeable future.
    Thank you very much.
    [The statement of Ms. Sullivan follows:]

Prepared Statement of Patricia Sullivan, Education Solutions Executive, 
                    Global Education Industry at IBM

    Chairman Miller and members of the House Education and Labor 
Committee, my name is Patricia Sullivan and I am Education Solutions 
Executive within the Global Education Industry at IBM. IBM appreciates 
the opportunity to participate in this hearing to highlight the many 
initiatives the business community is doing to promote STEM (Science, 
Technology, Engineering and Mathematics) education among our nation's 
youth.
    IBM, like many US-headquartered companies, has become a globally 
integrated enterprise. As our economy becomes more globally integrated 
and competition becomes more intense for management and employees, 
there is growing recognition that innovation is the key to being able 
to effectively compete. Localities, states and nations are striving to 
become places where knowledge is generated and transformed into new 
commercial and societal value. They recognize that an innovative, 
knowledge-based society creates jobs, raises living standards and 
generates growth that competitors can't duplicate rapidly.
    The question we face is what needs to be done to create an 
environment that will foster innovation? An important criterion will be 
the quality of education in order to equip students with the needed 
skills for the 21st century workforce. STEM education is a critical 
skill in this equation.
    A report recently released by the U.S. Department of Labor suggests 
that over the next 10 years, the need for technical people in this 
country is going to grow not by 30 percent, but 50 percent! While the 
demand for these jobs is increasing, the supply of talented workers 
isn't keeping pace. A skilled and talented workforce is a fundamental 
requirement to attract investment, foster real wealth creation and spur 
innovation in this country. It is critical for our continued 
competitiveness.
    We are firm believers in the need to build the base of scientists 
and engineers and prepare the next generation of innovators. It is 
clear that if we are going to have a constant flow of talent in science 
and engineering, we need to raise the standards and expectations for 
what knowledge and skills students need to acquire earlier in the K-12 
pipeline. We also must ensure that students, from elementary school all 
the way through graduate school, are having the experiences that will 
generate enthusiasm about math and science and their ability to solve 
problems. They also must complete a rigorous and relevant curriculum so 
that they have the option of pursuing scientific, technical and 
multidisciplinary degrees in college or being adequately prepared to 
enter the 21st century workforce.
    What needs to happen to prepare students to participate in a 
knowledge-based economy?
    <bullet> First, our children need to be prepared to discover new 
things every day using a focused, coherent progression of math and 
science learning;
    <bullet> Schools should implement a STEM curriculum in grades pre-K 
through 8 that is rigorous and streamlined, with an emphasis on 
proficiency of key concepts;
    <bullet> Students need reinforcement that achievement in math and 
science comes from effort and isn't a skill that only results from an 
inherent talent.
    Education is a part of IBM's DNA. We consistently play an active 
role in promoting and boosting education efforts at both national and 
local levels. For many decades, IBM has been one of the leading 
corporate contributors of funding, technology, and talent to non-profit 
organizations and educational institutions across the U.S. and around 
the world. We are committed to applying our skill and ability as an 
innovator against the challenges that exist in communities, addressing 
both educational and societal concerns, and doing so in a fundamental 
and systemic way.
    Why does IBM believe this is such a critical issue? The number of 
students taking advanced math and science classes and choosing 
engineering or technical careers is declining, yet the U.S. needs to 
grow its population of qualified, technically proficient workers in 
order to remain competitive.
    This is a tall order and goes well beyond mastery of math and 
science skills and knowledge. Fundamentally, this requires a cadre of 
incredible math and science teachers in our schools, teachers who have 
the content expertise, the real world experience, an understanding of 
problem-based learning and the pedagogic practice to launch the next 
generation of innovators.
    Did you know that nearly three quarters of our middle school 
children in this country are taught math and science by teachers who 
have never graduated with a math degree or who have never been 
certified in teaching math? It is no wonder we have trouble promoting 
careers in engineering and science.
    Studies have shown that over the next 10 years we need 2 million 
more K-12 teachers in this country; and, in addition, we need a quarter 
of a million math and science teachers in the next two years. Nearly 80 
million baby boomers are going to leave the workforce some time soon. 
That's a huge problem for the U.S. In addition, over 40 percent of the 
same population of teachers are 50 years or older. This underscores the 
importance of this issue and the fact that our country must invest in 
improving and enhancing our teacher recruitment, education and 
professional development.
    Classroom teachers with strong knowledge about math and science 
have a central role in education. We agree that rigorously evaluated 
initiatives for attracting and appropriately preparing prospective 
teachers and evaluating and retaining teachers are critical to our 
students' success. The math and science preparation of elementary and 
middle school teachers must be strengthened to improve teachers' 
effectiveness in the classroom. This includes: pre-service teacher 
education, early career mentoring and professional development.
IBM initiatives
    IBM's leadership in school reform has grown steadily since we first 
launched Reinventing Education in 1994, a global program, working with 
more than 100,000 teachers. Our most recent partnerships with school 
districts focus almost exclusively on professional development because 
if we want great schools, we must have great teachers. In 2006, IBM 
announced Transition to Teaching, our initiative to address the K-12 
STEM teacher pipeline issue to help encourage young people to enter 
science and engineering careers.
    We established the Transition to Teaching initiative by leveraging 
our greatest asset--IBM employees. Of course, most IBMers have 
backgrounds in math and science, whether they are currently working in 
software development, research, consulting or management. IBMers are 
also great volunteers; more than 115,000 have signed up for volunteer 
assignments through our On Demand Community, contributing about 5 
million hours of service. Moreover, the majority of IBMers who 
volunteer do so in a school, whether as: one of the legions visiting 
schools for e-Week (engineering Week); showcasing IBM's new 3D internet 
multi-player game, Power Up, focused on solving problems related to 
energy and the environment; as one of our 8,000 eMentors providing 
online academic assistance to students; or one of those working with 
children in a Head Start or daycare program that has a KidSmart 
program. They also lead after-school programs for middle school 
students and coach high school students for science fairs and robotics 
competitions through TryScience.org.
    These IBMers tell us repeatedly that they have a passion for 
education, young people and for giving back to the community. 
Recognizing that there is a national teacher shortage in math and 
science and that there is large group of IBM employees who are eager to 
continue being productive and contributing to their communities, we 
created the Transition to Teaching program. Transition to Teaching 
specifically targets our mature workers who are interested in a second 
career in teaching, by providing guidance, support and funding to help 
them transition into teaching as their next career move.
    Specifically, IBM provides each participant with up to $15,000 for 
tuition reimbursement and stipends during their time gaining practice 
teaching experience in the classroom. Each participant chooses his or 
her own teacher certification model, but we encourage colleges of 
education to develop flexible programming, involving both online course 
work and more traditional courses with flexible scheduling. The IBMers 
also participate in online mentoring, both while they are still working 
and going to school, and once they graduate and begin teaching. We have 
a special social networking site for them at www.ibm.com to enable them 
to share and learn from their experiences. Finally, we have designed a 
special leave of absence program that provides each participant to 
conduct up to a year of student teaching while they maintain their 
benefits.
    Today, there are 100 IBMers participating in Transition to 
Teaching. IBM designed the Transition to Teaching program after a 
careful review of the research, the experience of second career 
teachers, best practices in teacher preparation and our own focus 
groups with IBMers. We have a few program essentials.
    First, teachers must have a strong, in-depth background in the 
subject area. Our criteria focus on IBMers who already have a Bachelors 
degree or higher in a math or science discipline.
    Second, we believe that IBMers need to learn the craft and skill of 
teaching, classroom management, and instructional practice to be 
effective. Thus, we are reimbursing their tuition costs for education 
preparation.
    Finally, we believe that it is absolutely essential for an 
individual to have practical K-12 classroom experience, observe good 
teaching and then practice good teaching BEFORE taking responsibility 
for a class of children. Therefore, we provide support for them to do 
student or practice teaching. We know there is a huge gap between 
mastery of a subject and the ability to teach that subject to others. 
We owe it to our IBMers and to our students to give them all the 
preparation they need, and we have designed Transition to Teaching to 
meet that standard.
    Transition to Teaching and similar efforts are not a panacea, but 
they are part of a unique and real solution to the math and science 
teacher shortage. IBM is proud to demonstrate our corporate commitment 
to implementing solutions to the math/science teacher challenges in our 
country, and we are working with other companies to encourage them to 
adopt a similar model for their transitioning workforce.
    On May 5-6, 2008, IBM held a successful summit titled ``America's 
Competitiveness: Hispanic Participation in STEM Careers,'' which 
focused on developing an action plan that would encourage more Hispanic 
students to consider careers in STEM. We had more than 130 leaders in 
education, business, government and not-for-profit organizations attend 
this summit, which featured Sen. Bob Menendez (D-NJ) and New York State 
Secretary Lorraine Cortes-Vasquez as speakers.
    In response to the need to provide mentors for Hispanic students, 
IBM commits to expanding the MentorPlace program to focus on school 
districts in the U.S. with a significant number of Hispanic students, 
and matching them with IBM employees who can serve as their online 
mentors.
    <bullet> Additionally, IBM will expand its cascade mentoring 
program--currently at the University of Arizona at Tucson--to at least 
3 universities in California, New York and Texas.
    <bullet> The cascading mentoring program is an internet based 
system that enables professional mentors, university students, and K-12 
students to engage in a three-way mentoring relationship through secure 
online discussions. These discussions focus on past academic 
experiences and exploration of what could be in terms of future goals 
and opportunities.
    <bullet> This program completed its third year in Tucson, Arizona 
and involved IBM employees, the University of Arizona SHPE (Society for 
Hispanic Professional Engineers) Student Chapter, and students from two 
high schools.
    In addition, IBM is making further commitments aimed at bolstering 
early education resources with innovative technology tools for the 
classroom:
    <bullet> IBM also will make a donation of 1,000 KidSmart units at 
early childhood centers in Chicago, Dallas, Los Angeles, Miami and New 
York--in neighborhoods that support the Hispanic community.
    <bullet> IBM commits to expanding the Reading Companion grant 
program--a web-based, voice recognition technology that helps adults 
and children gain literacy skills--to any school district in the U.S. 
that is interested, with a special focus on school districts with a 
significant number of Hispanics.
    Addressing the challenge of investing in math and science 
education, preparing teachers and exciting students are 
responsibilities not only of parents and businesses, but also of 
government. With the overwhelming passage of the America COMPETES Act 
last year and its enactment into law, Congress demonstrated a partial 
commitment to the principles of advancing math and science education, 
as well as basic research in the physical sciences. The unfortunate 
reality is that the authorized programs in the COMPETES Act were not 
funded. This is a critical issue that must be addressed as soon as 
possible. We strongly encourage Congress to fulfill the promise of the 
COMPETES Act by appropriating the funding necessary to support both 
education and research. We need tangible results. Funding these 
programs will enable us to: train math and science teachers; provide 
scholarships to keep students in these fields; enable graduates to seed 
our economy and push the frontiers of knowledge through university 
research; and promote diversity in STEM fields.
    Lastly, it is important to note that with the challenges facing the 
US to meet the needs of the STEM skills for the 21st century workforce, 
education must become more open, providing more access to learning 
across age groups, economic levels, abilities and personal history. The 
tools and resources available to teachers and students for STEM 
education is evolving rapidly and provides new opportunities and 
resources for innovation in learning. Coursework from traditional 
textbook providers is being enhanced through supplementary materials 
and resources on the Web, informal learning programs through museums 
and institutes and, outreach programs from universities and 
corporations, among others. The wealth of STEM material available 
enables the creation of a more student-centric learning environment, 
where a child's learning style, preference and ability are aligned with 
the desired proficiency outcomes.
    The challenge created by the abundance of learning materials is 
that many of these resources are independent, stand-alone and require 
the student, teacher or parent to be the point of integration. We 
believe that through common, open source learning systems built on open 
standards, these programs, curricula, and tools can become 
interoperable--allowing access to resources at every level of a 
student's academic experience.
    Open Standards and Open Source Applications--IBM is an active 
participant and contributor to the open standard and open source 
application communities in the US and abroad for learning. We are 
active participants in the Instructional Management Systems (IMS) 
standards setting body, which has defined standards for on-line 
learning objects--such as Common Course Cartridge, Content Packaging, 
and Question and Test Interoperability (QTI). We have made 
contributions to the Sharable Content Object Reference Model (SCORM), 
which has defined a collection of standards and specifications for web-
based e-learning. IBM is also actively working with open source 
development communities who are creating the collaborative and learning 
management systems. We are members of the Sakai community, which 
provides a no-charge, collaborative and learning system which provides 
the tool for teachers and students to take advantage of emerging 
technologies, knowledge and resources.
    Community Collaboration--In the area of STEM education, information 
about the latest discoveries in science help to make the information 
more vibrant and tangible for students. Open source learning systems 
help foster greater collaboration between educators and learners, and 
provide the opportunity for the latest information, techniques and 
insights to be integrated into the curriculum on a real time basis. 
Emerging on-line tools--such as social networking, virtual worlds, and 
gaming technologies--provide new avenues for people to connect, 
irrespective of space and time. Exciting new tools allow teachers to 
access the latest knowledge through reference to open, digital sources, 
such as Wikipedia, within learning modules.
    To become more student-centric, schools must provide teachers with 
a variety of alternatives for STEM education. We believe open source 
teaching and learning systems provide a compelling platform for 
addressing the long term challenges of STEM education in the United 
States, and we are committed to working with the open source community 
in a collaborative way.
    In conclusion, we believe that a national dialogue among math and 
science education stakeholders needs to remain an important priority. 
Public and private sector representatives, parents and teachers have to 
be increasingly focused on developing stronger, rigorous, relevant 
academic preparation for K-12 students to get them ready for STEM 
courses in college or to enter a knowledge based workforce, focusing on 
improving teacher quality, curriculum quality and offering tutoring and 
mentoring services to students. Unless we capture more minds, more 
hearts, more souls and more passion for math, science and other STEM 
disciplines, the innovation leadership and global competitiveness of 
the United States will be extremely challenged, if not threatened, in 
the foreseeable future.
                                 ______
                                 
    Chairman Miller. Mr. Wells, welcome to the committee.

   STATEMENT OF BRIAN WELLS, CHIEF SYSTEMS ENGINEER, RAYTHEON

    Mr. Wells. Thank you, Chairman, Ranking Member McKeon, and 
members of the committee. I am personally honored to be here 
today, and Raytheon is honored be to represented. We are glad 
to be here today to speak about a subject that is so important 
to our country, which is improving the education system. Thank 
you for the opportunity to share with you how Raytheon is 
trying to help.
    Raytheon has a stake in the discussion because we are a 
technology company that depends upon the expertise of our 
people to provide innovative solutions to meet our customers' 
important needs. Our company employs 72,000 people worldwide, 
in over 40 States and the District of Columbia, with over 
12,000 people in the State of California alone. About half of 
our employees are engineers, mathematicians, scientists, and 
technicians.
    We believe it essential to secure the technical talent 
pipeline of the future. With great generational transition on 
the horizon, as baby boomers grow near retirement, we believe 
it is imperative to help our students prepare now for skills 
they will need later to enter careers in science, technology, 
engineering, or math, or STEM as we call it.
    Raytheon has a multipronged approach to education, both 
internal and external. Externally, our most visible activity is 
our MathMovesU program. MathMovesU is designed to engage middle 
school students on their own terms and make the connection 
between math, their interests, and cool careers. The program's 
cornerstone uses their favorite medium, an interactive Web 
experience.
    Since its inception, the MathMovesU Web site has attracted 
over 600,000 visitors from every State, the District of 
Columbia, and from 107 countries. The program awards more than 
1 million annually in scholarships and grants to students, 
teachers, and schools nationwide. Over the last 2 years, 
Raytheon has invested a total of over 6 million in our 
children's education through the MathMovesU program.
    In addition to MathMovesU, Raytheon is a national sponsor 
of MATHCOUNTS, which is a nonprofit organization that promotes 
math excellence among U.S. middle school students by providing 
financial and volunteer resources.
    More than 4,000 Raytheon employees volunteer to support 
math and science education in their communities each year 
through MathMovesU, MATHCOUNTS, FIRST Robotics, and other 
activities, and we hold more than 100 events annually to engage 
middle school students in math and science.
    But Raytheon is taking a new approach to examine potential 
solutions to the challenge of increasing the number of STEM 
graduates. Our CEO, Bill Swanson, believes that the same 
systems engineering methods used to create complex aerospace 
and defense systems for the U.S. Government can be applied to 
the U.S. education system.
    As a result, in June 2006, in support of this work as 
cochair of the Business-Higher Education Forum's initiative to 
strengthen STEM education, he initiated an educational systems 
engineering and modeling project.
    Our approach is centered on developing a dynamic systems 
engineering model of the U.S. P-through-16 STEM education 
system.
    Of the many proposed improvements to the education system 
that we have examined, we found that some have the potential 
for providing large gains in the number of STEM graduates.
    It was also clear from the research we performed that there 
are many areas where additional research is needed to build 
data sources and to quantify behavior, and ultimately to make 
the model more robust. To accomplish this, a larger integrated 
community that includes researchers, system modeling experts, 
policymakers and practitioners will be required.
    As a result of our 2 years of work on this project, we have 
concluded that modeling is a viable and promising approach for 
assessing educational policy changes. It helps discover 
unintended consequences, such as the shortage of teachers when 
class size is reduced. It provides a means of thinking through 
the problem for a system that is too complex for human 
understanding. Modeling helps to identify data collection 
requirements and missing parts of the research puzzle. And 
finally, we believe it can provide guidance to policymakers to 
allow them to compare alternatives and to examine combinations 
of solutions integrated together.
    While Raytheon and BHEF have taken the initial steps in 
this area, there is much more to be done. We are working with 
the Ohio State University and Kathy Sullivan at the John Glenn 
School of Public Affairs to form a community of researchers and 
modelers to expand the effort. It is our belief that supporting 
this effort can provide great benefit to the U.S. education 
system, and we would welcome your support to help us build the 
community of researchers and modelers who will continue this 
work.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Mr. Wells follows:]

Prepared Statement of Brian H. Wells, Chief Systems Engineer, Raytheon 
                                Company

    Thank you, Mr. Chairman, Ranking Member McKeon, members of the 
committee. I am honored, and Raytheon is honored, to be here today to 
speak about a subject that is so important to the future of our 
country: improving our educational system. We thank you for the 
opportunity to share with you how Raytheon is trying to help.
    Raytheon has a stake in this discussion because we are a technology 
company that depends on the expertise of our people to provide 
innovative solutions to meet our customers' important needs.
    Specifically, Raytheon specializes in defense, homeland security, 
and other government needs throughout the world. We provide state-of-
the-art electronics, mission systems integration and other capabilities 
in the areas of sensing; effects; and command, control, communications 
and intelligence, as well as a broad range of mission support services.
    Our company employs 72,000 people worldwide, in over 40 states and 
the District of Columbia, with over 12 thousand people in the state of 
California alone. About half of our employees are engineers, 
mathematicians, scientists and technicians.
    We believe it essential to secure the technical talent pipeline for 
the future. With a great generational transition on the horizon--as 
``baby boomers'' grow nearer to retirement--we believe it is imperative 
to help our students prepare now for the skills they will need later to 
enter careers in Science, Technology, Engineering and Mathematics 
(STEM).
    Raytheon has a multi-pronged approach to education, both internal 
and external.
    Like many employers, we provide educational assistance to our 
employees through tuition reimbursement. In 2007, we provided more than 
$14 million in assistance to about 3,800 employees attending college. 
In addition, we expect to provide our employees with about 1.8 million 
hours of in-house training in 2008 to improve their skills and 
capabilities.
    Externally, our most visible activity is our MathMovesU(r) program. 
MathMovesU is designed to engage middle school students on their own 
terms and make the connection between math, their interests, and 
``cool'' careers. The program's cornerstone uses their favorite 
medium--an interactive web experience.
    The website is ``immersive,'' designed to create ``aha'' moments by 
presenting math in its relation to some of the topics middle school 
students care most about--music, sports and fashion. It uses a variety 
of puzzles and games to encourage the development of math skill in fun 
and creative ways. If someone in your family is in the target age 
group, you may want to encourage them to check out MathMovesU.com and 
pick an ``avatar.'' If you're not sure what an avatar is, believe me, 
they'll know!
    The goals of MathMovesU are to:
    <bullet> Transform math's image among middle school students.
    <bullet> Motivate American students to meet their potential in math 
and science education.
    <bullet> And to help create and sustain a strong, talented and 
diverse workforce by supporting math and science education.
    Since its inception, the MathMovesU website has attracted over 
600,000 visitors from every state and the District of Columbia, and 
from 107 countries. The program awards more than $1 million annually in 
scholarships and grants to students, teachers and schools nationwide. 
This includes 900 MathMovesU scholarships awarded to students along 
with matching grants awarded to their schools, and 65 ``Math Heroes'' 
(teachers and tutors) who each received $2,500 grants.
    Over the last two years, Raytheon has invested a total of over $6 
million in our children's education, through the MathMovesU program.
    In addition to MathMovesU, Raytheon is a national sponsor of 
MATHCOUNTS(r), which is a nonprofit organization that promotes math 
excellence among U.S. middle school students by providing financial and 
volunteer resources. Raytheon serves on the board of MATHCOUNTS, 
supports 6 MATHCOUNTS chapters and 5 state championships, and is the 
Title Sponsor of the MATHCOUNTS National Competition for 2009-2011.
    Raytheon supports as many as 29 FIRST Robotics high school teams 
across the nation and provides scholarship money to students who have 
participated in the FIRST Robotics program.
    FIRST Robotics enables high school students to experience science 
and engineering through the building of robots and competing against 
teams from other schools. The excitement at these competitions is 
intense.
    More than 4,000 Raytheon employees volunteer to support math and 
science education in their communities each year through MathMovesU, 
MATHCOUNTS, FIRST Robotics and other activities. And we hold more than 
100 events annually to engage middle school students in math and 
science.
    In addition to these activities, Raytheon is partnering with the 
Business-Higher Education Forum to provide corporate leadership to 
strengthen STEM education and to promote college readiness, access and 
success for underserved populations, particularly in the STEM 
disciplines. BHEF is an organization of Fortune 500 CEOs and senior 
executives, college and university presidents, and foundation leaders 
working to advance innovative solutions to our nation's education 
challenges in order to enhance U.S. competitiveness.
    Raytheon's Chairman and CEO Bill Swanson has been a member of the 
Business-Higher Education Forum (BHEF) since January 2004. Mr. Swanson 
currently is vice chair of the organization, which is chaired by 
Cornell University President David Skorton.
    To remain competitive in the global economy, the American education 
system must provide an ever expanding and highly talented pool of STEM 
workers. The downward trend in U.S. science and engineering degree 
attainment, unless addressed, threatens to significantly affect the 
size and quality of the workforce available to industry.
    In projecting forward from 2002 to 2012, the Bureau of Labor 
Statistics (BLS) estimates the need for science and technology workers 
will increase by 26 percent compared to 15 percent for all occupations. 
They predict the need for computer/mathematical scientists will 
increase by 39 percent and the need for post-secondary teachers will 
increase by 37 percent.
    Defense contractors in many instances need highly skilled employees 
who are also U.S. citizens to meet program clearance requirements. So 
we are acutely aware of the problems that a reduction in the number of 
highly skilled American STEM workers will create. In addition, the 
retirement of the baby boom generation will lead to an increase in 
demand for workers to fill the positions these highly valued employees 
vacate.
    To address this problem, the BHEF launched a multi-year initiative, 
``Securing America's Leadership in Science, Technology, Engineering, 
and Mathematics,'' to develop a strategy to double the number of the 
U.S. STEM college graduates by the year 2015. The initiative is co-
chaired by Bill Swanson and Warren Baker, President of California 
Polytechnic State University in San Luis Obispo.
    The BHEF initiative investigates a variety of problems that exist 
in today's education system, such as low student participation and 
declining achievement in STEM subjects relative to other countries, the 
shortage of qualified STEM teachers, and the lack of participation by 
women and minorities in many STEM disciplines.
    Last year, under the leadership of its STEM working group, BHEF 
produced a seminal report about how the US could improve the quantity 
and quality of our nation's math and science teacher workforce. 
Entitled, ``An American Imperative, Transforming the Recruitment, 
Retention and Renewal of the Nation's Mathematics and Science Teaching 
Workforce,'' the report contained over 100 recommendations for state 
and federal government, K-12 and higher education, and business. A 
number of recommendations from the report were adopted in the America 
COMPETES Act.
    Raytheon is taking a new approach to examine potential solutions to 
the challenge of increasing the number of STEM graduates. Our CEO, Bill 
Swanson, believes that the same systems engineering methods used to 
create complex aerospace and defense systems for the U.S. government 
can be applied to the U.S. education system.
    As a result, in June 2006, in support of his work as co-chair of 
the Business-Higher Education Forum's initiative to strengthen STEM 
education, he initiated an educational systems engineering and modeling 
project.
    After nearly two years of work that included consultations with a 
number of education experts, we believe that we have demonstrated the 
utility and potential of educational systems engineering and modeling.
    The overarching goals of the modeling activities are to:
    <bullet> Assist policymakers, educators and researchers in 
understanding the complex nature of the U.S. education system.
    <bullet> And to assess potential solutions that will strengthen 
U.S. STEM capabilities.
    Our approach is centered on developing a dynamic systems 
engineering-based model of the U.S. P-16 STEM education system.
    The first project began in September 2006 and was completed in May 
2007. Four teams of 5 to 6 experienced systems engineers competed to 
see which could create the best model of students' progression through 
the educational system. The model created examines the flow of the 
students through the education system and calculates how many receive a 
STEM bachelor's degree.
    A second set of projects began in July 2007 and was completed in 
March 2008. Five teams of 5 to 6 experienced systems engineers worked 
together to update and improve the initial model. The teams modeled the 
different outcomes between men and women, and advantaged and 
disadvantaged students. They improved the higher education aspects of 
the model and created a California state version of the model. To 
create the California version we worked with the California Council on 
Science and Technology (CCST), led by Susan Hackwood and with SRI 
International.
    The total effort expended on the U.S. educational system modeling 
over the past two years is approximately 12,000 hours by more than 60 
experienced engineers. The work we did using systems dynamics 
techniques has taken the initial steps to help the STEM education 
effort and has enabled our team to further develop their systems 
engineering skills.
    Of the many proposed improvements to the education system that we 
examined, we found that some have the potential for providing large 
gains in the numbers of STEM graduates. Improving the capabilities and 
experience levels of teachers has a large effect. Improving the 
networking of college students with others in their field of study 
through cohort and bridge programs that help them to work together and 
to share knowledge has a substantial effect. Increasing interest on the 
part of women and convincing the many capable disadvantaged students 
that they can and should attend college through mentoring programs can 
have a large effect.
    The modeling effort makes it clear that no single effort will 
produce a doubling of the college graduates in 10 years. A combination 
of several coordinated approaches will be required. Systems engineering 
and system dynamic modeling provide a means of determining what the 
combination should be and how many resources should be applied to each.
    It was also clear from the research we performed that there are 
many areas where additional research is needed to build data sources 
and to quantify behavior and, ultimately, to make the model more 
robust. To accomplish this, a larger integrated community that includes 
researchers, system modeling experts, policymakers, and practitioners 
will be required.
    For example, we found that additional data is necessary relative to 
teacher attrition in their first five years. Approximately 50 percent 
of new teachers quit in the first 5 years. What is not clear from the 
current data and research is if the most capable are leaving the 
profession or not. Additional research data in this area will improve 
the model and allow us to better understand what approach will be most 
effective at improving student performance.
    Our data collection efforts found that there is a great deal of 
research and analysis on teacher pay and its effects on performance, 
but very little data on STEM teacher pay. The modeling of proposed 
changes in STEM teacher pay could not be performed due to lack of data. 
Also the effects of pay on STEM teacher attrition could not be modeled.
    We found that the data sets collected across the 50 states are very 
different and typically incomplete. We examined California in detail 
and created specific recommendations for improved data collection.
    Better data improves understanding; it enables better modeling and 
analysis and will allow us to arrive at better conclusions. 
Improvements in the area of data collection and standardization will 
provide the information necessary for nationwide comparison and 
improvement.
    As a result of our two years of work on this project, we have 
concluded that modeling is a viable and promising approach for 
assessing educational policy changes.
    <bullet> It helps discover unintended consequences.
    <bullet> It provides a means of thinking through the problem for a 
system that is too complex for human understanding.
    <bullet> Modeling helps to identify data collection requirements 
and missing parts of the research puzzle.
    <bullet> And finally, we believe it can provide guidance to policy 
makers allowing them to compare alternatives and examine combinations 
of solutions integrated together.
    While Raytheon and BHEF have taken the initial steps in the area, 
there is much more to be done. We are working with the Ohio State 
University and Kathy Sullivan at the John Glenn School of Public 
Affairs to form a community of researchers and modelers to expand the 
effort. It is our belief that supporting this effort can provide great 
benefit to the U.S education system and we would welcome your support 
to help us build the community of researchers and modelers who will 
continue this work.
    Thank you.
                                 ______
                                 
    Chairman Miller. Ms. Lovett.

    STATEMENT OF MELENDY LOVETT, SENIOR VICE PRESIDENT AND 
      PRESIDENT OF EDUCATION TECHNOLOGY, TEXAS INSTRUMENTS

    Ms. Lovett. Chairman Miller, Ranking Member McKeon, thank 
you for the opportunity to be here to testify on this important 
topic. TI has a critical interest in the development of science 
and engineering talent, and our education technology business 
is focused on math and science student achievement.
    American innovation is a top policy priority for our 
company, as well as investing in basic research, welcoming the 
world's brightest minds, extending the R&D tax credit, and, 
most importantly for the long term, improving math and science 
education.
    I want to talk with you today about TI's STEM workforce 
needs, our education efforts, some of which we are in the 
process of scaling, and some specific STEM policy 
recommendations.
    Horace Mann defined education as the great equalizer, and 
STEM education is the new great equalizer for today and for our 
future workforce. At TI, STEM skills are needed from entry 
level all the way through our engineering ranks. Semiconductor 
manufacturing is very complex, integrating billions of 
transistors on a tiny piece of silicon. And our manufacturing 
employees do use their math and science skills every day.
    The electrical engineers who design and develop the latest 
chips are our lifeblood, and a bachelor's degree in electrical 
engineering requires three modules of calculus, differential 
equations, linear algebra, statistics, and applied math. In 
2007, half of the master's degrees and over 70 percent of the 
Ph.D.s in electrical engineering from U.S. universities were 
awarded to foreign nationals. TI strongly supports bipartisan 
legislation to exempt advanced STEM degree recipients from U.S. 
universities from green card quotas. And thank you, Chairman 
Miller, for sponsoring this legislation.
    TI's education efforts focus on STEM excellence and equity, 
reaching out to women and underrepresented minorities. We 
emphasize student achievement and measurable success that can 
be replicated. Our programs support closing access and 
achievement gaps, as well as accelerating the most talented 
students to achieve their full potential and full world-leading 
innovation.
    TI works with policymakers, education stakeholders to 
pilot, implement, and then scale education programs such as 
early childhood education, high school engineering education, 
and Advanced Placement incentive programs.
    TI's education technology business is focused on improving 
math achievement for all students. Research provides the road 
map for the creation of all of our products, and we conduct 
ongoing effectiveness studies for products that are currently 
deployed in classrooms.
    I want to highlight a couple of TI initiatives that we are 
now working to scale. One is a policy framework called Finding 
Common Ground, and the other is an algebra readiness and 
algebra program that we call MathForward. We recognize that a 
divisive issue in math education had to be addressed, and that 
is the dispute over conceptual understanding versus 
computational fluency, also known as the math wars. Richard 
Schaar, a Ph.D. mathematician and former head of TI's education 
technology business worked closely with experts across the 
spectrum of views to publish Finding Common Ground, 
highlighting key areas of agreement.
    Too many students today are unknowingly making a middle 
school decision that could limit their access to college, a 
STEM career, or a 21st century job at any level. All students 
in America should enter high school algebra-proficient or at 
least algebra-ready with all of their career options open to 
them.
    Our interests in addressing algebra readiness and algebra 
rigor led us in 2005 to work with Richardson, Texas school 
district to create MathForward. It is a systemic intervention 
program grounded in research and aligned to State standards. 
MathForward consists of eight integrated components, including 
extensive use of formative assessments and ongoing teacher 
professional development. The program has successfully raised 
the passing rate and test scores of students who previously 
failed State math assessments at rates far exceeding the 
control group.
    The first program was launched with a student population 
that was largely African American and Hispanic and mostly from 
economically disadvantaged backgrounds. MathForward has 
assisted in closing the achievement gap in math from double 
digits to single digits for these groups.
    TI has implemented additional MathForward sites in Texas, 
Ohio and Florida that are also successfully improving student 
achievement. With finding common ground TI's policy work brings 
a way to move past the math wars. We support the algebra 
readiness and algebra rigor recommendations from the Math Panel 
and we have real life classroom experience with MathForward to 
know that these methods can work to help all students succeed 
in algebra.
    In conclusion, business, government and education need to 
keep working together to address these challenges around STEM 
education. TI urges Congress to fulfill the promise of America 
COMPETES by providing key funding for STEM education. 
Particularly we would like to see it targeted to algebra and 
algebra readiness. Of the $3.1 billion spent in Federal STEM 
programs, only 1 percent today is dedicated specifically to K-
12 math.
    TI also encourages Congress to reauthorize NCLB while 
protecting the integrity of the original law.
    Finally, TI will continue to work with policymakers and 
math education stakeholders to scale proven initiatives that 
accelerate STEM education and the goals of NCLB, ensuring all 
students develop the essential math literacy needed to enter 
STEM fields and succeed in a 21st century job.
    Thank you.
    [The statement of Ms. Lovett follows:]

    Prepared Statement of Melendy Lovett, Senior Vice President and 
           President, Education Technology, Texas Instruments

    Chairman Miller, Ranking Member McKeon, thank you for the 
opportunity to testify today on the important topic of science, 
technology, engineering and math (STEM) education. Today, I am going to 
speak from two perspectives: as an officer of Texas Instruments which 
has a critical interest in the development of a pipeline of engineers 
and scientists and also as the President of TI's Education Technology 
business unit whose business is focused on math and science 
proficiency. My testimony will address TI's STEM workforce needs as 
well as our activities to advance STEM education. Then I will highlight 
MathForward, a promising program TI's Education Technology business has 
implemented to advance student achievement in algebra.
    Texas Instruments (TI) has a 78-year history of innovation. While 
our products have changed many times over the years, we have always 
fundamentally been a company of engineers and scientists. Based in 
Dallas, TI is the world's third largest semiconductor company. 
Semiconductors are the enabling technology driving everything from 
computers, cell phones, MP3 players, GPS systems, HDTVs, automotive 
safety, and medical devices. TI develops chip technologies for new 
electronics that make the world smarter, healthier, safer, greener and 
more fun.
    While semiconductors comprise 96% of TI's revenues, many people 
still associate TI with the calculator. Indeed, TI's Education 
Technology business is responsible for the other 4% of revenue, with 
products including graphing calculators for middle school and high 
school. TI's Education Technology business is focused on improving math 
achievement for all students by fostering quality instruction and 
learning in mathematics. Research provides the roadmap for the creation 
of all of our education technology products and programs and we conduct 
ongoing effectiveness studies for products deployed in classrooms.
TI'S focus on innovation
    American innovation is a top policy priority for TI. The key 
elements needed for the U.S. to sustain its technology leadership are: 
investing in basic research, welcoming the world's brightest minds, 
extending the R&D tax credit--and perhaps most importantly for the 
long-term--improving math and science education. We view these as 
inter-related parts of an innovation ecosystem and our policy 
objectives and corporate citizenship focus heavily on these priorities. 
Many in the business community have become very passionate about this 
set of priorities and rightly so. It is our future.
    Education is the highest priority for corporate philanthropy at TI. 
Each year, TI makes financial contributions totaling millions of 
dollars in grants and other gifts to schools, colleges and educational 
programs. To help foster our next generation of high-tech innovators, 
TI efforts have focused increasingly on STEM, particularly reaching out 
to women and under-represented minorities. TI's involvement in 
education places a heavy emphasis on student achievement, closing the 
achievement gap, and developing programs with measurable success that 
can be replicated elsewhere. I describe some of these programs later in 
my testimony
    TI's former CEO, Tom Engibous, served as a corporate co-chair of 
the business coalition to pass No Child Left Behind (NCLB) and TI is a 
member of the Business Coalition for Student Achievement that calls for 
making science, technology, engineering and math (STEM) education, and 
readiness for college and the workplace priorities in NCLB 
reauthorization.
STEM workforce needs
    As a former Vice President of Human Resources at TI, I know first-
hand about the math and science skills required at the company. TI 
hires employees with skills at different levels. Because of the 
continuing complexity of the semiconductor design process and other 
technological advances, we are expecting more from engineering 
graduates in terms of the breadth of their engineering coursework 
exposure and experiences at all levels of higher education--BS, MS, and 
Ph.D.
    The semiconductor industry depends on electrical engineers to 
design and develop the latest chips. A bachelor's degree in electrical 
engineering requires three modules of calculus, differential equations, 
and linear algebra, and often additional coursework in probability/
statistics and applied mathematics. For advanced degrees in electrical 
engineering, coursework is often required in Math Modeling, Statistics, 
and Linear Algebra.
    In 2007, half of the master's degrees and 71% of the PhDs in 
electrical engineering from U.S. universities were awarded to foreign 
nationals. This is a source of great concern for TI both because the 
nation is not producing sufficient numbers of indigenous EEs but also 
because under current visa polices our ability to hire and retain the 
product of U.S. universities is limited. TI strongly supports the 
bipartisan legislation (H.R. 6039) co-sponsored by Reps. Lofgren and 
Cannon as well as Chairman Miller and Rep. Sanchez that would exempt 
U.S. advanced STEM degree recipients from the green card limitations. 
TI also supports two other employment-based measures to recapture 
unused visas (Lofgren-Sensenbrenner H.R. 5882) and eliminate country 
limits (Lofgren-Goodlatte H.R. 5921).
    Semiconductor manufacturing has migrated from the era of placing a 
high value on manual dexterity on the assembly line to one of mental 
dexterity on the clean room floor. A TI manufacturing specialist must 
have a basic knowledge of math and science skills, such as performing 
addition, subtraction, multiplication and division, calculating 
fractions, decimals, and percents without the use of a calculator.
    Our technicians must have an associates' degree in semiconductor 
manufacturing technology and pass a comprehensive test that covers 
basic electronics, applied physics and basic chemistry. They must be 
able to apply mathematical formulas, perform basic algebraic functions, 
and in some jobs apply algebra, geometry or trigonometry functions.
    Finding individuals with the right skills set, particularly at the 
engineering level is a challenge. This will soon be exacerbated as the 
baby boomer generation retires. This one demographic change is expected 
to reduce the U.S. science and engineering workforce by half. 
Meanwhile, the Bureau of Labor Statistics (BLS) projects that 
employment in science and engineering (S&E) occupations will grow 70 
percent faster than the overall growth for all occupations. 
Mathematical literacy is critical for a range of occupations in today's 
economy.
    We need to address student interest and skills in STEM at all 
stages of the pipeline, from K-12 through university and graduate-
level. Strong math skills are a gating factor for majoring in science 
or engineering.
TI'S activities in STEM education
    TI and the TI Foundation support a range of STEM education 
activities from elementary to graduate school designed to enhance 
student interest and achievement in these key disciplines. A few 
programs relevant to math are highlighted below:
    I led the effort to establish the Women of TI Fund, which sponsors 
activities to close the gender gap in STEM fields. In early 2002, 
several senior women leaders at Texas Instruments formed the Women of 
TI Fund to expand math, science, and technology education for girls in 
elementary, middle, and high schools. The fund leverages personal 
contributions of TI executives with funds from the TI Foundation, TI 
corporate giving, and the Dallas Women's Foundation by providing 
targeted grants to achieve this goal.
    The fund also supports girls taking and passing the AP tests in 
math, science and computer science courses. The good news is that girls 
are taking and passing AP calculus exams at roughly the same rate as 
boys. However, the largest gender gap appears in physics. The Fund and 
the TI Foundation have now sponsored nine summer AP physics camps in 
the Dallas area for girls to facilitate success in this subject. In 
2007, 134 girls took the AP Physics exam, a 132% increase over year 
2000. 43% of girls taking the AP Physics exams pass the test in 2007, a 
290% increase over 2001. The Fund also supports counselor and teacher 
education on engineering careers to encourage girls to explore these 
fields.
    TI became an early supporter of the Advanced Placement Incentive 
Program, designed to encourage students to take more rigorous college-
level course work in high school. It provides incentives to both 
teachers and students for their successes. As a result of the AP 
Incentive program operated in the Dallas Independent School District, 
the original 10 Dallas ISD Incentive Schools have seen the number of 
passing scores for all students in math and science grow 1,220 percent 
from pre-incentive program levels (from 71 students passing in 1995 to 
937 passing in 2007).
    TI has been a national sponsor of MATHCOUNTS, an exciting 
competition that gives thousands of seventh and eighth grade 
``mathletes'' a chance to race against the clock to solve challenging 
mathematics problems. In addition to providing major funding, TI 
supplies the TI handheld technology required annually to support local, 
state and national MATHCOUNTS competitions. TI is also a sponsor of the 
International Mathematics Olympiad, an annual mathematics competition 
for high school students.
    In 1999, in collaboration with Southern Methodist University (SMU), 
TI helped design a math and science-based engineering curriculum for 
high school students called the Infinity Project. The class uses 
devices such as MP3 players and cell phones to teach engineering 
concepts. Infinity is now offered in nearly 275 schools in 37 states 
and is showing impressive results in changing student attitudes toward 
engineering and technology disciplines.
    The TI Math Scholars program at the University of North Texas 
Dallas Campus aims to add to the pool of qualified math educators by 
offering full scholarships with book stipend, to students pursuing 
their Bachelor of Arts degree in Mathematics with Secondary 
Certification at the UNT Dallas Campus. The students will teach in 
Dallas ISD or select neighboring school districts for a minimum of two 
years in return for this scholarship opportunity.
    The TI Foundation's Innovations in Science, Technology, Engineering 
and Mathematics (STEM) Teacher Awards were established to recognize 
instructors at the secondary level who are enhancing student 
achievement and increasing interest in high school classrooms in the 
Dallas, Plano and Richardson independent school districts (ISD). As 
STEM fellows, the teachers participate in a unique annual professional 
development day at TI's facility designed to expose them to 
interesting, everyday uses of math and science in the technology 
business world. Recipients also each receive $10,000, of which $5,000 
is directly awarded to the teacher. The other $5,000 is to be used at 
the teacher's discretion for professional development or instructional 
technology.
Finding common ground in the math wars
    Math competency is at the heart of TI's Education Technology 
business. Research on student learning and effective teaching is 
central to our efforts. We recognized that before there could be 
agreement on what and when students learn key math concepts, a divisive 
issue in math education had to be addressed. The ``Math Wars'' over 
conceptual understanding versus computational fluency have long 
prevented progress on K-12 math curricula.
    In 2004, Richard Schaar, formerly head of the Education Technology 
business at TI, and PhD mathematician, worked closely with experts from 
across the spectrum of views, specifically respected mathematicians 
such as Jim Milgram and Wilfred Schmidt, and well-known mathematics 
educators such as Deborah Ball, Joan Ferrini-Mundy, and Jeremy 
Kilpatrick on a project funded by the NSF through MAA, with support 
from the Department of Education and TI. In a paper entitled Finding 
Common Ground published in 2005, the group found key areas of agreement 
around areas in mathematics that have traditionally been in dispute 
between the two factions. The group agreed that students need to be 
able to:
    1. Perform basic number skills
    2. Reason about precisely defined objects and concepts
    3. Formulate and solve problems
    TI Education Technology submitted extensive written comments to the 
Math Panel. Our submissions presented the Finding Common Ground work as 
well as lessons learned from TI's extensive engagement in education and 
related research. One of the key findings is the effectiveness of the 
``systems approach,'' meaning that elements in math education such as 
teacher content knowledge and professional development, aligned 
curriculum, research-based instructional and learning techniques, 
ongoing assessments, and administrative support must be addressed in a 
coherent, integrated way. There are no silver bullets in a single 
system element. The MathForward intervention that I will describe 
shortly embodies the systemic approach.
    Dr. Schaar provided additional written and oral testimony, on the 
research around calculator use and on the MathForward program.
    The Finding Common Ground work and related recommendations from the 
Math Panel provide a basis for moving forward to improve K-12 math 
teaching and learning. TI applauds the emphasis on rigorous research 
and building research capacity recommended by Math Panel.
Algebra is essential
    The Math Panel report notes that many educational policy experts 
see algebra as a central concern. Drops in U.S. math achievement start 
in late middle school. The National Math Panel report recommends a 
strong grounding through Algebra II due to the high correlation with 
access to college, graduation from college, and income potential. Among 
African American and Hispanic students completing Algebra II, the 
disparity in college graduations rates with the overall student 
population is halved compared to those who do not complete Algebra II.
    TI supports the Panel recommendations on the critical foundations 
for algebra (fluency with whole numbers and fractions and aspects of 
geometry and measurement) and the major topics of algebra (symbols and 
expressions, linear equations, quadratic equations, functions, algebra 
of polynomials, and combinatorics and finite probability). Further, TI 
endorses the recommendation that all school districts prepare students 
to access an authentic algebra course by eighth grade.
MathForward
    In 2005, TI developed and implemented MathForward, an algebra and 
algebra-readiness program grounded in research done by a prominent 
professor of education.\1\ Our efforts embraced the NCLB view that 
interventions be research based and aligned to state standards. The 
intervention program has proven successful in significantly raising the 
passing rate and test scores of students who previously failed state 
math assessment tests.
---------------------------------------------------------------------------
    \1\ Carnine, D. (2002) The Ten Components of High Achieving, High 
Poverty Schools. Unpublished manuscript. Eugene, OR: University of 
Oregon. Summary available from http://www.tea.state.tx.us/math/
TenComEffSch.htm
---------------------------------------------------------------------------
    MathForward was created with the intent of eliminating the 
achievement gap between African American and white students, and 
Hispanic and white students, in middle school mathematics. In the pilot 
Richardson school district, from 2004 to 2008, the gap for African 
American 7th graders versus all students on the Texas math exam closed 
from -24% to -8% and from -20% to -11% for 8th graders. For Hispanic 
students, the gap closed from -10% to -4% in 7th grade and from -16% to 
-4% in 8th grade. While it is critical to eliminate the gap, we 
designed MathForward with the intent to increase the learning 
opportunities for all students, and improve student achievement results 
for all students, regardless of ethnicity or socio-economic status.
    The eight integrated components of the intervention include:
    <bullet> Teacher training focused on content knowledge and using 
data to drive instruction
    <bullet> Ongoing professional development
    <bullet> Increased classroom learning time
    <bullet> Common, aligned assessments and benchmarking tools to 
track student progress real-time
    <bullet> Integration of technology to provide real-time feedback 
and enrich classroom instruction and assessment.
    <bullet> Use of an accelerated curriculum
    <bullet> Establishment of high expectations for all students
    <bullet> Increased support of math teaching and learning from 
parents and school administrators
    These elements are consistent with the National Math Panel's 
emphasis on algebra and recommendations on learning and instructional 
research and teacher content knowledge.
            Increased Teacher Content Knowledge
    Participating teachers meet regularly with a mathematician or use 
online video modules to build content knowledge for curriculum lessons 
they will be teaching in the coming weeks. Teacher's content knowledge 
is assessed prior to the start of the program and at the conclusion 
using the University of Michigan's Content Knowledge for Teaching 
Mathematics measurements.
            Ongoing Professional Development
    At the beginning of the project, teachers are trained on the use of 
the extended classroom time, appropriate integration of technology, 
data driven decision making and setting high expectations, all in the 
practical context of daily math teaching.
    Teachers are given a common, duty-free, planning time at least a 
few times a week. The time is used to plan lessons for the week, 
discuss teaching strategies, analyze student work, and discuss 
underlying math concepts. Coaches/Implementation Specialists 
participate regularly in these sessions to provide guidance and 
feedback.
            Extended Learning Time
    Schools implement the MathForward program in two block-scheduled 
mathematics class periods per day. The daily mathematics class is 
partitioned into three distinct sections: daily skills warm-up, 
district curriculum (lesson), and problem solving (task or lesson). The 
additional time spent in the mathematics classroom allows teachers to 
use problem solving and collaborative learning strategies necessary to 
improve deep understanding and develop skills.
            Integration of Technology
    In Math Forward, teachers use technology daily to enhance district 
lessons, provide students with immediate feedback about learning, and 
reinforce mathematics content through a wide variety of pedagogical 
mechanisms. Formative assessment is enabled through the use of graphing 
calculators integrated with a wireless classroom network. The teacher 
can send questions to the student devices, and students then send their 
answers back to the teacher for display and grading. The system allows 
the teacher to project classroom displays of their screens and student 
responses and also enhances student learning through a collaboration 
component.
            Common, Aligned Assessments
    Teachers are trained and required to administer assessments with 
students in the block classes at the beginning and end of each unit of 
study. Various forms of formative and summative assessments are used to 
inform teachers about students' content and procedural knowledge and 
the communication used to discuss content and processes within open 
response, or problem solving items.
    The frequency of assessments allows teachers to meet individual 
student needs, and easily identify struggling students. Teachers are 
able to restructure lessons and activities prior to a student failing 
the course at the end of six-weeks, or waiting for the results of a 
district benchmark exam.
            Accelerated and Rigorous Curriculum
    Research has shown that the curriculum for underachieving math 
students often is narrowed to the low-level procedural, with little 
attention paid to the more demanding learning tasks involved in deep 
conceptual understanding and high-level problem solving. By contrast, 
the MathForward model is based on the principle that all students 
benefit from a rigorous curriculum: the right way to ensure math 
success for all is to build deep understanding and then expertise in 
problem solving.
    Toward this end, MathForward coaches work with teachers to achieve 
appropriate rigor in the curriculum. Special supplemental learning 
activities and assessments aligned to state standards target key math 
concepts, principles and problem-solving strategies.
            High Expectations for All Students
    By middle school, many students lack self-confidence in 
mathematics. In this program, teachers create safe environments and 
encourage student responses. Students are valued for their ability to 
solve problems and are given tools to enhance content knowledge, 
justification, reasoning and proof. With the frequency of feedback and 
support students receive, they gain knowledge and confidence in their 
ability to do well in mathematics.
            Increased Administrator and Parental Support
    Administrator support is critical to success. Administrators 
participate in staff development, meet with project staff to discuss 
components of the model, and actively support implementation. 
Administrators set expectations for teachers and students during the 
initial phase of the project and continue to monitor progress 
throughout the year. Parental involvement and support of math learning 
is also critical to student success.
            Results
    In the 2005-2006 school year, the RISD pilot project involved 79 
students who had failing test scores on the Texas state math test 
(TAKS). Most participants were African-American or Hispanic and most 
were from economically disadvantaged circumstances. The intervention 
resulted in \1/3\ of students passing the test and increasing their 
scores by six points or mores versus a comparison group with a pass 
rate of 19 percent and decline of one point.
    RISD completed the second year of the program in 2007, with four 
more junior highs participating in the middle school program and two 
9th grade Algebra pilots. The classes included struggling students, as 
well as those who were doing well in mathematics, including some Pre-AP 
students. 46% of the students who did not pass the state test last year 
successfully passed the 2007 TAKS and this represents an improvement 
when compared to last year's 33% pass rate, as well as a gain when 
compared to the comparison group. In addition, students in the program 
who were above the cut score improved their achievement when compared 
to the comparison group. 57% of MathForward, students participating in 
the 9th grade Algebra pilot who failed the state test in 2006, attained 
proficiency in 2007. By contrast, the comparison group had a 34% pass 
rate, suggesting that MathForward can be successfully extended from 
Pre-Algebra to Algebra.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As I mentioned earlier, in RISD, the program also has proven 
effective in closing the achievement gap for African American, 
Hispanic, and economically disadvantaged students. Detailed figures are 
illustrated below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    TI has rolled out additional sites, including districts in Dallas, 
Ohio, and Florida. In Ohio, the 2007 pass rate of students who were not 
proficient in 2006 and who were in MathForward was 45%, while the 
similar comparison group's 2007 pass rate was 29%. In Florida, the 
program resulted in a 50% pass rate versus just under 40% for the 
control group. In Dallas, mixed results occurred due to structural 
problems with two incomplete implementations that are currently being 
reviewed. TI has also launched additional new pilots in Texas, 
California, and New York.
    In expanding MathForward, TI is focused on scalability to 
additional schools, sustainability within the teaching staff, 
completeness of how the eight components of the intervention join 
synergistically to make a coherent and complete whole, and learning 
through continued research. MathForward is a model of how companies and 
districts can collaborate to improve student achievement in the 
critical pre-algebra and algebra concepts.
Recommended next steps in STEM education
    For our nation's continued economic competitiveness, it is critical 
that business and government join together to address the challenges 
around STEM education. Our country has real national challenges that 
will need to be solved through science and engineering such as energy, 
medical, security and infrastructure.
    In 2005, the Tapping America Potential (TAP) coalition of 16 
business organizations led by Business Roundtable, joined together to 
advocate for renewed attention to U.S. competitiveness and America's 
capacity to innovate. TAP established an overarching goal to double the 
number of U.S. science, technology, engineering and mathematics (STEM) 
graduates with bachelor's degrees by 2015. TAP's recommendations for 
achieving that goal included improving STEM education, increased 
federal funding for basic research, and reforming U.S. visa policies to 
welcome the best and brightest. Among the K-12 STEM education 
recommendations were improved teaching capacity and a concentrated 
focus on middle school math.
    Last week, TAP released an update report entitled Gaining Momentum, 
Losing Ground which found that while the issue of U.S. innovation has 
received increased attention in Congress and AmericaCOMPETES became 
law, generally increased appropriations for basic research and math and 
science education have not followed.
    TAP supports full funding for several key federal STEM programs, 
including: MathNow, Math/Science Partnerships (MSPs) at the Department 
of Education and augmenting the MSPs at the National Science 
Foundation, AP/IB incentives, Noyce scholarships at NSF to encourage 
undergraduate STEM majors to enter teaching, and the NSF's Science, 
Technology, Engineering, and Math Talent Expansion Program (STEP). TI 
concurs with these recommendations as addressing essential STEM 
education needs.
    MathNow was authorized in AmericaCOMPETES at $95 million and 
requested in FY 2008 at $125 million by the Administration, but 
received no funding through appropriations. The AP Incentive Program 
was authorized at $74 million in AmericaCOMPETES, requested at $122 
million by the Administration in FY 2008, but received only $44 million 
in final appropriations. AmericaCOMPETES authorized $896 million for 
the NSF's Education and Human Resources Activities (including MSPs, 
Noyce, and STEP), but FY2008 appropriations provided $726 million.
    The Academic Competitiveness Council Report examining $3.12 billion 
in federal STEM programs found that $574 million, or 18.4% of the funds 
were directed at K-12 level and only 1% (just over $30 million) were 
programs specifically focused on K-12 Math. Additional resources must 
be focused on the math literacy required for U.S. workers in today's 
global economy.
    TI urges Congress to fulfill the promise of America COMPETES by 
providing key funding for STEM education, particularly targeted to 
algebra and algebra readiness. Algebra is the lynchpin not only for the 
STEM fields, but success in entering and completing college and in 
preparation for 21st century jobs at all levels.
    TI also encourages Congress to reauthorize No Child Left Behind, 
while protecting the integrity of the original law--with high 
standards, assessments aligned to those standards, greater 
accountability and highly qualified teachers as the formula for 
continuing to drive improvement.
    While sufficient funding of STEM programs is critical, there are 
other elements to consider. Programs in the K-12 STEM area should 
contribute positively to student achievement and the goals of NCLB. It 
is not enough just to stimulate student interest in science without 
developing the essential skills, specifically the foundations of 
algebra and beyond, needed to enter STEM fields.
    In TI's experience, the most effective public/private STEM 
education partnerships meet the following criteria:
    1. Program supports and/or builds upon state standards in 
mathematics and/or science. Efforts that do not support or enhance 
state standards can be a distraction to schools trying to comply with 
NCLB, particularly in low performing schools.
    2. Professional development programs should tie into the NCLB 
requirement ensuring that teachers are highly qualified. Study after 
study demonstrates that teacher quality is a key determinant of student 
success.
    3. Program is replicable and identifies the key elements for 
successful implementation.
    4. Demonstrates some clear result, i.e., increased test scores, 
students taking tougher courses, etc. Soft metrics on the number of 
``students touched'' or ``teachers given professional development'' are 
not sufficient.
    By focusing resources on programs that meet these objectives, the 
private sector, federal, state and local governments can work together 
to ensure that all U.S. students develop the stronger math and science 
skills required to succeed in the global economy today and in the 
future.
                                 ______
                                 
    Chairman Miller. Thank you very much. And thank you to all 
of you for your testimony. You have given us some wonderful 
examples of what we would like to achieve on a national level, 
and that is to grab these students and engage them for a 
lifetime of curiosity about math and science. Whether it leads 
to their profession or not is another issue. We would like to 
not have it be such a foreign topic and so easily dismissed 
when somebody admits, I can't do that or I don't do math. To 
change that concept.
    This is a question--sort of--for the three of you, Dr. 
Chang and to the Mickelsons here. You mentioned, Dr. Chang, 
when you went back to your district you realized, one teacher 
at a time, one student at a time, this wasn't going to work 
this way. I just wondered what the interaction has been between 
now you, with 4 years at the academy, and the academy when you 
talked about going back and are now working with other teachers 
to give them the benefits of those who went to the academy and 
developing curriculum and professional development and whether 
that is now--because we are always looking for replication and 
sort of that tipping point where we can get other people 
infected with the excitement and the competency--whether that 
has also changed how the academy looks at this, whether or not 
your teachers leave there with additional tools to work with 
others and their schools.
    Whoever wants to answer that, go ahead.
    Ms. Chang. Well, the opportunity to go back and to share 
something is not something we always get to do. And so when we 
go back as a group of 36 now and the previous 3 years of teams 
are waiting for us, they know that we are going to be bringing 
in some new ideas. What happens each year with the academy is 
as we are working on the projects through the year, the 
instructors are always refining and bringing in some new 
strategies, and we keep building on it.
    Our opportunity to be able to dialogue professionally with 
one another and share resources and ideas is probably the most 
powerful professional opportunity for educators everywhere, and 
having support from the Mickelsons, from all of the businesses 
that have supported us, to be able to do just that is really 
critical because our fundings are rather limited. And so to do 
what we need to do and sustain what we want to do with our 
children, we need that time together. And our teachers have 
taken it on.
    There was some reticence to begin, I must admit. But once 
they got involved and realized what they were getting from that 
experience, it was a much more powerful experience year after 
year.
    Mr. Mickelson. The selection process made by the district 
is geared towards trying to select teachers who are motivated 
and want to come back and inspire other teachers. So it is not 
just targeted at one teacher. We are hoping that in the 
selection process as well that we get the teachers that, again, 
are motivated, energetic and excited to come back and not only 
educate their kids but also to share these ideas with the 
teachers. And that is the way we can have the biggest impact as 
opposed to having it be so limited. This is our best way to get 
the outreach much more far-reaching.
    Chairman Miller. Thank you. Amy?
    Mrs. Amy Mickelson. We actually started something just this 
year new to kind of try to open it up to the masses and take it 
even another step past corporate America. And we have got a 
program going called sendmyteacher.com, where basically we are 
trying to market this program to have the masses nominate their 
teacher to actually be at our academy for next year.
    So this has been a great opportunity. We are hoping this 
catches momentum so that I think in that, in actual students 
nominating teachers or teachers nominating themselves, we are 
going to get the cream of the crop, the most motivated 
individuals to come and just make their skills--hone their 
skills even better.
    Chairman Miller. Would you include sendmycongressman.com or 
something? We could work on that.
    Dr. Ride, I know you have to leave. But Ms. Lovett in her 
testimony points out in the program that she is working on in 
Dallas, or the TI employees are, that if the young women do 
take the AP courses, they are passing AP in mathematics at the 
same rate as young men. So it is not a lack of talent here. If 
you just wanted to comment. To get them engaged--the Mickelsons 
are working with the third, fourth and fifth grade--how do we 
keep them engaged so that they will participate in the AP 
courses in math and physics and sciences?
    Ms. Ride. Absolutely I would be happy to comment on that. I 
think that if we lose them in middle school we are not going to 
get them back. So it is very critical to apply these programs 
in middle school and in high school, and what we see is--and it 
is illustrated really well by the TI program and the data that 
they have got--that if you encourage these girls--and the TI 
program, parts of the program that I am familiar with, they 
actually have a program that encourages girls to take AP 
physics and pass AP physics--they pass AP physics now in the 
numbers that boys do in the places that they have tried it. And 
one of the things that they implemented--pardon me for speaking 
for your program.
    Ms. Lovett. Go ahead.
    Mr. Ride. But it is actually something that we use as well 
and we feel very strongly about it. One of the things that they 
have implemented is actually teacher training to educate the 
teachers about the potential that girls have. A lot of the 
teachers don't have the background in science and math. But 
they also may come with sort of implicit biases that they don't 
know they have, that the culture has imposed on them, that 
makes them think that it is maybe not as important for girls to 
be good in math or that maybe girls naturally aren't as good in 
math or that science isn't as important or that they just don't 
have quite the same level of expectation for some of the girls 
in their class that they do for the boys. And this builds up 
over the years. And it is very important to train the teachers 
to let them know, number one, that girls should be expected to 
do well in math and in physics and in other subjects, and that 
there are strategies that you can use in your classroom to help 
engage the girls and encourage them and bring out the best 
efforts in them.
    Chairman Miller. Thank you.
    Ms. Chang, one of the things the Math Panel told us was we 
don't do a very good job as a nation--or certainly when we look 
at other nations--at presenting this in a coherent fashion in 
the early grades in mathematics, that we kind of--it is sort of 
slap dash over several grades instead of building a foundation. 
I just wondered if the academy, in your work, do you think you 
are presenting a more coherent and a comprehensive program in 
math to young students?
    Ms. Chang. Well, I think the academy provides the teachers 
with the pedagogy that is needed to put together a quality 
instructional program. So it is critical then to marry the 
pedagogy then with the content and bring the program together. 
The articulation that the teachers have through the grades, 
starting probably at pre-kindergarten all the way through to 
high school, would then create that opportunity for a cohesive 
program.
    So our communication needs to go over several levels, 
elementary through middle and high, and continuously 
dialoguing. There needs to be an understanding of what is 
happening all around you on one side or the other of each grade 
level and then we are able to have that continuity.
    Chairman Miller. Thank you. My time has expired. I want to 
recognize Mr. McKeon. But again we have two witnesses, and I 
don't know if you want to ask Tom a question or Ms. Ride. If I 
do this to every panel member, you will be here until 6:00 
tonight.
    You are excused if you want to leave.
    Ms. Ride. I will wait. Thank you.
    Chairman Miller. We have an ongoing conversation all the 
time about this. We have great bipartisan support for the 
COMPETES Act. We have got to get both ends of the Avenue 
together here. The Congress has voted for this overwhelmingly. 
We think it is important to the future of everything that is 
being talked about here and finally a recognition at the 
national level about the importance of the STEM education. I am 
sure Mr. Holt will go on about that.
    Mr. McKeon. Thank you, both of you, for coming and 
testifying. I know you have a flight problem.
    Thank you, Mr. Chairman. Thank you for having this hearing. 
I think this has been extremely interesting. And it is, as the 
chairman mentioned, this is a bipartisan issue. This isn't 
something that is like most of the issues that come before this 
committee. It is something we are all extremely interested in.
    A couple of years ago I took a trip to China and some of 
our other Members attended that. It was something that business 
people have been telling me for years that we had to do. You 
have got to go over there and see what is happening. And it was 
a great trip. We visited with industry leaders, educational 
leaders, visited some of their schools, some of their students. 
And there seemed to be a broad consensus with all the people we 
talked to over there that their students did better in math and 
science and our students do better in social skills and 
entrepreneurship. And I told them, they will never be able to 
beat us in that because of their one-child system, because most 
of those entrepreneurial competitive skills we learn fighting 
with our brothers and sisters before we ever get to school.
    But one of the things that I really noticed a difference in 
is that their universities, almost all of the presidents--I 
can't think of an exception--that we met with were engineers. 
And if you meet with our university leaders, they are generally 
from liberal arts or they are fundraisers or, you know, it is a 
totally different system.
    And one of our greatest strengths I think is represented 
right here, all of you coming from different--similar 
backgrounds but different backgrounds but all involved in doing 
something to improve our competitiveness. You are doing things 
to inspire and teach and motivate our young people into a field 
that is very necessary for our country. That is one of our 
strengths, is our individualness and ability to do that.
    It is also a weakness, when you compare it to a system like 
China where one or two people at the top can say this is what 
we are going to do and this is how we are going to do it. And 
then it is done kind of throughout the country. And we have 50 
States. Each State has their own educational system. They set 
their own curriculum. And then we at the Federal Government try 
to pass legislation that we think will help. But we have come 
from the direction of those who need the help the most, the 
underprivileged. That has been mostly where the Federal effort 
has been directed towards and the funding.
    Now we do have a lot of STEM programs. We have a lot of 
money that is provided to these programs because we see it as a 
national priority. It is a real need. But we don't seem to have 
a cohesiveness in the direction that these are running.
    When President Kennedy--when the Russians put up Sputnik 
and he said, we are going to go to the Moon, you know, a lot of 
people said that couldn't happen. And fortunately people did 
pull together and accepted that challenge and rose to the 
occasion.
    What is going to be the challenge that will excite our 
young people? I mean, I have some ideas. What ideas do you 
have? Something has to strike these young people, catch their 
imagination and move them into this area. Right now, you know, 
a lot of them I talk to, they want to be professional athletes. 
They watch Phil on TV and say, wow. He could tell you how hard 
that is. But how are we going to excite the young people? What 
do you think will be something that will strike their 
imagination, get them to want to go into these programs?
    Mr. Luce. Congressman, I think we have approached that 
subject in various ways, all of us. And of course part of that 
is raising that excitement and curiosity when they are young 
enough to grab hold of the dream. Often if we wait too long, it 
is just too late. And I would also comment on your previous 
comment about the diversification of our country. And it is one 
of our strengths.
    But notwithstanding that, we had on a voluntary basis, we 
had 52 universities apply to replicate one program of another 
university. And if I might say so, Mr. Chairman, I never 
expected Cal Berkeley to apply to replicate somebody else's 
program. But that occurred. And I think it is because there is 
rising sentiment. There has been so much attention brought to 
the subject by you all that what I fear is that this tide is 
building up and if we don't respond soon with some coherent 
direction of pointing people to some particular programs, that 
we are going to go through another cycle of pilot programs.
    And I would just point out that we had 28 States, 52 
universities. I mean that is a tremendous start of people 
saying, regardless of local standards, regardless of State 
differential standards, we all know we have to do this.
    Mr. McKeon. I think that is great, 52 out of thousands of 
universities. I am talking about, to reach down to the children 
themselves, what is going to motivate them to get into these 
programs? What you are talking about is good and it will train 
teachers, once the kids come. But what will excite the kids?
    Ms. Lovett. I would offer that it is great teachers who 
translate the needs of our world into exciting challenges for 
students, making the world greener, safer, healthier, more fun, 
students can definitely get engaged in and oriented around 
those topics. And we see technology in the classroom. 
Minimizing discipline problems and helping teachers with 
classroom management and having students spend more of their 
time on math. In fact at one middle school campus in Canton, 
Ohio, for the first time ever, math class beat out recess as 
the favorite class at the school.
    So I have been in many classrooms and seen great teachers 
take relevant content of today and help students learn great 
math and science from it.
    Mrs. Amy Mickelson. I would like to add to that because I 
think if we can make science and math like recess and I think 
bring science to life and focus more on things like we are 
doing at the academy, making science fun, making science not 
intimidating and making science like recess, everyone's 
favorite topic, instead of worksheets and instead of handbooks. 
But I think the problem is that teachers are teaching multiple 
subjects and it is hard to find a way to make that happen and 
still excite the children.
    Mr. Mickelson. I don't think there will ever be a Sputnik 
per se. I don't think we will have one instance that is going 
to inspire our kids immediately to go into the math and science 
fields. I think what will happen is over time we are going to 
end up having companies move their headquarters to other 
countries so that they can supply these engineering and 
mathematics and computing jobs elsewhere because we are not 
creating enough students to fulfill those. So the companies are 
going to have to move elsewhere. This will create one of those 
steps. As people aren't able to find well-paying jobs, as those 
jobs are going overseas and they are increasingly for fewer 
dollars, that will end up affecting us indirectly over a long 
period of time.
    And so I don't think there is going to be one instance 
like, oh, my goodness, Russia just put up Sputnik, it is 
orbiting the Earth. We have got to get on this. Let's go to the 
Moon. It won't be like that, and that is why everybody here is 
trying to create a game plan and a model that will get us back 
on the right track so that over the next 15 years we are on the 
right direction and this long-term problem will be averted.
    Mr. Wells. As an engineer, there are many things that are 
still exciting out there in engineering. Alternate energy, 
robotics. I went to a robot competition. The kids were just 
wild about it. They are having a great time, highly motivated. 
There are many jobs--what we try and do with MathMovesU is try 
to bring those jobs to the students. Tell them, look, you could 
be doing those if you know your math and science. You could be 
designing the next hybrid automobile. You could be creating 
windmills or alternate energy. There are tremendous challenges 
out there. But I don't think the kids hear about them and they 
are not aware of them.
    Chairman Miller. Mr. Kildee.
    Mr. McKeon. Until you get those great teachers that teach 
them and motivate them.
    Mr. Wells. Yes.
    Mr. Kildee. Thank you, Mr. Chairman. To the Mickelsons and 
Dr. Chang and maybe you, Tom, also, the rest of you, why did 
the United States start our lack of growth or retrogression in 
science and math when, as you mentioned, Singapore and China 
began a quantum leap forward? What happened to us? Why did we 
start to lag behind those countries?
    Dr. Chang or the Mickelsons or Tom.
    Mr. Luce. Well, I think as several members of the committee 
have discussed, we have had a cultural problem in the past 20 
years or so where--I think you referred to it, Mr. Chairman--
seemingly it is okay to say I can't balance my checkbook, 
whereas nobody would say I can't read. And so I think part of 
it is cultural. But you know the Chinese, to use an example, I 
met with the Chinese Minister of Education when he was here and 
he very politely said ``oh, we have much to learn from you. You 
know, we have to learn creativity from you.'' Then he said, 
``and of course we think you need to learn more basics from 
us.'' And he said, ``we know what we don't know.'' I think he 
was very nicely saying, we don't know what we don't know. And I 
think we have lived off of the fruits of the generation of the 
defense expenditures, the Sputnik generation, the later 
generations. And we have got, I think, as the Exxon-Mobil ads 
are doing, we have got to start explaining to kids. One great 
opportunity is our kids are great consumers of technology. And 
if we never--you know, eventually they are going to have to say 
to themselves, we can't just eat the egg sandwich. We have to 
learn where the eggs come from. Maybe that is a way to grab 
them. If we can talk to them about you have to know math to 
make a video game.
    So we have to bring in the youngsters and say, you want to 
cure cancer, you want to deal with the global climate, you want 
to deal with energy security, you want to deal with these 
issues, this is the way it is going to happen.
    Mr. Kildee. It is not just enough to say it is just 
cultural problems. We have to address those then if we are 
going to address the problems in science and math.
    Mr. Luce. And part of that you think very clearly is we 
have to provide more help for our teachers in terms of this 
content knowledge, which for so long we have not offered our 
teachers. The uniqueness of the You Teach Program is the 
pedagogy is actually how do you teach math and science. Two-
thirds of the pedagogy courses are in how do you teach math and 
science. And so that is a great step forward. But there is not 
going to be a gigantic leap here. So that is why we have to 
start taking the scale programs.
    Mr. Kildee. Dr. Chang or Mickelsons, do you have anything 
to add to that?
    Mr. Mickelson. I don't know if anybody can really identify 
one single reason as to why there has been this shift in the 
decline in math and science, say, in the United States as 
opposed to the increase in other countries. I don't know if 
there is one specific area. And certainly the culture is part 
of it. We won the race. I mean, we won the race to space. And 
so there is no longer that sense of urgency that we had with 
the Sputnik and with going to the Moon. And so we have tailed 
off our interests. And what we are trying to do is reignite 
that interest in the math and sciences.
    One of the things I think is really cool is what NASA is 
doing right now with trying to set up a lunar hub and trying to 
get to Mars and terraform Mars. Some of the stuff is very 
exciting. The message doesn't get out to kids. It is not talked 
about. And so I have to actively search for it to be able to 
discuss it with them. And now they are interested in it. Some 
of the great things that we are doing as a country that are 
exciting stuff technology-wise, looking for innovative new 
energy. I know Exxon-Mobil leads the way in trying to find 
alternative fuels. What we are doing with our space program is 
so exciting. But the word isn't quite getting out. And I think 
that having the word out to young kids can kind of reignite 
that passion that we, a lot of Americans, had when the Russians 
sent up Sputnik.
    And so I think that is one of the things that can help 
reignite the interest in it. But also what we are trying to do 
is give the teachers now the tools to reignite that passion as 
well in their students.
    So I don't know if there is one direct answer for your 
question. But the solution we believe is, again, to get that 
passion back.
    Mr. Kildee. Anyone else want to comment on that?
    Ms. Lovett. Well, I would comment that a major contributor 
to the gap that is causing the U.S. to fall behind is that 
other growing economies, such as India and China, have put this 
at the top of their set of priorities because they see the 
connection between growing the innovative talent in their 
countries and growing their economies.
    So it is not only that the U.S. has fallen behind. It is 
also that the world has become more globally competitive, and 
these countries have put it at the top of their priority agenda 
in order to fuel their growing economies.
    Mr. Kildee. Thank you. Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thanks to the really 
distinguished panel. And Mr. Chairman, I know this was a 
scheduling difficulty. But what a shame that we had to have a 
hearing on a day when so many of our colleagues are trying to 
come back. This is an extraordinary, extraordinary panel.
    Ms. Sullivan, for some time I have thought that we ought to 
look for more ways to get mathematicians who are already 
excited, scientists who are already excited and already in the 
field to move to teaching. Our approach in this country for a 
number of years is to graduate teachers and then hope that we 
can find some way to get them excited in math and science. And 
so I was really interested in your transition in the teaching 
program, the second career.
    How many IBMers would you say are doing that?
    Ms. Sullivan. We have 100 IBMers who have gone into the 
program in the last 2 years, which recognizing it is a small 
number next to a shortfall of, I think, 250,000 teachers in 
this area, but most of them have gone into the areas of science 
and math and technology, coming from the area of their 
expertise.
    Mr. Kline. And do you know of other companies that are 
doing the same thing?
    Ms. Sullivan. We are working with other companies to 
encourage similar programs. We actually have coannounced a 
program, the Encore Program with the State of California to 
encourage return to teaching for retirees. And so we are very 
much in those conversations with other corporations to 
encourage that.
    Mr. Kline. Well, I hope that other corporations will join 
you and that the various States will make that transition as 
easy as possible. I know from my own experience that when you 
sort of graduate from one career and think about going into 
teaching it is sometimes very difficult to make that step. 
There are a lot of licensing requirements and so forth. And I 
suppose some of that is probably necessary. But what a shame 
that we would keep people who already had successful careers, 
already knowledgeable in science and engineering, mathematics, 
it would be great for them to come and share not only their 
knowledge but their passion for those subjects to our students.
    And then, Mr. Mickelson--I am saying Mr. Mickelson. You are 
a witness and we, all of us, who have spent our Saturday and 
Sunday afternoons are used to you being referred to as Phil. 
But because we have spent perhaps too many of our Saturday and 
Sunday afternoons watching you instead of exercising ourselves, 
we have had a chance to see that video that we saw here. And I, 
like I am sure all of my colleagues here and the people sitting 
out here, were struck by it. It is a fantastic video. I don't 
know whether to call it an ad or not. But it is just striking. 
It is very, very well done. And I would hope that that kind of 
ad, that there could be more of those. If that doesn't strike 
some interest on the part of adults and students, I don't know 
what would. But because you have said, and because the video 
points out that Exxon-Mobil is an integral part of your 
partnership, I wonder if you could just tell us, what is that 
partnership? What is Exxon's role in this? How does that work?
    Mr. Mickelson. We have used the Exxon-Mobil Foundation, 
created a partnership in which both Amy and I and Exxon-Mobil 
fund, and created the math and science teachers academy. Their 
commitment to education is why this was a good fit. And we, 
again, just developed this jointly. Truman Bell is the head of 
the foundation. He runs the academy, organizes it. We have used 
Weber Shandwick to help organize the details. We have used 
National Science Teachers Association and Math Solutions to 
help get not only the curriculum but the staff to create the 
educating process. And so it has been a combination of a lot of 
people, but really the organization came about through the 
Exxon-Mobil Foundation.
    Mr. Kline. Well, it is terrific. And whether that is an ad 
or a promo, I am not sure what that video is, but I think it is 
highly effective.
    Mr. Mickelson. Thank you.
    Mr. Kline. So I thank you and commend you and Exxon-Mobil. 
And as we were mentioning before the hearing, just a plug for 
the PGA, but the work that the PGA is doing in charitable work 
is, again, just astonishing and the amount of money and the 
diversity that they have gone to.
    So thanks for all of your work, and thanks to all of the 
panelists. It really is an extraordinary panel. And thanks 
again, Mr. Chairman. I yield back.
    Chairman Miller. Thank you. Just a notice for the members, 
the reason this hearing is today is that it is one of Mr. 
Mickelson's off days. He doesn't get many days off. But he was 
nice enough to make an effort to fly here to be with us today. 
So there was no other time available. So we want to thank him 
for that.
    Mr. Kline. That is reason enough, Mr. Chairman. Thank you.
    Mr. Yarmuth. Thank you, Mr. Chairman. I would also like to 
commend all the witnesses and thank you all for being here.
    Ms. Lovett, you talked about the importance of technology 
in science and math instruction. And I am going to use this to 
plug a provision in a bill that I was able to introduce and it 
has now passed in the Higher Education Act, if we can get it 
passed through in conference.
    But it created something called the National Center for 
Learning Science and Technology, and the idea is to create sort 
of the National Science Foundation for learning sciences so 
that we can have an entity that assembles all the best 
information and does research about the best technologies, 
using the best technologies to educate people.
    So my question related to that is, we talk about the 
pedagogy that has already been developed. I would assume that 
this is a continuously evolving process, as they find new 
techniques and new strategies occur. How much do you think 
technology is going to play a role in the evolving pedagogy for 
teaching science and math?
    Ms. Lovett. I believe technology can be a very key enabler 
of getting that student engagement and of giving teachers a 
broad range of tools to use in the classroom. Boys learn 
differently than girls. Different students are at different 
places in their learning. And I think technology can play a 
very key role in giving teachers information about where their 
students are in their learning, giving feedback to teachers so 
that they can make their decisions based on where each student 
is in their learning.
    You make reference to a number of organizations and 
universities that have a wealth of information about best 
practices in math, science and technology education. And those 
research bases are evolving. However, I will say that there is 
still far too little true effectiveness research about what 
really works, and we are continuing to do our part to do 
effectiveness research and learn more what we can do to our own 
products to make them more effective in the classroom. But we 
certainly support the nonprofit and the universities joining us 
in that endeavor as well.
    Mr. Yarmuth. And anybody can take a shot at this. But I 
think Mr. Luce has been talking about it to a certain extent. 
The whole idea that in some other countries there is a vast 
difference in terms of the emphasis on science and math and the 
proficiency of apparently the instruction. How much of this do 
you think deals with expectations of students and the idea in 
some cultures that it is much more of a managed society, that 
you are basically told you don't have an option of whether to 
learn math or science, you have to learn math or science. In 
China you have to take 6 years of English. And we don't have 
that same type of compulsory emphasis. Is that a factor, do you 
think?
    Mr. Luce. I doubt we would move to compulsory courses any 
time soon. But I think one interesting thing of the power of 
the advanced placement incentive programs in high school is 
that what the data is showing in all these schools we are in is 
that oftentimes our expectations of students are very low and 
we don't give them the opportunity to achieve. So what you saw 
on those numbers was, despite all of the problems in elementary 
school, all the problems in middle school, we still can 
quadruple the number of students taking and passing AP math and 
science courses. Only by starting a program in high school--
would I like to drive it down to 3-year-olds? Absolutely. But 
it is not fair to say we are going to write off another 
generation. And these programs are increasing enrollment 600 
percent simply because we are giving the schools the incentives 
to offer those courses where they are not today being offered. 
And that is a matter of equity as well as excellence.
    Mr. Yarmuth. I have to use this opportunity to plug my 
hometown, the fact that we have the Ryder Cup coming to 
Louisville next month. And Phil, we are looking forward to 
having you there and Amy as well.
    Mrs. Amy Mickelson. Thank you.
    Mr. Yarmuth. You talked in your testimony about--it was in 
your written statement about how you use science and math every 
day in your golf game. Could you elaborate on that a little 
bit?
    Mr. Mickelson. I can tell that you are looking for a few 
pointers.
    Mr. Yarmuth. Always.
    Chairman Miller. He agreed to testify, not run a clinic.
    Mrs. Amy Mickelson. Did you bring your putter?
    Mr. Yarmuth. I want the flop shot.
    Mr. Mickelson. There is two big ways. One is the 
technology, the equipment itself, whether it is moment of 
inertia, head weight, center of gravity, launch conditions, 
spin rate. We use a lot of that technology at the test center 
where I practice. That is one way we are getting the clubs 
refined to maximize performance.
    But the other way that I use statistics and math is to help 
me identify where to practice and how to maximize my practice. 
And the best example I can give is, as we use--I use a 3-foot 
drill where I hit 3-foot putts. And I can make 100 percent, 
let's say, of 3-foot putts. But my percentage of misses is not 
linear, meaning if I go to 4 feet it doesn't fall off linearly. 
It falls off exponentially.
    So what this tells me is if I move from 3 feet to 4 feet, 
that one foot, I drop from 100 percent to 88 percent; if I go 
from 4 to 5 feet, I go from 88 percent to 78 percent; and if I 
go from 5 to 6, it goes down to 65 percent.
    Now what this, again, tells me is, when I am hitting a 200-
yard shot and the best player on tour hits a 5-iron from 200 
yards to 35 feet, and the worst is 50 feet, the difference in 
that 15 feet of putts made is 1 percent. So it is a waste of 
time. I am not maximizing my time if I am hitting 200-yard 
shots. But if I can hit chip shots and get inside that 3-foot 
circle, I can maximize my scores, lower my scores. And so I 
maximize my practice by using these statistics to identify 
where to spend most of my time.
    Mr. Yarmuth. That is very helpful, isn't it, Mr. Miller?
    Chairman Miller. Well, we will have recess for 20 minutes 
here. All the boys will go out and see what they can do with 
this.
    Mrs. Biggert, bring us back here.
    Mrs. Biggert. Thank you, Mr. Chairman. I will try.
    You know, we are involved in reauthorizing No Child Left 
Behind. And one of the things that I do, and we all have the--
the fun thing is going back to our district and going to 
businesses, like I will go to one that is planning on working 
with NASA to put a station on the Moon and then send back 
something like a microwave to use as electricity.
    So these are all minds that are working on all the problems 
that we have. And I think that is why we need to have so many 
of our young people getting involved. And I have gone into the 
classes from kindergarten through college. But the fun time is 
to go from like fifth, sixth, seventh and eighth. And I have to 
agree with you that talking to fifth graders who are engaged in 
all kinds of activities, they get to seventh and eighth grade--
particularly the young women are saying I can't do math. They 
had that mindset. But I think it is changing. And I think they 
are seeing a lot of role models of women who are astronauts and 
whoever are doing things that really involve the engineering 
and involve the math skills. But it still worries me. And I 
know there has been some studies that women learn differently 
than men. And there has been some things--like I think AAUW did 
a study on whether they should segregate their classrooms. But 
I think everybody learns differently, so you have to have a 
teacher who has the ability to work with all the students.
    But getting back to the No Child Left Behind. And some of 
the things that we have discovered in talking to teachers, and 
it troubles me, is that they are teaching to the test. And they 
said it has taken away so much creativity in the time that they 
have I think really to create the excitement. And they are 
bothered--they are frustrated with that. And now we are going 
to be testing the science as well, is supposed to be coming up 
this year. And I worry about that. And I see the excitement 
when you have celebrities that are touting the math and the 
science and when you have the teachers that are excited about 
it. But I wondered if any of you have any ideas in how we can 
overcome that teaching to the test so that it is not--they are 
so upset about it that they focus in on that instead of the 
level of really learning that the kids have.
    Ms. Lovett.
    Ms. Lovett. It certainly is a worry. In the reauthorization 
of No Child Left Behind we support keeping the accountability 
there and keeping the rigor there. We also would like to see 
more college and workplace readiness and more STEM emphasis in 
the reauthorization. And the concern about teaching to the 
test, you know, I have seen wonderful examples where principals 
of the school and local leadership in education really lead the 
way in implementing No Child Left Behind in a way that 
accomplishes its missions without the negatives. And so I think 
educational leadership is really important. And looking at that 
educational system as a system, that there is not just one 
component that needs to be impacted in order to change student 
achievement. But teachers need to maybe spend more time with 
the kids in math and science, maybe they need more professional 
development, perhaps they need better content knowledge around 
their content or better training in how to make data-driven 
decisions.
    So those are some of the things that we have seen make a 
difference.
    Mrs. Biggert. Anyone else?
    Mrs. Amy Mickelson. We have 93 percent of teachers grades 
five through nine are not credentialed in the area of science. 
And I know as a teacher that would obviously be very 
intimidating to teach that subject without a credential. So 
maybe reexamining having some incentives for teachers to get 
their teaching degrees in the STEM programs because I think if 
they are credentialed and have those degrees, their passion 
will come through to the students instead of them teaching 
multiple subjects and, like she said, having to go teaching to 
the test because that is what their handbook offers them.
    Mrs. Biggert. Doctor?
    Mr. Parravano. I think teaching to the test is not a bad 
thing if the test really measures what we value in education. 
And unfortunately I don't think that most tests do right now. 
One of the things that we have been talking about for the last 
few minutes has to do with student motivation. And I think one 
of the dangers with a test that we currently have is that they 
really emphasize rote learning. They do not emphasize the kind 
of enthusiasm that we have talked about when we see our 
students really excited about science.
    So at its very heart it is very difficult, and it is very 
expensive to test for some of these qualities that we think are 
so important in the practice of science. So it is difficult to 
test for whether students do inquiry well, whether they can 
actually apply their knowledge.
    A while ago I asked a well-known scientist how he would 
measure success for our program. And I thought that he was 
going to say, well, we would like to see students increase 
their scores on the State test by a certain number of points. 
He didn't. He said, Carlo, I would like to see them ask better 
questions.
    That is a very difficult thing to test for, but I think 
this is one of the areas that Congress could play a leadership 
role, perhaps as part of NCLB, is to really invest so that we 
have perhaps a pool of very, very good high, quality assessment 
items that we can all use, that we can all share that really 
drive teaching, that support teaching science in a way that we 
think is really very critical and is very important and very 
effective.
    Mrs. Biggert. Thank you. Thank you for all your insights. I 
yield back.
    Chairman Miller. Thank you.
    Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. And thank you, Dr. 
Parravano, for that last point. I would like to pursue that. It 
is often overlooked and the most important point made yet 
today, I think.
    I am a product of the Sputnik generation, a scientist by 
training. And at that time, now nearly 50 years ago, we said we 
would produce the--it is 50 years ago, sorry--that we would 
produce a generation of scientists and engineers like the world 
had never seen, and we did. And we left behind about 80 percent 
of the population. We established and reinforced the idea that 
science is for scientists. And today even, part of the 
discussion is, well, how we are going to generate a pool of the 
next scientists and mathematicians and how many of the students 
of your programs are going to major in science?
    Yes, that is important. But I am much more concerned about 
the other 80 or 90 percent of the population being able to 
think critically so that they can ask questions so that those 
questions can be answered empirically and verifiably.
    Here in this committee we often judge the success of the 
science education programs by, well, what does it do for 
science majors or producing scientists in the profession, 
rather than asking whether consumers are able to determine 
whether new and improved products really are, or whether 
homeowners have an idea that it is--no, it is not a good idea 
to mix bleach and ammonia to clean their kitchen. Or 
intelligence photo analysts who don't imagine that there are 
weapons of mass destruction when there isn't evidence for 
weapons of mass destruction. Or confuse aerial photos of dust 
suppression water trucks for chemical weapons plants. Or 
Members of Congress, you know, who can figure or maybe can't 
figure whether issuing new oil leases will bring down prices at 
the gasoline pump any time soon.
    And so this gets at this question of assessment of how we 
know whether we are developing critical thinking. And one of 
the questions I would ask for, I guess all of these corporate-
sponsored programs is, do the corporate sponsors understand 
this? Or are they just looking for their next generation of 
scientists and engineers? And do they ask you to develop 
metrics to measure that?
    Let me start with Dr. Parravano since you raised the point, 
and then I would like to turn to Mr. Luce and the others.
    Mr. Parravano. Sure. I think one of the first points that I 
would like to make is that along with establishing the 
institute in 1993, Merck made a very large shift in its focus 
and its education efforts. Where previously education efforts 
were really focused on graduate and postdoctoral studies, there 
was a realization, as has been mentioned by other panel 
members, that if we are really concerned about our next 
generation of scientists, we really do have to start to be far 
more concerned about the quality of education at the high 
school and at the elementary level. So we decided to focus our 
resources on the elementary level. But in addition to that, we 
also moved away from focusing on that 5 or 10 percent of 
students who are going to go on and work at a science-rich 
organization like Merck. We really felt that a strong science 
education was something that could benefit every citizen.
    And Congressman, you referred to critical thinking skills. 
Well, I think science is uniquely positioned to develop habits 
of mind, is sometimes what we refer to those as. And these 
habits of mind, among them are looking at evidence, critically 
thinking about evidence, looking at data with a certain amount 
of skepticism, asking good questions. These are all things that 
we believe a good strong science education can instill in an 
individual.
    Mr. Holt. Let me interrupt in just the remaining few 
questions to ask Mr. Luce to comment on that point. Thank you.
    Mr. Luce. Well, I certainly agree that we need a nexus on 
critical thinking. I do think you have to learn some basics as 
the basis upon which to build critical thinking. But second of 
all, I feel very strongly, as does our donors, that the new 
literacy in the 21st century is math and science. And it is not 
just for engineers and scientists. It is to build a society 
that can deal with the technology age in which we live.
    So I think this is an issue that cuts across all 
occupations, all citizens of our democracy. Robert Moses, a 
prominent civil rights leader, says algebra is the new civil 
right of the African American community in the 21st century. So 
this is about Nobel Prize winners, but it is also about 
citizens in a democracy and in the Information Age.
    Mr. Mickelson. Do you mind if I say something real quick on 
that, too? First of all, it is important that we have a way 
to--well, it is important that these jobs that are coming open 
through corporate America get filled. And I would prefer them 
get filled by us, even if that is a small percentage. But you 
are missing the point that in everyday jobs, such as a 
mechanic, has evolved and changed from 10 or 15 years ago. It 
is no longer about the carburetor and the transmission. He now 
has to be a computer expert to deal with today's automobiles. 
And so the everyday job has changed the education, and science 
and math is evolving and changing and increasing for these 
regular jobs that--you know again, as our technology has moved 
on.
    And I also want to say that I understand there is a need, 
especially for Congress, let's say, or for somebody to have 
some type of metric system to quantify the value of what these 
decisions are affecting and who it is affecting and how much, 
how effective is it. But the fact is, is that it is going to be 
very difficult to come up with something quantitative here. It 
is going to be more of a long-term decision-making process. It 
is not going to be something that we are going to decide today, 
see the results tomorrow and be able to share with everybody. 
It is going to be something you have to believe deep in your 
heart that 15, 30 years from now to keep us as a global leader 
and a powerhouse that we have to trust our instincts that this 
is where we need to go.
    Mr. Holt. Thank you.
    Chairman Miller. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. Again I commend you 
for bringing such good panelists, as you have brought last week 
and again this week. I found each and every one of your 
presentations wonderful. I think that they are exciting, 
enlightening. And certainly I want to work with each one of you 
starting from California to Texas to New Jersey and to 
Massachusetts because all of you seem to really get it, that 
there is a lot of potential and that we just have not found a 
way to get the Federal Government to raise the investment in 
these programs that y'all have told us about.
    I am going to try to ask three questions quickly and so I 
ask for short answers because I want to give each--at least 
three of you--that opportunity. My first question is to Melendy 
Lovett, Texas Instruments. You are one of our great sponsors 
and companies that believe in the HESTEC model, Hispanic 
Engineering, Science, & Technology, and you recruit great 
engineers and other scientists down from the University of 
Texas in Edinburg. HESTEC brings STEM opportunities right into 
the heart of our community. And last year on the sixth 
anniversary we had 80,000 people who came onto the campus from 
Monday through Saturday, many parents, students, high school, 
middle school and college students. And it was amazing because 
Nancy Pelosi was one of the keynote speakers, and there were 
thousands of people there, especially for that presentation.
    Since HESTEC began, the university has seen a surge in its 
engineering enrollment, going from less than 700 students in 
2001 to nearly 1,000 students in 2007. Please tell us how can 
we help communities that have had little access to scientists 
and engineers build excitement about opportunities in the STEM 
field?
    Ms. Lovett. So Mr. Hinojosa, TI is proud to be one of the 
original sponsors of the HESTEC program, and we would hold it 
up as a model for what other communities can put together in 
terms of bringing business, government and education leaders 
together to really get the message out about the importance of 
STEM and to get the community, the parents and the children, 
excited about STEM opportunities.
    Mr. Hinojosa. Don't you think that when we brought--well, 
every year we brought the NASA astronauts, we brought robots, 
we brought lots of new things that get the students really 
excited and that gives us great participation?
    Tom Luce, you also are one of the great sponsors of HESTEC 
and you have been the sponsor for Wednesday's Program, of 
Latina Mothers and Daughters Day. Tell us a little bit about 
how you help prepare those teachers to deliver that content to 
learners with diverse needs, particularly English language 
learners who often do not get access to rigorous content in 
math and science, how to get mothers to see that their 
daughters have an opportunity to get into the STEM fields?
    Mr. Luce. Congressman, I think it purely starts from 
recognition unless we deal with the gender issues and racial 
and ethnic issues, which we have discussed here today in terms 
of the equity issues, unless we learn to speak to those, we 
cannot achieve the goals that we are all after, which is math 
and science literacy for everyone in the 21st century.
    So I think we are very focused on improving math and 
science education for the Latino community because simply the 
numbers will not work. You take the State of Texas, the Dallas 
Independent School District today, and the third grade is 80 
percent Latino. So we have to improve the performance of our 
Latino students and all our students in math and science 
education.
    Mr. Hinojosa. Don't you think it is exciting that we have 
gone from the first year with only about 20 percent girls 
participating in HESTEC to more than 60 percent now excited 
about STEM fields and coming to see what the opportunities are.
    Third one is to Dr. Carlo Parravano. I thought that your 
presentation was also excellent. And how do you address the 
science laboratory issue in the schools you work with, 
especially at the secondary school level? And I ask you that 
question because I work to include the partnerships for access 
to laboratory science program in the America COMPETES Act. And 
it passed and it is authorized. Now we need to get it funded. 
But tell us about that.
    Mr. Parravano. Well, I first want to applaud you for your 
efforts in that act. I think that the unfortunate thing is that 
all too often high school science courses are not taught with a 
strong laboratory component. And I think as a result of that, 
students really miss out on a very, very important part of the 
education system. And so I think what we have tried to do is to 
really work at the State--with the State legislature to try to 
encourage them to include appropriations so that high school 
laboratories can be brought up to date. Because in many, many 
of our high schools the equipment is in woeful condition, if 
there is any there. I think the laboratory experience has been 
left behind for far too many years. So we are also trying to 
have high schools share resources. We are also trying to use 
technology where appropriate so that students can get at least 
some semblance of a laboratory experience. But I think to push 
really, really hard on that laboratory act would be very, very 
important for Congress to do.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. This is a terrific 
panel. Thank you all for being here. I am actually going to 
spend most of my time now asking Ms. Sullivan questions because 
I am so fascinated by this transition program that you 
developed. And I worked for about 8 years in public education 
and spent a lot of time actually on trying to build this bridge 
in Maryland, and continue to be very interested in the subject.
    I was curious, how many--what are the numbers of people 
that have made the transition since you put the program 
formally in place?
    Ms. Sullivan. In the last just under 2 years there has been 
a hundred that have gone through the program.
    Mr. Sarbanes. Okay. And did you do a survey internally of 
the workforce to get a sense of how deep the interest might be 
in this kind of transition or do people just sort of come at 
you?
    Ms. Sullivan. There is quite a bit of promotion within IBM 
as part of our HR education and outreach program from our 
corporate community relations. So there is education at every 
level to employees of the program, what is available. It is 
promoted through our internal sites, internal Web site as well 
as there is education days that are provided where graduates of 
the programs can come in and speak about it, site activities 
that provide that kind of outreach in education to potential 
retirees, and individuals exiting the workforce from IBM.
    Mr. Sarbanes. Does the program begin for people before they 
retire?
    Ms. Sullivan. Yes.
    Mr. Sarbanes. Is there like a run-up to it?
    Ms. Sullivan. Exactly.
    Mr. Sarbanes. How does that work?
    Ms. Sullivan. So we provide a number of different 
activities prior to exiting the workforce at IBM, up to a year 
of a sabbatical to follow a course of education, a leave of 
absence. There are online mentoring programs and physical 
mentoring programs provided to individuals to help coach them 
through the process. We work with colleges of education to 
encourage them to have flexible programs for individuals.
    Mr. Sarbanes. How is that going?
    Ms. Sullivan. Fairly well. It is definitely, depending upon 
the locality, it is working better than in other areas. Where 
we have a strong presence and a high number of employees we 
have a stronger leverage with the colleges of education, and to 
encourage them to provide these kind of programs.
    Mr. Sarbanes. Are there other roles that the retirees are 
going to fill other than classroom teacher that they are 
finding their way to?
    Ms. Sullivan. We actually have just announced two other 
programs, a Transition to Public Service and Transition to 
Nonprofit. And so we have similar programs in place for those 
as well. Those have just recently been announced. Those are 
follow-on activities as part of the Transition to Teaching 
program that we see as very much successful, and expect further 
success from it.
    Mr. Sarbanes. Is there sort of early in the process, is 
there like a counseling opportunity for those who think they 
want to go in but maybe they haven't really thought it through? 
I mean are there stages that people go through and then maybe 
like an immersion?
    Ms. Sullivan. Absolutely. Initially it is online resources, 
electronic resources where people can research and look at 
interests. And then there are again, as I mentioned, the 
mentors and the connection points to individuals in those 
fields. And there are opportunities for apprenticeships and 
internships in those areas so they get a taste of what real 
life is there.
    Mr. Sarbanes. Have you had any colleges or universities 
actually create like satellite locations on IBM premises or is 
it all like online in terms of the run-up?
    Ms. Sullivan. Not to my knowledge as far as IBM locations.
    Mr. Sarbanes. Okay.
    Ms. Sullivan. But it definitely is online courses as well 
as on the physical campus.
    Mr. Sarbanes. And how many other businesses of the size and 
breadth of an IBM are you aware of that are doing similar 
things like this?
    Ms. Sullivan. We are encouraging many, but I am not aware 
of any that have formally adopted the program.
    Mr. Sarbanes. Do you see a value in creating like a 
consortium of businesses, particularly who have employees that 
fit the disciplines and the expertise that we are looking for 
in the STEM area, coming together and creating a kind of a 
clearinghouse opportunity to transition more people over?
    Ms. Sullivan. Absolutely. We would strongly encourage that 
dialogue between other corporations. And we have had some of 
them, but also nonprofits and the government to work together 
for more programs of this type.
    Mr. Sarbanes. Great. Thank you.
    Ms. Sullivan. Thank you.
    Chairman Miller. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And I apologize for 
being late. This is a fly-in day, and we don't always have 
control of our schedules that well. But I am just delighted to 
see this hearing take place, and I commend the chairman and 
ranking member for organizing it.
    I have been interested in STEM issues for years, some of 
you know that, starting in 1967, when I tried to develop new 
courses to teach future elementary school teachers how to teach 
science, and also to learn science. It is still a major 
problem. We have made some progress, but we have a lot to do 
yet.
    I have two questions I would like pose, and we will just go 
down the line. Your answers don't have to be lengthy, but just 
give me some indication of what you think. First of all, I am 
interested in young children. We have got an amendment on the--
oh, come on. Pardon? No, it wasn't No Child Left Behind. 
Anyway, we had a bill here this year, and it is just slipping 
my mind right now, but we got added on to that, this is for 
young children--Early Start, thank you again. Head Start. And 
that got me interested in what can we do with children at an 
early age to get them interested so they are prepped for this 
when they get to school? So I am interested in your idea on 
that. And secondly, if you were entitled to make one change to 
No Child Left Behind which would help STEM education, what 
would that change be? So you probably have been going left to 
right all day. Why don't we go right to left to give you a 
chance to start. Ms. Lovett?
    Ms. Lovett. So Congressman Ehlers, thank you very much for 
your leadership and for your support for STEM issues over the 
years. To your question about Head Start and early childhood 
education, to me the curriculum is key. And Texas Instruments 
has worked with SMU and with other partners in developing 
curriculum around reading. Another example, not in early 
childhood but in engineering, TI worked with SMU there in 
Dallas to develop Project Infinity, which is an engineering 
curriculum that is now in over 35 States and over 300 schools 
to take engineering education to the high school level. So I 
think curriculum--the Project Infinity curriculum starts with a 
cell phone or a music player and explains the engineering of 
those electronic devices in ways that kids can understand. The 
one change to NCLB would be to emphasize college and workplace 
readiness more in the reauthorization.
    Mr. Ehlers. Thank you. Mr. Wells?
    Mr. Wells. So as an engineer I am no expert in education, 
but what we have found as we have studied it is that more 
knowledge of elementary school teachers in math and science 
would definitely have a positive effect, and that anything we 
could do to improve their knowledge and expertise would be a 
good thing to include.
    Ms. Sullivan. At IBM we are very focused on the pre-K and 
early childhood education as it pertains to STEM education. We 
have initiated a program called Kid Smart that puts into 
preschools and many of the Head Start program locations 
technology that is accessible to pre-K age students that gives 
them an introduction and really helps to harness that natural 
curiosity. So I would encourage more of that, providing 
accessible technology at the early childhood level. And as far 
as No Child Left Behind, my recommendation would be to continue 
to focus on teacher professional development, teacher 
education, and providing them with the resources that they need 
to also be inspired and provide that inspiration to their 
students.
    Mr. Ehlers. Thank you.
    Mr. Parravano. In terms of early childhood, what I would 
think is that we consider the family as an important unit at 
that point in that child's life. And so that we really try to 
encourage parents to visit with their children science museums, 
nature parks, and so on. And we also provide tools for parents 
so that they can really maximize the use of these facilities.
    In terms of No Child Left Behind, if I could have maybe one 
and a half rather than just one change. The one change is to 
include science as part of the AYP. And the half would be to 
also encourage the States to use assessments that much better 
reflect what we think is very important for science education.
    Mr. Ehlers. Thank you. On the AYP, I already have a bill in 
to do that, and I hope I can get an amendment on NCLB, whenever 
we do it, to in fact do that.
    Yes, next.
    Ms. Chang. As an educator, I think our best opportunity is 
to harness the energy and the natural curiosity of our 
children. And so having those opportunities and providing our 
teachers with that knowledge and skills, such as the work I 
have been able to participate in in the academy, is the most 
critical part. Continuing to take a look at professional 
learning, being able to have more opportunities like the 
academy throughout our entire career as an educator is probably 
the most critical role that I see for our children and the 
children of our future.
    Mr. Ehlers. Okay. Thank you.
    Mrs. Amy Michelson. Possibly seeing incentives, more 
scholarships for people in universities to go into STEM 
programs, having all universities step up in that area. Because 
it might--one idea might be to have specialists at an 
elementary level. So maybe your STEM teachers specialize in 
just that field. And I think that is the key, is getting the 
teachers with the knowledge and the passion. And I think that 
will cross over with the students.
    Mr. Mickelson. And for the No Child Left Behind, the one 
thing I have noticed is that the teacher has to spend so much 
time getting the kids that are not competent in those areas, 
get them up to speed, that they are not able to spend time with 
the students that are competent. I would like to see maybe an 
intern or a sub teacher's assistant to be able to help with the 
children who are competent in those areas to advance and pique 
their curiosity even more, so that they strive to achieve 
excellence.
    Mr. Ehlers. Well, excellent ideas. I really appreciate 
that. Some of them I had not heard of before or thought about.
    Just one?
    Chairman Miller. No, no, no, Mr. Scott has been waiting all 
afternoon here.
    Mr. Ehlers. Pardon?
    Chairman Miller. No, no. Mr. Scott.
    Mr. Scott. Mr. Chairman, I yield a minute to the gentleman.
    Chairman Miller. You want to yield, that is fine.
    Mr. Ehlers. Thank you, Mr. Scott. You have always been a 
wonderful gentleman.
    Chairman Miller. As opposed to the chairman.
    Mr. Ehlers. No, the Chair is a super gentleman. Got to get 
these rankings right.
    I just really appreciate the responses you gave. And I will 
be in touch with you to ask you to expand on those in writing 
with a little note to me. The one thing that I think is really 
important that has been mentioned a couple times, and that is I 
believe we should spend a fair amount of the Federal money on 
teacher training, teacher preparation through the math-science 
programs. Professional development is the name of the game if 
you are really going to get to the kids and have things taught 
properly.
    With that, I will yield back to Mr. Scott and thank you for 
the time.
    Mr. Scott. Thank you. It is a little intimidating when a 
Ph.D. in science is talking about STEM. I didn't want to cut 
him off. Thank you. And what the gentleman from Michigan has 
done is trying to focus on what we can do with challenges to 
translate all the testimony into actual legislation to see what 
we could realize.
    Ms. Lovett mentioned a successful program that 
significantly reduced the achievement gap with minorities. Ms. 
Lovett, could you tell us how much that program costs?
    Ms. Lovett. The cost is roughly 30 to $50 per student per 
year. Is that about right? 30 to $50 per student per year. That 
is the initial investment. Those costs would be lower than that 
in future years. The initial investment is predominantly in 
teacher professional development, and that teacher professional 
development is about 14 days in the initial year. And then 
there is some additional curriculum training, as well as some 
technology purchase that is involved in that money. That 
professional development investment, we have seen it actually 
increase not only the capacity of the individual teachers, but 
the capacity of the whole district. And by increasing capacity, 
I mean it becomes sustainable. Because as some of the other 
panel members have mentioned, this intensive professional 
development that the teachers all share with local leadership 
creates a professional learning community where the teachers 
are learning from each other, and they learn to build on that 
and to sustain that over time.
    Mr. Scott. Now, how confident would we be if we spent this 
kind of money and went through that process that we would get 
the same results?
    Ms. Lovett. We are building on our research base each and 
every year as we speak, and we are refining our implementation 
based on what we learn from that. And we have had one 
implementation that has not succeeded, because it was not 
implemented well. So what we have learned is that if the 
implementation is true to the research base that supports it, 
we can guarantee improved results.
    Mr. Scott. Thank you. A lot of the witnesses have talked 
about enthusiasm. There are after-school interest groups that 
we have in my end of Virginia, we call it CHROME, Cooperating 
Hampton Roads Organizations for Minorities in Engineering. Are 
these interest groups, do they work in getting young people 
interested in the STEM subjects? Anybody know?
    Let me ask another question. We have heard pedagogy 
mentioned a couple times, and also the difference between girls 
and boys in learning. Are there different methodologies that 
should be used generally? I mean some better than others, some 
better for girls, some better for boys, some better for 
different ethnic groups that we need to consider?
    Ms. Lovett. From the work that I have done with the Women 
of TI Fund, and from research that was actually done by the 
National Science Foundation, what we found is that there are 
unintended biases that teachers use. An example is in science 
labs, specifically in physics, when there is a mixed gender 
classroom the boys are more likely to go for the equipment and 
the girls are more likely to volunteer to take notes. And so 
what we have done with the gender neutral teacher training is 
we brought in an expert, Jo Sanders from the University of 
Washington, and she actually videoed teachers in progress in 
their classroom and taught them how to be more neutral and more 
inclusive in their teaching styles. We don't have evidence to 
prove that this greater inclusiveness would also apply to other 
ethnic groups. But intuitively what it is, is a more inclusive 
pedagogical style.
    Mr. Scott. Could you have the same process for all classes 
or would different methods work for different children?
    Ms. Lovett. Well, it is the same process for--all of the 
advanced placement math and science teachers went through this, 
went through this training, this gender neutral teacher 
training. And what we found is that the performance of the 
students in math and science improved, boys and girls in math 
and science.
    Sally Ride, Dr. Sally Ride mentioned that TI is also doing 
some summer camps in physics for girls, and what we found is 
the combination of the teacher training with the summer camps 
yielded the absolute best results. So the teacher training 
translates into touching all of the students that that teacher 
is teaching, regardless of the subject.
    Chairman Miller. Thank you. Thank you all very much. You 
have been very, very generous with your time, but I am going to 
keep you 1 minute longer here.
    When you spend time with kids, we have spent time with our 
own kids and our grandchildren, and certainly in this committee 
we spend a lot of time observing children in different 
settings, and I think with the advent of technology you see it, 
children impart a huge amount of information to one another. 
You watch children as they master a game, an electronic game or 
checkers, you know, however they want to do it, electronic 
checkers. They immediately are able to talk to their peers, 
their sisters, their brothers, their friends, and tell them 
what the rules are here. This is what you get to do. And if you 
look as they become, you know, more involved in a case of 
electronic games, they are making, you know, massive multiple 
computations in very rapid order here about risk and reward, 
about competency, about the odds, they are doing all these 
calculations. You now see people playing Wii, they are playing 
golf with Wii, they are immediately making adjustments and 
deciding what is affecting this, what are the parameters of 
this game? And I just wonder as we look at this, and I am 
thinking more of third and fourth and fifth graders, what do we 
know about and what has been done to have students as teachers 
and imparting this information? You know, we see collaborative 
learning arrangements in many, many classrooms. We see students 
working on the Internet across countries and across the 
continent assembling answers to problems in their class. There 
may be a school in Hawaii that is reclaiming wetlands. A school 
in California may be studying wildlife at Pajaro Dunes, 
whatever it is, and they are imparting all of this information.
    I just went through a project with kids in civil rights 
where they had to assemble a presentation to an ad firm to get 
the contract to publicize, and then later to an architectural 
firm to build a monument to the Black Panthers, to the women's 
movement, to Martin Luther King, to John Kennedy. And they had 
to do it all. And they were all teaching one another how to do 
this.
    Does this work in math and science? I mean it would seem to 
me--one of the things that really intrigued me about this ad, 
as I was laying on the couch watching it--I wasn't, I was 
sitting up actually--was that it said to a young person if they 
really watched it, or to anybody, to me, that this is the world 
around you. The swing in the club with the formulas, the ball 
the texture, the greens. And this is the world that is there. 
And as children start to understand this they have this 
ability. I don't mean they should be the teachers of 
mathematics. But it seems to me that sometimes we go over the 
top of them very often when they in fact have the ability. You 
watch children teach one another how to use a computer in a 
school and they rapidly spread it. They become viral in their 
ability to spread that information. And I just--it is kind of 
off the wall, but I just wondered if you looked at this 
question of how we use that cooperative and collaborative 
skills that children have, and how we might use that in this 
effort.
    Anybody? Anybody? Ferris Bueller. Anybody? Showing my age 
again.
    Ms. Sullivan. In particular at IBM, we are using gaming 
technology with middle school children and high school children 
to look at this game called Power Up, which looks at energy and 
the environment. And the wonderful thing about the environment 
right now is it really is an agenda item that is on everyone's 
mind, including children, because they are understanding that 
they can't get new tennis shoes because their parents are 
paying for gas. So every citizen in the U.S. understands that 
there is an energy issue and an environment issue at this 
point. So the game that we have developed that we provide to 
these students is a collaborative tool that allows them to look 
at, through a game, how do they better manage power? How do 
they better manage the environment? And we have found that it 
absolutely sparks that interest in children and helps to 
provide that type of collaborative learning that is very 
essential in learning that skill for when they enter the 
workforce.
    Ms. Lovett. So student-centered learning is a key aspect of 
the MathForward program that I talked with you about. And a 
couple of examples of that, at the Richardson School, like 
Highlands Junior High, where we implemented the program, one of 
the students was on the track team. And he took all of the 
statistics with regard to the track team's performance and put 
that into a project where he explained mean, median, and mode 
to his entire classroom. Another example, I was in a classroom 
where the teacher--a crime had been committed, and there was 
certain information about the size of the criminal's footprint 
that was left. And they were using that information against 
statistics of the human body in order to determine the height 
of the criminal. And it is these kinds of student-centered 
learning, real world learning, discovery and exploration-type 
learning that keep the kids engaged.
    Mr. Wells. So we believe that if you get kids excited about 
science and math that they will infect other kids, if you can 
use that term. And that there has been research that shows that 
the peer pressure can actually have a very positive effect. If 
you get a lot of kids interested in math and science, they can 
actually encourage others to be interested and actually create 
a very positive upward trend. So with MathMovesU, that is what 
we are trying to do is get them interested, get them excited, 
and have them go get others interested and excited.
    Chairman Miller. We were in New York a couple months ago, 
and we were looking at presentations of technology in schools 
at the Joan Cooney Center. The founders of Sesame Street put 
together a foundation, and were doing some interesting things. 
But a person was there from Electronic Arts, I think one of the 
creative people from Electronic Arts, and was running through 
John Madden Football. And he was explaining, having John Madden 
teach mathematics, all of the computations that have to go into 
making that video with respect to that runner and that tackler, 
because it has to be accurate. So that tackler can succeed 
coming in at the side on this runner 12 percent of the time, 
head on can succeed 72 percent of the time, from the right 19 
percent of the time. And it goes on and on, so that they can 
properly depict the game that the kids expect when they are on 
that one.
    So I ran into John Madden the other night, and I was 
explaining how this fellow was having him teach mathematics to 
this audience in New York. And he was kind of taken aback a 
little bit. And then I explained what he was showing the 
audience. And then of course he got very--you know, knocking 
things over and spilling things and going on and on about it. 
But he says we have a whole group of kids down at the studio 
doing that right now. He says we brought kids in from all over 
the area, and they are going through the mathematics of 
developing this film so that they can think about film making 
and all of the rest of it. I mean those tools are out there to 
engage them. And I just somehow, how we are able to keep that 
over a 12 or 14 or 16-year period is I guess is sort of the 
challenge. And it is not that it is all fun and games, but it 
can be fun and games. And what excites, you were talking about 
showing the teachers and others the basics and the excitement 
of the physics and the math. There it is. It is laid out that 
way. And I am just trying to figure out how to keep that 
enthusiasm.
    All right.
    Mr. Hinojosa. Mr. Chairman?
    Chairman Miller. Yes.
    Mr. Hinojosa. Before you end the hearing, may I ask one 
question?
    Chairman Miller. Yeah. But we are out of here in about 3 
seconds.
    Mr. Hinojosa. There is great discussion here and dialogue 
on the excitement to get children into math and science, and so 
forth. But I wanted this opportunity to ask Dr. Chang about 
something that you said in your presentation on our teacher 
preparation. And you talked about having started in the early 
years, the third, fourth, fifth grade, and then you said since 
we already represented several grade levels, we felt the next 
step was to develop vertical grade level articulation. And you 
went on to explain that. What has been the difficulty to get 
other school districts to accept that type of planning that you 
spoke of?
    Ms. Chang. Well, I am not certain if I can speak for other 
school districts. I can just say that I am fortunate that I am 
in a district that has allowed me to stretch an idea and go 
with it. You know, it is a unique situation to actually put 
teachers that teach at the elementary level together with 
middle school and high school teachers to talk about math or 
science, and to share ideas and resources. And so I am hoping 
maybe there is an opportunity then to spread the word to other 
places and create more communities of educators having these 
kinds of conversations, where we could see this happening 
nationwide.
    Mr. Hinojosa. So what I understand is that the teachers 
that are working in like K through the third grade know that 
they have to put the building blocks so that then the fourth 
through the sixth grade will have their part and it falls in 
place. And then that really gets them ready for algebra either 
in the seventh or eighth grade. And so before we know it, the 
whole ladder has been built, but it makes sense. I think that 
that is lacking in many of our school districts, that type of 
articulation. And where the communication, you said that you 
brought them all together, representing the different classroom 
grades, so that if we don't have that then a teacher just 
selects whatever she likes or he likes, and it may not fit into 
that articulation.
    Chairman Miller. This discussion is going to continue 
later. I promised this panel we would have them out of here at 
4:30. And that is one of the issues that was raised by the Math 
Panel, our failure to have that kind of articulation across the 
subject matter.
    Thank you very much----
    Mr. Hinojosa. Thank you.
    Chairman Miller [continuing]. For your testimony, your 
expertise, and your time. Phil, I know you flew a great 
distance to be here with us and you are a busy man. Thank you 
so much. And to all the rest of you, thank you so much. We 
would like to continue to use you as a resource. As you know, a 
number of people talked about the future of No Child Left 
Behind. So we would like to make sure that we could use you as 
a resource as we get onto that. Thank you.
    Without objection, members will have 14 days to submit 
extraneous material or questions for the hearing record. And I 
ask unanimous consent for two pieces of written testimony for 
the hearing record from ACT and from Exxon Corporation. Without 
objection, so ordered.
    [The prepared statement of American College Testing Program 
(ACT) follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [The ``EPAS\TM\ State of the Nation Report 2007: 
Mathematics,'' may be accessed at the following Internet 
address:]

     http://www.act.org/research/policymakers/pdf/math--report.pdf

                                 ______
                                 
    [The statement of ExxonMobil follows:]

                     Statement of Exxon Mobil Corp.

    ExxonMobil utilizes technology and innovation in every element of 
its business and recognizes the essential roles that math and science 
play in the energy business and the nation as a whole. As a technology 
company, we are a leader in the national effort to improve math and 
science education.
    ExxonMobil is committed to advancing U.S. math and science 
education and does so by supporting a variety of education initiatives 
targeting students and teachers. Much of our outreach focuses on 
recommendations outlined in the landmark report by the National 
Academies, Rising Above the Gathering Storm, which was released in 
2005. The report stated that ``the scientific and technical building 
blocks of America's economic leadership are eroding.'' According to the 
report, improving American students' performance in math and science 
coursework is the most effective way to increase the United States 
global competitiveness. We agree.
    Over the past 30 years we have contributed approximately $1 billion 
to a variety of programs designed to help improve math and science 
education. In large part, the education programs that we support are 
designed to motivate and inspire young people to pursue careers in 
science, technology, engineering and mathematics (STEM) and to increase 
opportunities for women and members of minority groups.
    STEM subjects allow students to be better prepared for careers in a 
number of fields that are increasingly important in today's highly 
competitive, technology-driven world. Maintaining a full pipeline of 
talent in these fields is important to the nation's future 
competitiveness and our country's continued progress in fields ranging 
from energy and communications to medicine and environmental care.
    As mentioned, our outreach focuses on the recommendations outlined 
in the National Academies report:
    <bullet> Motivating students to learn and perform well in math and 
science courses;
    <bullet> Providing math and science teachers with professional 
development opportunities; and
    <bullet> Supporting the development of highly qualified math and 
science teachers.
    In 2007, we helped launch the National Math and Science Initiative 
(NMSI) with a $125 million grant, an amount we believe is the single 
largest corporate grant ever devoted to math and science education.
    NMSI is an independent, non-profit entity overseen by a board of 
prominent educators, scientists, and business leaders. The primary 
mission is to identify the most successful programs, and help bring 
them to national scale. NMSI's work is already underway, through two 
proven programs--both referenced in the National Academies' report 
Rising Above the Gathering Storm.
    The first, Advanced Placement Training and Incentives, is a 
remarkably successful public school initiative that focuses on 
increasing the numbers of trained Advanced Placement (AP) teachers and 
classes, and attracting more young people to take these rigorous 
courses. Results of the program's success are impressive. In the last 
ten years, the number of students passing Advanced Placement math, 
science and English exams has increased five-fold, due in large part to 
this program.
    The Advanced Placement initiative is also significant because 
students passing exams in these disciplines are more likely to pursue 
them in college. In addition, students passing AP exams are three times 
more likely (four times in the case of African-American and Hispanic 
students) to earn a college degree within six years of completing high 
school than students who do not.
    In its first year, NMSI awarded $80 million to six non-profits in 
six states to expand AP programs. However, we know there is unmet 
demand for this program as proposals were received from no less than 28 
states. NMSI is ready to make a second round of grants, but additional 
funding is needed.
    The second program, UTeach, was developed at the University of 
Texas and encourages math and science majors to enter the teaching 
profession by offering compact degree plans, substantial early teaching 
experiences, and financial assistance for undergraduates. The program 
at the University of Texas now has more than 500 students enrolled and 
has achieved a graduation rate three times higher before the program 
began.
    In its first year, NMSI awarded more than $30 million to 13 
universities across the country to launch UTeach-type programs. Fifty-
three universities submitted proposals and more awards can be made when 
additional funding is available.
    NMSI's goals for each of these programs is that within five years, 
there will be an AP program in 150 school districts in 20 states, and 
UTeach-type programs underway on more than 50 college and university 
campuses nationwide. By 2020, more than 10,000 graduates of these 
programs will have impacted more than 3 million students.
    While NMSI is our largest contribution to date, ExxonMobil has a 
long history of supporting programs that help improve access to STEM 
education for minorities and women. Working with organizations 
including the Society of Women Engineers and the National Action 
Council for Minorities in Engineering (NACME), ExxonMobil has 
continually strived to increase opportunities for women and minorities 
in STEM-related careers.
    For example, two years ago we partnered with former astronaut Dr. 
Bernard Harris to provide two, two-week long, residential summer 
science camps designed help disadvantaged students enhance their 
knowledge in science, technology, engineering and mathematics (STEM), 
encourage them to stay in school and help foster their leadership and 
citizenship skills. The program became so popular that this year we 
quickly expanded the program to 25 camps at universities across the 
country, reaching more than 1,200 young people.
    In the aftermath of Hurricane Katrina, ExxonMobil committed $10 
million to help Greater New Orleans schools restore and enhance their 
math and science education programs, and in a relatively short amount 
of time, we are already seeing encouraging signs of progress.
    We are also longtime supporters of the Hispanic community through 
grants and awards that encourage Hispanic youth who excel in the math 
and science fields. In fact, Congressman Hinojosa and our Chairman Rex 
Tillerson were recently recognized by the Hispanic Heritage Foundation 
for their roles in creating opportunities for Hispanic youth.
    Finally, of course, we are closely involved with Phil and Amy 
Mickelson and the Mickelson ExxonMobil Teachers Academy. Established in 
2005, the Mickelson ExxonMobil Teachers Academy began as an annual, 
one-week intensive professional development programs for approximately 
200 third- through fifth-grade teachers to enable them to discover 
innovative ways to teach science and math and to inspire their 
students. Since then, the Academy expanded to three, week-long 
Academies and has helped hone the teaching skills of more than 1,200 
teachers, impacting more than 30,000 students nationwide.
    More details on these and other programs are provided in the 
attached summary.
    A copy of our 2007 Corporate Citizenship Report will be made 
available to Members of the Committee and can be accessed at the 
following link:

            www.exxonmobil.com/Corporate/community--ccr.aspx

    We thank the Committee for the opportunity to provide this 
information for the record.
ExxonMobil Summary of STEM Educational Initiatives
    ExxonMobil is committed to supporting programs and organizations 
that focus on the improvement of education from pre-school through 
higher educational levels.
    Much of our outreach focuses on:
    <bullet> Motivating students to learn and perform well in math and 
science courses;
    <bullet> Providing math and science teachers with professional 
development opportunities; and
    <bullet> Supporting the development of highly qualified math and 
science teachers.
    Our programs include:
            National Math and Science Initiative (NMSI)
    ExxonMobil helped launch NMSI in 2007 with the single largest 
corporate grant devoted to math and science education. NMSI is an 
independent, non-profit entity overseen by a board of prominent 
educators, scientists, and business leaders, and staffed by well-
experienced managers who have made impressive contributions to public 
education in the U.S.
    Other supporters of NMSI include the Bill & Melinda Gates 
Foundation, the Michael & Susan Dell Foundation, IBM and Perot Systems. 
NMSI's primary mission is to identify the most successful programs, 
then help bring them to national scale by raising private 
contributions, establishing or aligning with capable state 
organizations and universities, and effectively managing program 
implementation while ensuring that funds are utilized efficiently with 
appropriate accountability and measurement of results.
    Primary goals of NMSI include:
    <bullet> Develop a new generation of highly qualified math and 
science teachers by replicating the successful UTeach program across 
the U.S. UTeach attracts math and science majors to teaching by 
offering an integrated degree plan, early teaching experiences and 
financial assistance for undergraduates.
    <bullet> Elevate student achievement by expanding AP(r) and pre-
AP(r) courses, including extensive training of teachers, identifying 
and developing of lead teachers' and financial incentives based on 
academic results.
            New Orleans Education Initiative
    In the aftermath of Hurricane Katrina, we committed $10 million to 
help schools in Greater New Orleans to restore and enhance their math 
and science education programs. As you know, New Orleans is essentially 
rebuilding its entire system of public education. We see encouraging 
signs of progress, and have started our initiative there by working 
with Xavier University to develop a state of the art Math and Science 
Teacher Training Institute to serve the teachers of Greater New 
Orleans. This Institute has been endorsed by the leadership of the 
Recovery School District, Orleans Parish, the Charter School Community, 
and several parishes around New Orleans. We also funded a grant to 
begin the process of preparing New Orleans students for Advanced 
Placement programs.
            Reasoning Mind
    Reasoning Mind is another program that excites us due to its 
potential to significantly increase math proficiency among 
disadvantaged students and help elementary grade teachers who may not 
have a strong academic background in math. RM is an innovative, web-
based 4th, 5th and 6th grade math education program that uses 
artificial intelligence, interactive graphics and a world class 
curriculum to actively engage middle school students in math.
    It includes an automated tutor, individual pacing, facilities for 
online tutoring, an on line textbooks and a glossary of mathematics 
terms. Also, it includes a point scoring system to allow students to be 
rewarded for work done correctly and to help teachers assign grades and 
accurately assess progress.
    Of great interest to us is consistent survey data that shows the 
great majority of students who have used the system enjoy learning math 
with Reasoning.
            ExxonMobil Bernard Harris Summer Science Camps
    ExxonMobil partners with the foundation established by former 
astronaut Dr. Bernard Harris to offer twenty five week summer camps at 
universities across the country. The camps enhance middle school 
students' knowledge of science, technology, engineering and mathematics 
(STEM), encourage youth to stay in school and foster leadership and 
citizenship. This summer, we have expanded this program to 25 camps at 
universities across the country and will reach more than 1,200 young 
people, there remains significant unmet demand.
            National Science Teachers Association (NSTA)
    Through the Building a Presence (BAP) for Science program, 
ExxonMobil funds professional development and networking for K-12 
science teachers. NSTA has trained key leaders in 25 states and more 
than 40,000 points-of-contact are currently active in schools across 
the U.S. In 2008, ExxonMobil awarded a $2 million grant to support 
NSTA's new Education Learning Center, which will deliver professional 
development to teachers online.
            SECME, Inc.
    Formerly the Southeastern Consortium for Minorities in Engineering, 
SECME is a strategic alliance that partners schools, universities, 
industry and government to renew and strengthen the professional 
capacity of K-12 educators; motivate and mentor students; and, empower 
parents and communities to prepare minority youth for careers in the 
math, science, engineering and technology fields.
    ExxonMobil's support of SECME directly aids several initiatives 
including: Summer Institute for Teachers, K-12 in-service professional 
development, national and state program development and ExxonMobil 
SECME Scholars.
            Project NExT
    Project NExT, an acronym for ``New Experiences in Teaching'', helps 
prepare new Ph.D. mathematicians for the challenges of undergraduate 
teaching. Administered by the Mathematical Association of America, the 
program gives new teachers access to seasoned professionals and helps 
acquaint them with an array of teaching strategies.
            Houston ISD Middle School Specialist Program
    Based on the successful math specialist program for K-5, The 
Houston A+ Challenge (education nonprofit) will develop and implement a 
math specialist program for middle schools in Houston ISD. Model will 
be developed which will allow the program to be expanded to additional 
districts.
            National Action Council for Minorities in Engineering 
                    (NACME)
    Founded more than 30 years ago, and supported by corporations, 
NACME has the goal of leading the effort to increase the representation 
of minority men and women in engineering and related careers. Block 
grants for scholarships are awarded to universities that have a track 
record and a focus to increase the number of minority engineering 
graduates. In 2007, ExxonMobil awarded a $1 million grant to NACME to 
help establish engineering academies in existing high schools across 
the nation.
            Educational Matching Gift Program
    The U.S. Educational Matching Gift Program encourages and assists 
ExxonMobil employees and retirees in their personal giving to higher 
education by providing a $3-for-$1 matching program. In 2006, we 
granted more than $21.3 million in matching funds to more than 900 
colleges and universities, the United Negro College Fund, the Hispanic 
Scholarship Fund, and the American Indian College Fund.
            Introduce a Girl to Engineering
    Through interactive demonstrations, in school presentations and 
company site visits, ExxonMobil employees actively participate in the 
annual event to engage, excite and encourage middle school girls to 
consider educational opportunities and careers within the science, 
technology, and engineering disciplines.
            Women in Science and Engineering (WISE) Program at Spelman 
                    College
    The ExxonMobil Scholars program was established as part of the WISE 
program at Spelman College. This signature student development effort 
has successfully facilitated the recruitment, retention and graduation 
of African American females pursuing baccalaureate degrees in 
chemistry, physics, mathematics, or computer science as part of their 
enrollment in the college's dual degree program in engineering.
            Transition to Teaching Program
    An innovative new program called Transition to Teaching will be 
launched later this year. The program will provide financial assistance 
and other support to eligible ExxonMobil employees who want to move 
into teaching as a second career. The program will offer customized 
certification programs, including both traditional and online courses, 
so that people with bachelor's degrees or credentials in math, science 
and related fields can get the education courses they need easily and 
at no cost.
            Diversity STEM Programs
    ExxonMobil has a long history of supporting programs that seek to 
improve education and career opportunities for minorities and women, 
particularly within the STEM fields. Programs and partners include:
    <bullet> Hispanic Heritage Youth Awards
    <bullet> National Society of Black Engineers
    <bullet> American Indian College Fund
    <bullet> Society of Hispanic Professional Engineers
                                 ______
                                 
    Chairman Miller. And with that, the committee will stand 
adjourned.
    [Whereupon, at 4:32 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
